Office of Inspector General
Semiannual Report to Congress
October 1, 2010 — March 31, 2011
MISSION STATEMENT
The mission of the U.S. Postal Service Office of Inspector General is to conduct and supervise
objective and independent audits, reviews, and investigations relating to Postal Service
programs and operations to:
 Prevent   and detect fraud, theft, and misconduct.
 Promote   economy, efficiency, and effectiveness.
 Promote   program integrity.
 Keep the Governors, Congress, and Postal Service management informed of problems,
  deficiencies, and corresponding corrective actions.
A MESSAGE FROM THE INSPECTOR GENERAL


This report, submitted pursuant to the Inspector General Act, outlines our work and activities for the
6-month period ending March 31, 2011. In the first section of this report, we highlight audits and reviews
that address risks in the strategic, financial, and operational areas of the Postal Service. The second
section highlights investigations conducted during this reporting period that contributed to safeguarding the
Postal Service’s revenue and assets and helped deter postal crimes.
Postal Service executives often work closely with their Office of Inspector General (OIG) counterparts
to identify problems and collaborate on solutions. These efforts have resulted in significant savings
opportunities. During this period, we issued 107 audit reports and management advisories, and the Postal
Service accepted 98 percent (87 of 89) of the OIG’s significant recommendations.
In addition, we completed 1,661 investigations that led to 326 arrests and more than $708 million in fines,
restitutions, and recoveries, of which nearly $68 million went to the Postal Service.
The Postal Accountability and Enhancement Act of 2006 encouraged the U.S. Postal Service to modernize
and adopt a leaner, volume-driven infrastructure that assures readiness for the 21st Century. The Postal
Service has taken steps toward rightsizing its network and aligning its workhours to the ebb and flow of
mail, but progress has been slow. The considerable financial challenges facing the Postal Service make
these necessary changes even more urgent.
Our audit report on the Postal Service’s financial condition underscored the organization’s financial
crisis, which is the result of overpayments to federal benefits funds, the recent recession, the disruption
of the digital age, and an oversized Postal Service network. Our work has determined that a prefunding
adjustment to pension and retiree health care funds would improve the Postal Service’s financial position.
Still, the Postal Service needs to continue to optimize, simplify, innovate, and find its role in an age of fast-
changing digital communications.
In February, we released a white paper that examined key digital trends and the gaps in providing all
citizens with access to digital communications. The research provides a framework for postal stakeholders
to consider what a future postal system might look like and to contemplate how the Postal Service might
serve as a bridge between hard-copy communications and the digital world.
Our work in this period also focused on other challenges the Postal Service faces, including customer
service issues and information technology controls. Our investigative work centered on ensuring the
integrity of postal personnel, processes, and finances.
The OIG — with the support of the Governors, Congress, and Postal Service management — will continue
to play a key role in maintaining the integrity and accountability of America’s postal service, its revenue and
assets, and its employees through its audit and investigative body of work.




                                                                                  David C. Williams
                                                                                  Inspector General
SUMMARY OF PERFORMANCE
October 1, 2010 — March 31, 2011
AUDITS
Reports issued                                                                                                                 107
Significant recommendations issued                                                                                             89
Total reports with financial impact                                                                                            30
     Funds put to better use                                                                                 $61,629,436,252
     Questioned costs1                                                                                          $566,259,866
     Revenue Impact                                                                                               $58,520,796
TOTAL FINANCIAL IMPACT              2
                                                                                                          $ 62,254,216,914


INVESTIGATIONS3
Investigations completed                                                                                                  1,661
Arrests                                                                                                                        326
Indictments/informations                                                                                                      366
Convictions/pretrial diversions4                                                                                               381
Administrative actions                                                                                                    1,009
Cost avoidance                                                                                                    $88,992,568
Fines, restitutions, and recoveries5                                                                             $707,668,622
     Amount to Postal Service                                                                                     $67,959,781


OIG HOTLINE CONTACTS
Telephone calls                                                                                                        31,891
E-mail                                                                                                                 13,496
Virtual Front Office calls                                                                                             10,828
Standard Mail                                                                                                            1,095
Voice mail messages                                                                                                       360
Facsimile – FAX                                                                                                               218
National Law Enforcement Communications Center                                                                                337
TOTAL CONTACTS                                                                                                        58,225



1
    Includes unsupported costs of $266,180,194.
2
    The Postal Service agreed to recommendations or proposed alternative corrective actions that, if implemented, could result in more than
      $62 billion in savings.
3
    Statistics include joint investigations with other law enforcement agencies.
4
    Convictions reported in this time frame may be related to arrests made in prior reporting periods.
5
    Amount include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.
TABLE OF CONTENTS
INTRODUCTION................................................................................................................. 3
ASSESSING PROGRESS TOWARD STRATEGIC GOALS.......................................................... 4
Goal 1: Improve Service................................................................................................................................................. 5
Goal 2: Improve Employee Engagement.......................................................................................................................... 7
Goal 3: Improve Financial Performance........................................................................................................................... 8

REGULATORY STUDIES AND REPORTING OBLIGATIONS..................................................... 12
PRESERVING ACCOUNTABILITY........................................................................................ 14

OFFICE OF INVESTIGATIONS............................................................................................ 18
Financial Crimes......................................................................................................................................................... 19
Workers’ Compensation Fraud..................................................................................................................................... 21
Delay, Destruction, and Theft of Mail by Employees....................................................................................................... 23
Contract Fraud............................................................................................................................................................ 24
Official Misconduct..................................................................................................................................................... 26
Executive Investigations and Internal Affairs.................................................................................................................. 27

SPECIAL FEATURES........................................................................................................... 8
Fundamental Questions for the Future of the Postal Service............................................................................................. 9
Substantial Savings Available by Prefunding Pensions and Retirees’ Health Care............................................................. 10
Can the Postal Service Bridge the Digital Divide?.......................................................................................................... 11
Postal Service Financial Condition................................................................................................................................ 12
Workshare Discounts Exceeding Avoided Costs............................................................................................................. 14
Major Fraud Investigations Division.............................................................................................................................. 25
Contract Fraud Risk Alert Issued to Postal Service......................................................................................................... 26

APPENDICES................................................................................................................... 29
APPENDIX A — Reports with Quantifiable Potential Monetary Benefits........................................................................... 30
             Report Listing..................................................................................................................................... 32
APPENDIX B — Findings of Questioned Costs.............................................................................................................. 35
APPENDIX C — Recommendations That Funds Be Put to Better Use.............................................................................. 36
APPENDIX D — Other Impacts.................................................................................................................................... 37
APPENDIX E — Reports with Significant Recommendations Pending Corrective Actions.................................................. 39
APPENDIX F — Significant Management Decisions in Audit Resolution.......................................................................... 55
APPENDIX G — Status of Peer Review Recommendations............................................................................................ 56
APPENDIX H — Investigative Statistics......................................................................................................................... 57
APPENDIX I — Summary of U.S. Postal Inspection Service Investigative Activities Under Title 39 USC 3005 & 3007........ 58
APPENDIX J — Closed Congressional and Board of Governors’ Inquiries........................................................................ 59

SUPPLEMENTAL INFORMATION....................................................................................... 65
Freedom of Information Act.......................................................................................................................................... 65
Workplace Environment............................................................................................................................................... 65
Acronym Guide........................................................................................................................................................... 66
                                                                                                                                                     INTRODUCTION




INTRODUCTION
The history of the U.S. Postal Service is inextricably tied to the history
of this country’s founding. The Second Continental Congress, meeting
in Philadelphia in 1775, understood that the conveyance of letters and
intelligence was essential to the cause of liberty. It created a postal system
that same year, appointing Benjamin Franklin as its postmaster general.

Since its creation, the Postal Service’s mission has remained essentially
unchanged: to bind the nation together through the provision of reliable,
affordable, universal mail service. For the past 40 years, the Postal Service
has paid for its operations from revenues earned by the sale of postage and
services. It is not supported by taxpayers, and has not taken a congressional
subsidy to pay for its operations since 1982.                                 The Postal Service’s mission has remained unchanged since the days of
                                                                                     Benjamin Franklin: to bind the nation together through the provision of reliable,
                                                                                     affordable, universal mail service.
The Postal Service has relied on a steady increase in mail volume and
revenue to cover its expenses. This paradigm shifted a few years ago, when
the recession and the changing nature of communications collided. Mail volumes plummeted causing revenue to
drop and annual net losses to mount. The Postal Service has seen mail volume decline by 41 billion pieces, or 20
percent, since 2007. Changes to its business model are essential, which the Postal Service has addressed in its
10-year plan to maintain a viable Postal Service.

The Postal Service Office of Inspector General has done work to evaluate the challenges facing the Postal
Service, which include an oversized postal network, the need to strengthen its innovation efforts, and shrinking
revenue in a new era of communications. The Postal Service’s most pressing demand, however, is the federally
mandated overfunding of its retiree benefit plans. The Postal Service has posted net losses totaling $20 billion in
the past 4 years, nearly all of it attributable to the mandated prefunding of its Retiree Health Benefits Fund.

Our work includes a detailed review of the Postal Service’s overpayment to the Civil Service Retirement System
and the Federal Employee Retirement System. We benchmarked prefunding levels of public and private sector
entities for pensions and retiree health benefits and noted where the Postal Service could find substantial cost
savings.

In this most recent reporting period, we also assessed the Postal Service’s financial condition and reviewed the
discounted rates it provides to commercial mailers. We looked at how the Postal Service could make better use
of its workforce and network by driving out inefficiencies and redundancies.

We also have studied opportunities for the Postal Service as it moves into the 21st century and finds its role
in a constantly evolving communications environment. Our reports and white papers have helped shape the
discussions on how to position the Postal Service to be sustainable and successful in the digital age.

The reports and investigations noted in this semi-annual report to Congress support our mission to root out
fraud, waste, and abuse to protect the Postal Service’s bottom line, safeguard the integrity of the Postal System,
and maintain confidence in the mail. We rely on technology, engagement, and collaboration to protect current
and future postal revenues and to promote more efficient and productive Postal Service operations. We are also
proud to have contributed to the debate on how best to sustain a valuable national infrastructure.




                                                                                                                                    October 1, 2010 — March 31, 2011 | 3
4 | Semiannual Report to Congress
                                                                                                                                          IMPROVE SERVICE




ASSESSING PROGRESS TOWARD STRATEGIC GOALS                                                                                     MANAGEMENT
In this section, the Office of Audit (OA) assesses the Postal Service’s progress toward the strategic goals                   RESPONSE TO
articulated in its Foundation for the Future: 2010 Comprehensive Statement on Postal Operations, 2010                         AUDIT WORK
Performance Report, and 2011 Performance Plan. These goals are to improve service, improve employee                           OA adheres to professional
engagement, and improve financial performance. We have organized our audit work in line with these goals.                     audit standards and
                                                                                                                              generally presents its
We also present feature stories, and work on issues of regulatory studies and reporting obligations, and                      audit work to management
                                                                                                                              for comments prior to
preserving accountability. In addition, we report on Risk Analysis Research Center research and white papers.                 issuing a final report.
                                                                                                                              Unless otherwise noted in
                                                                                                                              the selected audit work
                                                                                                                              discussed in this report,
                                                               recommendations related to color coding, mail condition
GOAL 1: IMPROVE SERVICE                                                                                                       management has agreed
                                                               reporting, and mail flow had not been fully implemented
                                                                                                                              or partially agreed with our
                                                               due to lack of management oversight. Consequently,
The Postal Service’s priority is to provide timely, reliable                                                                  recommendations and is
                                                               service scores and customer satisfaction could be
delivery and improved customer service across all access                                                                      taking or has already taken
                                                               adversely impacted.
points. Specifically, it is focusing on the quality and                                                                       corrective action to address
consistency of service as well as the speed and reliability                                                                   the issues raised.
                                                               Express Mail Guarantees
of end-to-end mail delivery for all product lines.
                                                               Express Mail is an expedited mail delivery service of the
Intelligent Mail Customer Satisfaction                         Postal Service that guarantees mail delivery time. The
                                                               Postal Accountability and Enhancement Act of 2006
The Postal Service relies heavily on information technology    classifies Express Mail as a competitive product and
to support its mission of providing prompt, reliable, and      requires the Postal Service to ensure that each competitive
efficient mail. The agency has implemented Intelligent Mail    product covers its attributable costs. The Postal Service
barcodes for mailpieces and containers, and deployed the       charges Express Mail postage for each addressed
enabling technology to support mail visibility in the Postal   mailpiece according to its weight and zone, with on-time
Service network. The Postal Service offers two Intelligent     delivery guaranteed or the customer gets their money back.
Mail service options: basic and full.                          We assessed whether it is a prudent business practice for
                                                               the Postal Service to guarantee Express Mail Service to all
We reviewed the performance risks associated with the
                                                               ZIP Codes and American territories.
full service program to determine customer satisfaction
and identify barriers to mailer participation. As a result,    The Postal Service came very close to meeting its overall
we recommended that the Postal Service re-emphasize            goal of 96 percent on-time Express Mail delivery in
program benefits to business mailers, consider offering        FY 2009. However, of the 115.6 million pieces of Express
program incentives to business mailers to offset program       Mail sent from October 1, 2007, through March 31, 2010,
start-up costs, and provide continuing training to business    the Postal Service did not meet the guaranteed delivery
mail entry clerks and PostalOne! help desk employees. We       times for 5 million pieces, resulting in potential monetary
recognize that corporate efforts were already under way        exposure of $80.6 million. The actual amount refunded
to emphasize program benefits before the inception of our      for this period was $14.5 million. In addition, the Postal
audit and that the mailer participation results are mixed      Service was not monitoring Express Mail Corporate Account
thus far.                                                      negative balances and closing inactive accounts effectively.
Follow-up Review of Operations and Service                     Internal Controls over Powered Industrial
in the Philadelphia District                                   Vehicles
Overall, operations and service have improved in the           We reviewed internal controls over powered industrial
Philadelphia Metropolitan Customer Service District.           vehicles at the Salt Lake City Processing and Distribution
They fully implemented 10 of the 13 recommendations            Center and Auxiliary Service Facility. These vehicles
we previously made. These recommendations entailed             include tow motors, fork trucks, tractors, platform lift
improving communication with employees and customers,          trucks, motorized hand trucks, and other specialized
modifying staffing of operations based on mail volumes,        industrial trucks. The Salt Lake City locations do not have
and increasing supervision of employees. However, the          an automated monitoring system, such as the Powered




                                                                                                                              October 1, 2010 — March 31, 2011 | 5
IMPROVE SERVICE




                                          Industrial Vehicle Management System, to control access,           managed at the facility level under guidance from district,
                                          analyze usage, or track locations of the vehicles. The             area, and headquarters transportation officials.
                                          system consists of intelligent wireless devices installed
                                          on vehicles and client-server software for access control,         Employees working at the Suburban Maryland Processing
                                          utilization analysis, real-time location tracking, and many        & Distribution Center (P&DC) were inconsistently applying
                                          other functions.                                                   safety policies while transporting mail and equipment.
                                                                                                             Also, Suburban Maryland P&DC officials did not always
                                          Management at the Salt Lake City facilities was able to            conduct required schedule and vehicle utilization reviews,
                                          effectively manage workhours in tow and forklift operations.       resulting in unassigned driver time and underutilized trips.
                                          However, they did not always manage internal controls over         Management could remove 14,177 excess workhours
                                          vehicle safety and maintenance. Specifically, management           from existing schedules and reduce related fuel costs
                                          did not ensure:                                                    and damage claims, thereby saving the Postal Service
                                                                                                             $650,000 per year.
                                           Certification of powered equipment operators;
                                           Completion of Occupational Safety and Health                    Postal Vehicle Service Scheduling
                                             Administration checklists by drivers;                           and Staffing
                                           Timely completion of preventive maintenance;
                                                                                                             We assessed whether scheduling and staffing of Postal
                                           Repairs to vehicles and compliance with district                Vehicle Service operations are efficient, effective, and
                                             procedures on the use of portable electronic devices.           economical at the Connecticut Valley District. The
                                                                                                             Connecticut Valley District could more efficiently and
                                          Postal Vehicle Service Transportation Routes                       effectively manage transportation processes and schedules,
                                                                                                             thereby reducing driver workhours as well as associated
                                          This audit is one in a series of audits responding to the
                                                                                                             fuel use and damage claims. In addition, the Postal Service
                                          Postal Service’s request to assess whether selected Postal
                                                                                                             could use alternate schedules to include split days off and
                                          Vehicle Service operations were effective and economical.
                                                                                                             expand the use of part-time drivers, where possible. This
                                          As background, the Postal Vehicle Service transportation
                                                                                                             would allow managers to more efficiently staff operations
                                          network uses postal vehicles and employees who work
                                                                                                             and match workhours with workload. By making these
                                          from network distribution centers in or near metropolitan
                                                                                                             changes, we estimate that the Connecticut Valley District
                                          areas, and the drivers travel about 150 million miles
                                                                                                             could save $2 million a year in labor and related costs.
                                          annually. Since these operations are local, the network is
                                                                                                             Surface Mail Classes on Air Transportation
                                                                                                             Networks
                                                                                                             We assessed whether opportunities exist to limit surface
                                                                                                             mail classes on air transportation networks and identify
                                                                                                             related cost-savings opportunities. Typically, the Postal
                                                                                                             Service uses surface transportation to transport Standard,
                                                                                                             Periodicals, and Package Services mail classes, and air
                                                                                                             transportation for mail classes with more stringent service
                                                                                                             standards, including First-Class Mail, Priority Mail, and
                                                                                                             Express Mail.

                                                                                                             The Postal Service unnecessarily spent more than $10
                                                                                                             million a year transporting surface mail classes on air
                                                                                                             networks. Headquarters was not effectively monitoring the
                                                                                                             types of mail being flown, and headquarters and area level
                                                                                                             officials did not routinely assess the volume of surface
                                                                                                             mail on air networks. The volume of surface mail classes
                                                                                                             being flown increased in FYs 2007 and 2009, even though
                                                                                                             overall mail volumes steadily decreased since FY 2006.
                                                                                                             Management stated that actions already implemented
 The Postal Vehicle Service transportation network uses postal vehicles and postal employees who work        should begin to show positive results by the end of
 from network distribution centers in or near metropolitan areas. The OIG audits the operations, including   the first quarter of FY 2011, and will reduce or eliminate
 scheduling and staffing, to determine if they are effective and economical.                                 unnecessary expenses.




6 | Semiannual Report to Congress
                                                                                                                                                          IMPROVE SERVICE




Flats Sequencing System – Arizona
We conducted an audit to analyze how delivery operations
have improved as a result of delivery units receiving flat
mail in walk-sequence order from the Flats Sequencing
System (FSS). The seven Arizona District delivery units
reviewed have improved delivery operations and cut
operating costs by $1.3 million. However, these delivery
units received more than 14 million flat mailpieces not
in sequence. Seven million of these pieces were not
carrier routed and required manual sorting and casing
to put in walk sequence. This occurred because these
mailpieces did not meet flat mail automation requirements.
As a result, the Postal Service missed the opportunity to
further reduce more than $500,000 in costs for FY 2010.
We recommended that the Postal Service continue to
collaborate with business mailers to ensure flat mailpieces
meet automation requirements and reduce the amount of
unworked flat mail sent to delivery units.

City Delivery Operations Workforce Planning
We evaluated the Postal Service’s workforce planning
process for city carriers. Planning and managing the city
delivery workforce and associated workhours requires
managers to match staff according to workload trends.
Management often used full-time city delivery carriers
in overtime status to deliver mail, when using lower cost
                                                                  The Flats Sequencing System (FSS) is intended to boost efficiency in processing, distribution, and
part-time and transitional carriers would have been more
                                                                 delivery. FSS automatically sorts flat-sized mail into delivery point sequence at high speeds. OIG audits
economical. The Postal Service focused primarily on
                                                                 analyze how delivery operations have improved as a result of receiving flat mail in walk sequence
increasing route efficiency and reducing overall workhours
                                                                 from the FSS.
and had not developed an overall strategy to optimize
the use of city carrier resources to deliver the mail. By
not optimizing its staffing resources, the Postal Service        reduce retail customer service costs by realigning delivery
incurred excess costs of more than $100 million annually.        operations. We identified 65 small delivery offices that
Management agreed in principle with the recommendation           management can relocate to nearby delivery offices with
to collaborate with area management to develop and               sufficient excess floor space to absorb their operations.
implement an overall city delivery operations strategy           The proposed realignment would allow the Hawkeye District
to optimize the combination of full-time, part-time, and         to reduce retail customer service costs by between
transitional city carrier resources, but disagreed with the      $1.7 million and $3.2 million a year over the next 10 years.
findings and monetary impact.
                                                                 Management agreed with our recommendation to explore
                                                                 opportunities to reduce retail customer service costs by
Retail Customer Service
                                                                 realigning delivery operations district-wide. They plan to
Operations Realignment                                           explore opportunities to realign 75 percent of the customer
                                                                 service operations identified on our suggested list by
The Hawkeye District’s customer service mail volumes
                                                                 December 2012.
have declined by about 35.4 percent since 2007; however,
its network of delivery facilities has only declined by 4.3
percent. While management has consolidated some
                                                                 GOAL 2: IMPROVE EMPLOYEE
facilities to improve operational efficiency and reduce retail   ENGAGEMENT
customer service costs, they have not pursued these efforts
district-wide. We assessed whether the Postal Service can        Postal Service employees are its greatest asset. A key
reduce retail customer service costs by realigning delivery      strategy to improve productivity and efficiency is to increase
operations in the Hawkeye District. Opportunities exist for      employee engagement.
the Hawkeye District to improve operational efficiency and




                                                                                                                                             October 1, 2010 — March 31, 2011 | 7
IMPROVE EMPLOYEE ENGAGEMENT




                                                                                                           examples of work we conducted in this area to help the
                                                                                                           Postal Service improve operational efficiencies and to
                                                                                                           decrease the risk of revenue loss.

                                                                                                           City Delivery Efficiency Reviews
                                                                                                           The Postal Service is delivering fewer pieces of mail to an
                                                                                                           increasing number of addresses as new households and
                                                                                                           businesses are added to the delivery network. The Postal
                                                                                                           Service must increase its efficiency to accommodate this
                                                                                                           growth while facing financial losses from declining mail
                                                                                                           volumes and rising costs. Our reviews of the New York,
                                                                                                           Northern Virginia, and Chicago districts found that each
                                                                                                           district had opportunities for enhanced delivery efficiency
                                                                                                           and reduced workhour costs. Our analysis showed that
                                                                                                           the New York, Northern Virginia, and Chicago districts
                                                                                                           used about 25, 16, and 16 minutes, respectively, more per
                                                                                                           carrier route than the average carrier route in the nation.
                                                                                                           Reducing these minutes daily on each carrier route would
                                                                                                           result in total workhour reductions of more than 571,000
   In a review of City Delivery Efficiency, OIG auditors found that the Northern Virginia, New York, and   workhours at these districts.
   Chicago Districts had opportunities to enhance delivery efficiency and reduce workhour costs.
                                                                                                           Follow-Up on the Assessment
                                           Allegations of Inaccurate Time and                              of Overall Plant Efficiency 2010
                                           Attendance
                                                                                                           We conducted a follow-up review on the Postal
                                           We audited management controls over time and attendance         Service’s progress in reducing workhours based on
                                           at certain locations and found that they were not adequate      recommendations we made in a prior report. Last year,
                                           to ensure employees’ workhours were reported accurately.        we reported on efficiency levels and mail volume in
                                           Specifically, we found that Postal Service supervisors did      processing and distribution centers, as well as processing
                                           not complete the required forms to support changes to           and distribution facilities, and recommended that the Postal
                                           time and attendance. The managers and postmasters               Service reduce almost 16.2 million workhours by FY 2012.
                                           responsible for ensuring policies are followed stated           We determined that the Postal Service made substantial
                                           that completing the forms was not a priority. In addition,      progress by reducing workhours in the network from the
                                           one manager stated that supervisors either forgot or            previous year. Plants that were the least productive in FY
                                           had difficulty in printing the forms. As a result, we found     2009 reduced more than 13.3 million workhours (achieving
                                           questionable deletions of clock rings by supervisors in         82.8 percent of the recommended workhour savings) and
                                           some post offices. These changes exposed the Postal             improved productivity by more than 9.3 percent.
                                           Service to increased risk for grievances.
                                                                                                           Consolidation Reviews
                                           GOAL 3: IMPROVE FINANCIAL
                                           PERFORMANCE                                                     In response to requests from Congress, we conducted
                                                                                                           the following reviews to assess the business case for
                                           The Postal Service faces the challenge of improving service     consolidation and the impact on customer service.
                                           while simultaneously working to cut costs. Following are        An Area Mail Processing (AMP) consolidation involves


                                             RISK ANALYSIS RESEARCH CENTER
                                             The OIG’s Risk Analysis Research Center (RARC) conducts in-depth research and analysis, clarifies complex postal
                                             issues, and informs current debates about postal policy by facilitating the interchange of ideas. The team also conducts
                                             economic and academic studies as well as coordinates guest lectures by experts in the postal community. The RARC
                                             research group has three separate teams: Mission Operations, Support Operations, and Financial Operations. Some
                                             of the issues covered in RARC white papers have included the Civil Service Retirement System pension responsibility,
                                             fundamental questions for the 21st century Postal Service, and the identification of digital trends and shortcomings, as
                                             well as how the Postal Service could bridge the gap between the physical and digital worlds.




8 | Semiannual Report to Congress
                                                                                                                               IMPROVE FINANCIAL PERFORMANCE




 Fundamental Questions for the Future of the Postal Service
 The U.S. Postal Service is facing severe financial problems, and the search is on for viable solutions. This situation has
 provoked a broad public policy debate on what a 21st century Postal Service should look like. The difficulty in finding
 a solution is compounded by the fact that the entire environment of communications and commerce is changing. The
 Postal Service’s traditional role of delivering hard copy mail may no longer be as important in the digital age. What
 should the Postal Service’s future role be?

 The Risk Analysis Research Center (RARC) looked at the foundational issues at the
 heart of postal policy. The white paper, Fundamental Questions for the Future of the
 Postal Service, poses eight critical questions for determining the role of the Postal
 Service in the 21st century.

   1.	 What is the nation’s essential need for the Postal Service in the 21st century?

   2.	 Is a profit-driven business or a national infrastructure best suited to carry out the
       Postal Service’s mission?

   3.	 How should the nation’s Postal Service be financed?

   4.	 What is the proper governance model for the Postal Service?

   5.	 What does the universal service obligation mean?

   6.	 Does monopoly-financed universal service assist or harm the Postal Service?

   7.	 Should the Postal Service be allowed to expand into nonpostal services to
       supplement monopoly shortfall?

   8.	 Should the Postal Service have additional social responsibilities beyond its core mission?

 These questions cannot be answered in isolation. Each is best considered in relationship to others. For example, an
 answer to whether the Postal Service should be organized as a profit-maximizing business or a national infrastructure
 will be influenced by decisions on the Postal Service’s universal service obligation, social responsibilities, and optimal
 role in the digital age. In turn, the nature of the Postal Service’s mission will influence its governance model, financing
 method, and placement in the competitive marketplace.

 The paper’s goal is not to answer the questions but to encourage discussion that leads to a coherent, consistent postal
 policy for the present and the future. Finding a consensus among stakeholders and policymakers on the answers to
 these questions will not be an easy process. But if agreement is reached on the role of the Postal Service, developing a
 business model to place the Postal Service on a sustainable path as a provider of vital services to the American people
 in the 21st century should be possible.

moving all originating and/or destinating mail from               annual savings of $2.3 million and improving and/or
one or more facilities into other processing facilities to        maintaining customer and service commitments. The
improve operational efficiency and/or service. In our             Toledo P&DC completed originating and destinating mail
reviews, consolidations were supported and complied with          consolidations on June 30, 2010, and December 31, 2010,
established policies; however, we identified opportunities        respectively.
for improvement.
                                                                  While there was a valid business case for the consolidation
Lima, OH, Consolidation. In January 2010, the Postal              of the Lima P&DF into the Toledo P&DC, management did
Service completed a feasibility study proposing the               not ensure that on-time performance and customer service
consolidation of the Lima Processing & Distribution Facility      were improved or maintained during the implementation of
(P&DF) into the Toledo Processing & Distribution Center           the consolidation. As a result, customers were negatively
(P&DC). In May 2010, the senior vice president approved           impacted. We found that significant degradations in service
the transfer of all operations and volumes from the Lima          occurred after the Postal Service transferred all operations
P&DF to the Toledo P&DC based, in part, on projected              and volumes from the Lima P&DF to the Toledo P&DC




                                                                                                                                     October 1, 2010 — March 31, 2011 | 9
IMPROVE FINANCIAL PERFORMANCE




                                     and management did not project these degradations in              minimally impacted employees, improved service, and
                                     the consolidation proposal. While management actively             addressed community concerns. Also, environmental
                                     worked to address the delayed mail issues, these service          impacts were minimized and contingency plans were in
                                     degradations continued when we completed our audit work           place for emergencies.
                                     in March 2011.
                                                                                                       Houston, TX, Consolidation. We determined that a
                                     Wilkes-Barre, PA, Consolidation. We assessed the                  business case exists to consolidate the Houston P&DC’s
                                     operational impacts of the consolidation and determined           mail processing operations into the North Houston
                                     that a valid business case existed for consolidating mail         P&DC. This conclusion is based on the premise that the
                                     processing operations from the Wilkes-Barre Processing            North Houston P&DC would be expanded, and that mail
                                     & Distribution Facility (P&DF) into the Scranton P&DF and         volumes will not substantially increase. As a result of this
                                     the Lehigh Valley Processing & Distribution Center (P&DC).        consolidation and after the expansion completion, the
                                     Additionally, the Postal Service followed established policies    Postal Service could save about $35 million annually.
                                     and guidelines. This consolidation was unique because it
                                     was the first time the Postal Service split both outgoing and     Huntington, WV, Consolidation. We determined that
                                     incoming mail operations from one facility into two different     a business case exists to consolidate mail processing
                                     facilities.                                                       operations from the Huntington P&DF into the Charleston
                                                                                                       P&DC to achieve cost savings of about $3.5 million
                                     As a result of the consolidation, the Postal Service projected    annually.
                                     savings of about $6.1 million per year after the first year.
                                     However, we estimate that the net cost savings is $5.2            Columbus, GA, Consolidation. We determined that
                                     million as the Postal Service overstated savings by more          a business case existed to support consolidating the
                                     than $929,000. Management agreed with the findings                Columbus Customer Service Mail Processing Center’s
                                     and provided an update indicating that actual savings will        originating mail operation into the Macon P&DC. The
                                     exceed projections.                                               consolidation resulted in minimal operational impacts.
                                                                                                       Additionally, the Postal Service followed established AMP
                                     Marysville, CA, Consolidation. We concluded that                  policies and guidelines for the consolidation.
                                     consolidating the Marysville P&DF outgoing mail processing
                                     operations into the Sacramento P&DC was a valid business          Network Distribution Center Activation
                                     decision. Our analysis showed adequate capacity exists at
                                     the Sacramento P&DC to process increased mail volume.             We assessed the financial and operational impacts of the
                                     We also found that the consolidation increased efficiency,        network distribution center activation to determine whether


                                      Substantial Savings Available Through Changes to Prefunding Pensions
                                      and Retirees’ Health Care
                                      We sought to identify and benchmark prefunding levels of public and private sector entities for pensions and retiree
                                      health benefits and determine whether substantial cost-saving opportunities exist. Our benchmarking results showed
                                      that the Postal Service could fund pensions and the retiree health care fund at less than 100 percent of actuarial
                                      liabilities. Moreover, we determined that the average level that Fortune 1000 companies prefund retiree health care
                                      (many do not prefund) is 28 percent with the military prefunding at 29 percent. In addition, we determined that those
                                      state governments that prefund retiree health care averaged 30 percent.

                                      By contrast, the federal government does not prefund its civilian retiree health care at all, even though its liabilities result
                                      from using the same plans as the Postal Service. Under these circumstances, there is a strong case to be made for the
                                      Postal Service to prefund at reduced levels, such as those found in the private and public sectors. More than simply a
                                      matter of principle, reduced prefunding would provide the Postal Service with significant financial relief.

                                      We propose that the prefunding requirements be set to standards similar to other organizations, so that the Postal
                                      Service can meet its obligation while conserving cash and improving its financial condition. However, due to pending
                                      legislation in this area that assumes 100 percent funding levels, management did not agree to pursue necessary
                                      legislative changes to permit the Postal Service to prefund pension and retiree health care funds to the benchmarked
                                      levels of 80 and 30 percent, respectively. Management agreed with the monetary impact and will continue to work with
                                      Congress and the administration to address this matter and other recommendations related to restructuring the funding
                                      provisions for Postal Service retirement plans.




10 | Semiannual Report to Congress
                                                                                                                             IMPROVE FINANCIAL PERFORMANCE




  Can the Postal Service Bridge the Digital Divide?
  Many businesses, including the U.S. Postal Service, are looking for ways to build a bridge between their old physical-
  world business models and the continually changing digital world. From the Internet to the digital economy, the worlds
  of communications, transportation, and commerce are fundamentally changing. This “digital revolution,” in combination
  with the great recession of 2008 to 2009, has had a significant impact on global postal operators, resulting in a steep
  decline in the physical volumes of personal, business, and advertising mail. The shift from physical to digital will only
  continue to accelerate and become more prominent.

  In a white paper, Postal Service Role in the Digital Age – Part 1: Facts and Trends, the Risk
  Analysis Research Center highlights key digital trends and the shortcomings of the current
  digital world. This research provides critical background information for postal stakeholders
  to envision what the future may look like, to understand the relevance of today’s postal
  products and mandates, and to identify the market gaps that need to be filled to satisfy
  society’s future needs. A few of the digital trends highlighted in the paper include:
    A progressive shift has occurred from hard copy communications to the digital by
      business, government, and consumers.
    Communication control has shifted from the sender to the receiver.
    Explosive growth of mobile devices increases consumption of content “on the go.”
  Though there has been rapid growth in the digital world, there are shortcomings and
  fundamental gaps that prevent all U.S. consumers from migrating into this world. Some
  of these include:
    The Internet and all of its functionality are not available to all citizens to reap its economic
      benefits.
    There is still a lack of an adequate level of privacy, confidentiality, dependability,
      and security in digital communications and transactions.
    Consumers are seeing limited choices, even withdrawal of the physical option, as companies push them into
      digital-only communications.

  The Postal Service has maintained its position in physical communications and can continue to play a significant role
  in the digital world. Its trusted role as an intermediary provides it unique opportunities, such as serving as a bridge
  between the digital and the physical world – an extension of its current mission to bind the nation together. This white
  paper is the first in a series of papers we plan to release on this topic.


the activation achieved anticipated benefits. This audit is         property, subleasing property, or investing in real estate
the second in a series of self-initiated audits to address          projects. While the Postal Service has made progress in
strategic, operational, and financial risks associated with         optimizing its existing space, it can do more to dispose of
these activations. Our review concluded that the activations        excess interior space in a timelier manner. The opportunity
generally went well, but not all projected benefits have been       to optimize space exists because Postal Service policy
realized. This initiative generated about $111 million, or          requires installation heads to report excess space, but
39 percent of projected annual savings, and a 10 percent            guidance to effectively accomplish this task is needed.
improvement in package service performance. To enhance              Further, additional metrics should be added to the system
savings opportunities, management could further improve             to track, monitor, and report excess space, and initiate
transportation use in the network distribution centers.             disposal actions for that excess space.

Facility Optimization                                               While management agreed to update its disposal
                                                                    process and implement metrics to better manage excess
We assessed whether there were optimization opportunities           space; management did not agree with the amount of
in the Western, Eastern, Southwest, and Capital Metro               excess space or the potential monetary impact reported.
areas. The Postal Service has the option to optimize excess         Specifically, they disagreed with the methodology used to
real property through selling property, leasing owned               calculate existing excess space, in addition to the data and




                                                                                                                                   October 1, 2010 — March 31, 2011 | 11
IMPROVE FINANCIAL PERFORMANCE




                                       Postal Service Financial Condition
                                       Volume Loss

                                       The Postal Service is contending with the effects of electronic diversion and the economic downturn that began in late
                                       2007. The net operating loss for FY 2010 was almost $8.4 billion, which followed losses of more than $3.7 billion in
                                       FY 2009 and $2.8 billion in FY 2008. These losses were primarily caused by the cost of pre-funding the retiree health
                                       benefits and the decline in mail volume. For the first quarter of FY 2011, the Postal Service reported a $329 million net
                                       loss. This is up from a net loss of $297 million for the same period last year.

                                       Liquidity Concerns

                                       Liquidity is a pressing concern. The Postal Service projects it will have sufficient cash flows for routine, ongoing
                                       operations, but that it will not have sufficient cash on hand and borrowing capacity to fully fund the Postal Service
                                       Retirement Health Benefits Fund payment or other obligations due on September 30, 2011. It will have a critically
                                       low level of cash and liquidity by the middle of October 2011, when it is required to make a $1.2 billion payment for
                                       workers’ compensation to the U.S. Department of Labor (DOL).

                                       Cost Cutting

                                       Through aggressive cost-cutting measures, increased financial controls, and streamlined processes, the Postal Service
                                       reduced total costs in FY 2010 by $3 billion over the $6 billion already achieved in FY 2009. In January 2011, the
                                       Postal Service announced plans to redesign administrative functions by reducing the number of area and district offices
                                       and further decreasing the number of administrative, supervisor, and postmaster positions. This is expected to result
                                       in annualized savings of more than $700 million starting in FY 2012. Additionally, the Postal Service proposed a set of
                                       actions that focus on retiree health benefits, delivery frequency, access, workforce, pricing, products, and oversight.
                                       These actions require legislation and stakeholder cooperation.

                                       Sarbanes-Oxley

                                       Despite its fiscal challenges, the Postal Service completed in 2010 one of the largest and most complex Sarbanes-
                                       Oxley Act of 2002 certifications. This accomplishment required internal change as well as changes by customers,
                                       suppliers, business partners, and others in the mailing community.

                                     cost factors used to value the excess space and calculate        in the electronic Facilities Management System. In addition,
                                     monetary impact. In the areas reviewed, we found more            management stated a study is under way for consolidating
                                     than $500 million in costs associated with the excess            the Daytona Beach P&DC and moving its workload into
                                     space.                                                           the Mid-Florida P&DC. Management is also updating their
                                                                                                      Southeast Area Facility Optimization plans, including plans
                                     Excess Space in Mail Processing Facilities                       for the Manasota and St. Petersburg facilities. Management
                                     in the Suncoast District                                         did not agree with the monetary impact of $19.3 million
                                                                                                      because they believe we did not factor some costs into the
                                     Over the past 2 years, management has implemented two            estimate.
                                     plant consolidations and one district consolidation in the
                                     Southeast Area to improve operational efficiency. These          REGULATORY STUDIES AND REPORTING
                                     consolidations generated more than 100,000 square feet           OBLIGATIONS
                                     of excess space in the Suncoast District. Based on our
                                     review and discussions with management, there are various        The Postal Accountability and Enhancement Act of 2006
                                     opportunities to improve the use of space at plants in the       requires the Postal Service to conduct certain regulatory
                                     Suncoast District. These opportunities include additional        studies and mandates a number of reporting obligations.
                                     plant consolidations or relocating retail operations into mail   The Postal Service uses special financial studies to attribute
                                     processing facilities, which could generate an average           costs to the various categories of mail and special services,
                                     annual cost savings of about $1.3 to $1.9 million.               and to develop workshare cost avoidance estimates.

                                     Management stated that they would review facilities to
                                     determine excess square footage and will update this data




12 | Semiannual Report to Congress
                                                                                                                     REGULATORY STUDIES AND REPORTING OBLIGATIONS




Audits of facility optimization showed, that while the Postal Service has made progress in optimizing its existing space, it can do more to dispose of excess interior space in a
more timely manner. Pictured: West Edina Carrier Annex, Minneapolis, MN (left), Marysville, CA P&DF (center), South Eastern Station (right).

Periodicals Mail Costs                                                   business requirements. Database performance monitoring
                                                                         controls exist to reduce the potential effect of poorly written
We assessed whether Postal Service data collection                       database queries on production databases. In addition,
systems and procedures accurately attribute costs to                     functional system coordinators justifiably denied access
Periodicals Mail, and reviewed their manual processing.                  requests.
We found that although Periodicals volume has decreased
and automation and mailer preparation efforts have                       However, management can strengthen database access
increased, manual costs attributed to Periodicals continue               controls by adhering to existing processes and periodically
to rise. We identified several reasons for these increases               reviewing information security policy exceptions. Effective
in manual processing costs, including a program instituted               access controls increase the probability that the Postal
by management called the “Hot 2C” program to provide                     Service will prevent a compromise that might negatively
expedited processing, missed critical entry times by the                 affect the confidentiality of information resources and
mailers, bundle breakage and preparation problems, and                   data. We estimated that more than $38 million in data is
mailpiece characteristics that make them non-machinable.                 potentially at risk of loss due to inadequate access controls
Additionally, we found that processing and distribution                  that affect information technology.​
center personnel do not consistently report these issues in
the Electronic Mail Improvement Reporting System, which                  Network Perimeter Firewalls
is a critical step in bringing an issue to management’s
attention. Management stated that they had ongoing efforts               The perimeter firewalls that protect critical Postal Service
to analyze operational conditions and their impact on                    data are the first line of defense between the private
cost attribution. Additionally, they plan to issue additional            network and the Internet. Our review concluded that the
guidance on the “Hot 2C” program.                                        Postal Service perimeter firewalls may not consistently
                                                                         provide for the confidentiality, integrity, and availability of
Information Resource Access                                              information and network resources. Correctly configured
                                                                         and effectively managed firewalls increase the probability
Of the applications in the Postal Service inventory, hundreds            that the Postal Service will prevent a compromise that
are critical to Postal Service business operations. The                  might negatively affect the confidentiality, integrity, and
Postal Service maintains policies and procedures governing               availability of information resources and data. We estimated
access controls over these information systems that are                  that more than $70 million in data is potentially at risk of
important to operations and business decisions. Information              loss due to inadequate controls and protection.
resource access processes and controls generally support




                                                                                                                                                    October 1, 2010 — March 31, 2011 | 13
REGULATORY STUDIES AND REPORTING OBLIGATIONS




                                     Securing Information on Portable Devices                           FY 2011 Cost and Revenue Analysis Reviews
                                     The increased frequency of information breaches reported           We issued three reports on the Postal Service’s Origin-
                                     by federal agencies has heightened concerns about the              Destination Information System – Revenue, Pieces, and
                                     extent to which sensitive information stored on portable           Weight process. The objective of our reviews was to
                                     devices is vulnerable. We identified opportunities for             determine whether Postal Service personnel conducted
                                     the Postal Service to improve their security of sensitive          statistical tests to collect cost, revenue, and volume data in
                                     information stored on portable devices by recommending             accordance with established policies and procedures.
                                     that management strengthen their ability to secure and
                                     manage laptop computers by installing data encryption,             PRESERVING ACCOUNTABILITY
                                     maintaining accurate inventories, and properly documenting
                                     approvals for all laptops they exclude from the encryption         During this period we audited Postal Service financial
                                     requirement. We estimated more than $56 million in                 transactions. We also assessed the accuracy of
                                     potential costs to the Postal Service, if sensitive data stored    management data to help preserve the integrity of Postal
                                     on these devices were compromised.                                 Service processes and personnel.

                                     FY 2010 Selected Information Technology                            Postage in the Hands of the Public, Liability
                                     General Controls                                                   Estimate
                                     We conducted this audit in support of the independent              We reviewed the model used to calculate the Postage in
                                     public accounting firm’s overall audit opinions on the Postal      the Hands of the Public liability estimate to determine if
                                     Service’s financial statements and internal controls over          opportunities exist for improving the model and the financial
                                     financial reporting. Infrastructure level internal controls in     reporting and predictability of the estimate. The Postal
                                     the nine Information Technology process areas we tested            Service developed a process to estimate the deferred
                                     were properly designed and operating effectively. However,         revenue for prepaid postage at the end of a reporting
                                     by strengthening controls over database and server security        period. The estimate represents postage sold to but not
                                     settings, management can reduce the risk of a compromise           yet used by customers. The model includes separate
                                     that could negatively affect the confidentiality, integrity, and   calculations for Forever Stamps®, denominated stamps,
                                     availability of information resources and data. We quantified      meters and pre-cancelled stamps, and mail-in-transit that,
                                     the costs associated with this risk at $63.9 million.              together, comprise the estimate. At the end of FY 2009, the
                                                                                                        estimated liability was $2.4 billion.


                                       Workshare Discounts Exceeding Avoided Costs
                                       The Postal Service provides mailers with workshare discounts in the form of reduced postage rates for presorting, pre-
                                       barcoding, handling, or transporting mail. The Postal Service credits workshare discounts with stimulating mail volume
                                       growth, enabling it to streamline its workforce and infrastructure, reducing mailing costs, and improving service. The
                                       Postal Accountability and Enhancement Act of 2006 allows workshare discounts to exceed avoided costs only under
                                       certain specific circumstances. Otherwise, workshare discounts must not exceed the costs the Postal Service avoids as
                                       a result of workshare activity. We assessed whether these discounts were properly justified.

                                       The audit found that justifications for 19 workshare discounts that exceed avoided costs by about $104 million were
                                       not supported by detailed documentation. While the Postal Service does provide pricing documentation in price change
                                       filings with the Postal Regulatory Commission, when it comes to justifying certain workshare discounts above avoided
                                       costs, the Postal Service does not always have sufficient tangible documentation, such as quantitative data, to include
                                       in its justifications. According to management, reliable quantitative data supporting justifications are not always
                                       available or necessary. Management does not document the price decision-making process, but makes decisions after
                                       discussions with parties both inside and outside the Postal Service. In addition, Postal Service cost avoidance models
                                       may not accurately reflect avoided costs for workshared mail.

                                       Although management disagreed with the recommendation, they are pursuing an alternative solution. They further
                                       stated that the Postal Service provided justifications for the discounts that did exceed avoided cost and that the Postal
                                       Regulatory Commission had determined those discounts were consistent with the statute. Management stated that
                                       the Postal Service is not required to provide justification for workshare discounts that exceed avoided costs for mail
                                       consisting exclusively of mail matter of educational, cultural, scientific, or informational value.




14 | Semiannual Report to Congress
                                                                                                                                        PRESERVING ACCOUNTABILITY




Changes in consumer purchase and usage behaviors                  FY 2010 Financial
associated with the introduction of the Forever Stamp             Statements Audit
explained, for the most part, recent significant fluctuations
in the estimated liability. Further, the Postal Service’s         This report presents the
mandated quarterly financial reporting highlighted                results of our audit of the
the changes to the estimate. However, we identified               selected financial activities
opportunities that could improve the predictability and           and accounting records
financial transparency of the estimate. Specifically, we          at Headquarters and the
determined that management needs to develop a clear,              Information Technology
single document of the procedures used, the assumptions           and Accounting Service
made, the analyses conducted, and the rationale for               Centers (IT/ASC) for FY
methods used to estimate the liability; and they should           2010. We noted that the
enhance the separate calculations for the components              Postal Service’s financial
used in the estimate. Further, the Postal Service should          accounting policies and
implement a formal communication and information-                 procedures provide for an
sharing process among personnel responsible for                   adequate internal control
developing the liability estimate. Management asserted that       structure and comply
they have already accomplished these recommendations              with generally accepted
by the process documentation prepared during FY 2010 for          accounting principles;
Sarbanes-Oxley Act of 2002 compliance.                            accounting transactions
                                                                  impacting the general
Workers’ Compensation Liability Estimate                          ledger account balances           Postage sold to customers, but not yet used for mailing purposes, creates
                                                                  for assets, liabilities, equity, a liability for the Postal Service. At the end of FY 2009, that estimated
Our objectives were to improve the workers’ compensation          income, and expenses are          liability was $2.4 billion. The popularity of Forever Stamps has driven
model and reduce the volatility of management’s worker’s          fairly stated in accordance       changes in the purchase and usage of stamps, necessitating a review of
compensation liability estimate. Volatility is inherent in the    with generally accepted           the model used to calculate this estimated liability.
estimation of workers’ compensation liability, not only in the    accounting principles;
Postal Service but also in other benchmarked organizations.       general ledger account balances conform with the
The majority of benchmarking partners’ annual reports             general classification of accounts of the Postal Service
recognized the potentially high level of uncertainty              on a basis consistent with that of the previous year;
associated with estimating the financial liability for workers’   and the Postal Service is in compliance with laws and
compensation. However, the Postal Service could take              regulations that have a direct and material effect on the
action to smooth or reduce the volatility of the estimate         financial statements taken as a whole. For these audits,
of this significant liability. Specifically, management           we did not propose any adjustments, but we did identify
should consider using discount rates similar to the U.S.          various control deficiencies that were not material to the
Department of Labor and revise the weights of the actuarial       overall financial statements and did not affect the overall
methods they use in the model.                                    adequacy of internal controls. Also, throughout the year,
                                                                  we reviewed internal controls over financial reporting and
In addition, management could improve the model by
                                                                  identified various control deficiencies that we brought
ensuring that personnel who develop the liability estimate
                                                                  to management’s attention at the time of discovery to
better understand the model, including the assumptions
                                                                  assist them with their responsibility for establishing and
made, the analyses conducted, and the rationale for the
                                                                  maintaining an adequate internal control structure over
methods used. Although we did not find opportunities for
                                                                  financial reporting.
economic impact in this audit, we will perform additional
work to address potential cost savings.                           FY 2011 Financial Testing Compliance Group
                                                                  Oversight Reviews. To comply with Sarbanes-Oxley
Financial Audits                                                  Act requirements, the Postal Service must report on the
                                                                  effectiveness of the agency’s internal controls to ensure
Following is a summary of the financial audits performed in
                                                                  accurate financial reporting. It must submit an annual
support of the independent public accounting firm’s opinion
                                                                  assessment to the Postal Regulatory Commission. The
on the Postal Service’s financial statements and internal
                                                                  Postal Service established the financial testing compliance
controls over financial reporting. In addition, we issued
                                                                  group to conduct tests of key financial reporting controls.
three capping reports summarizing our Financial Testing
                                                                  We conducted oversight reviews, at the request of the
Compliance Quality Assurance, business mail entry units,
                                                                  independent public accountants, to assist the Postal
and postal retail units.
                                                                  Service in determining whether they can rely on the results




                                                                                                                                          October 1, 2010 — March 31, 2011 | 15
PRESERVING ACCOUNTABILITY




                                          from their field-level internal control testing. During this      that there were fewer issues and improved financial testing
                                          reporting period, we issued 42 management advisories              compliance reviews.
                                          on business mail entry units (BMEU), detached mail units,
                                          postal retail units, plant verified drop shipments, Business      Business Mail Entry Units
                                          Reply Mail, Voyager, and SmartPay® that concluded on
                                          whether analysts properly conducted and documented their          The purpose of this audit was to determine whether the
                                          examinations of key financial reporting controls.                 Postal Service complied with key financial reporting controls
                                                                                                            for business mail acceptance and verification processes
                                          FY 2010 Financial Installation Audits                             and procedures at selected business mail entry units. The
                                                                                                            Postal Service requires mailers to prepare all mailings
                                          FY 2010 Financial Testing and Compliance. This report             properly, take them to an approved BMEU, and pay postage
                                          presents the results of our review of the quality of financial    for the mail before it enters the mailstream. Presorting mail
                                          testing compliance work at business mail entry units,             (properly addressing mail and placing it in specific ZIP Code
                                          postal retail units, and mail processing centers. We found        order) is a worksharing incentive that offers discounted
                                          that the compliance group had insufficient supporting             postage rates to customers for performing work associated
                                          documentation and did not always report all exceptions            with mail processing. Unless employees properly prepare
                                          they identified during their reviews, causing their results to    business mailings for the discounts claimed, the Postal
                                          sometimes be inconsistent with our results. We also noted         Service incurs increased processing costs.
                                          other working paper documentation issues, such as the
                                          compliance team not providing all sampling methodology            Our audits showed that the Postal Service did not comply
                                          documentation; however, this did not affect our ability to        with key financial reporting controls for business mail
                                          determine whether the results were consistent. Most of            acceptance and verification processes and procedures.
                                          the issues we identified were in reviews the compliance           We noted that throughout the year the Postal Service
                                          group conducted early in their testing schedule. Given that       implemented various actions in a concerted effort to
                                          the group was recently formed and analysts had a learning         improve compliance. As a result, the Postal Service’s
                                          curve for their new jobs and review programs, we expected         level of compliance with these key controls increased
                                          these results. Throughout the year, we communicated               toward the end of the fiscal year, helping to ensure that
                                          these issues to management. In later reviews, we found            customers were appropriately charged and revenues
                                                                                                            were recognized. Our test results in the last portion of the
                                                                                                            year were consistent with those that the Postal Service’s
                                                                                                            financial testing compliance group reported for its testing
                                                                                                            of the same controls during the last two quarters of FY
                                                                                                            2010. However, given the high level of non-compliance we
                                                                                                            found throughout the year, plus the fact that other audit
                                                                                                            reports indicated similar business mail acceptance issues,
                                                                                                            we believe risks remain with the BMEU mail acceptance
                                                                                                            and verification process. Work should be done to ensure all
                                                                                                            revenue is appropriately recognized.

                                                                                                            Although the report did not contain any recommendations,
                                                                                                            we will continue to test and monitor business mailings
                                                                                                            and business mail acceptance and verification processes
                                                                                                            and procedures. Management did not specifically agree
                                                                                                            or disagree with the report’s conclusions; however, they
                                                                                                            stated that in general, business mail acceptance has
                                                                                                            made significant progress in identifying, documenting, and
                                                                                                            training on key controls for the acceptance and verification
                                                                                                            of business mailing in FY 2010.

                                                                                                            Post Offices, Stations, and Branches
                                                                                                            We audited postal retail units to determine whether
                                                                                                            they complied with nine key financial reporting controls
 The Postal Service created the Key Control Guide (FY 2011 Spring Edition) as a resource for field units.   related to accountability examinations, master trust
 This 11-page guide provides the information needed to identify and perform regularly-encountered key       accounts, employee items, financial differences, unit
 field controls in place at post offices, business mail entry units, and plants.                            closeout procedures, payroll, Voyager payments, SmartPay




16 | Semiannual Report to Congress
                                                                                                                                      PRESERVING ACCOUNTABILITY




payments, and contract postal unit oversight. This report
presents the results of our financial installation audits
of 105 post offices, stations, and branches for FY 2010.
Based on the items we reviewed, Postal Service retail units
overall did not comply with all nine key financial reporting
controls. Additionally, we reported $362,750 in monetary
and $62,378 in other impact in our individual financial
installation audit reports.

Information Technology Contract Payment
Oversight
The purpose of this audit was to evaluate the adequacy
of oversight for information technology contract
payments. Specifically, we wanted to determine whether
contracting officers issued letters to contracting officer’s
representatives detailing their responsibilities and
limitations, and whether invoices were properly certified.
Supply Management’s Information Technology Category
Management Center is responsible for creating and
maintaining contracts for retail, hardware, and software
systems.

Our audit concluded that the contracting officers did not
always appoint representatives; thus, personnel without         The OIG audits postal retail units – post offices, stations and branches – to determine whether they comply
letters of designation and specific contract knowledge          with nine key financial reporting controls.
were certifying invoices. Based on our sample results,
we statistically project that there were more than $192         equipment deployment delays and updates. Additionally,
million in improperly certified invoices. Specifically, we      although overtime usage increased, overall workhours were
reviewed 255 statistically sampled IT retail and hardware       reduced by 77.3 million.
invoices valued at nearly $50 million for FYs 2008 and
2009 and found that 86 percent were not properly certified.     Travel and Other Expenses
Additionally, personnel did not perform a reconciliation of
invoices to receiving documents before certifying invoices      We assessed whether Postal Service employees adhered to
in almost all cases.                                            travel policies related to lodging and airfare, and whether
                                                                there are opportunities for cost savings in those areas. The
Management disagreed with the extrapolation of                  audit disclosed that Postal Service employees on occasion
monetary impact. They stated that lack of a representative      did not comply with prescribed travel policies resulting in
designation did not result in improper invoice certification.   excessive travel costs for lodging and airfare in FY 2009
Also, they stated that their policy does not require that a     and FY 2010. We estimate that the Postal Service could
representative be assigned to every contract and, in many       realize more than $1.2 million in savings over the next 2
cases, an office could be designated to certify invoices.       years if it takes action to curtail employee non-compliance
Management also disagreed with our classification of the        with travel policies.
monetary impact.
                                                                Additionally, we assessed whether the travel and
Overtime Usage                                                  miscellaneous expenses of the Board of Governors —
                                                                including external professional fees — were properly
We reviewed the Postal Service’s overtime usage in              supported, reasonable, and in compliance with Postal
FY 2010 and found that it paid $2.9 billion in overtime         Service policies and procedures and board policies. Further,
compared to $2.4 billion in FY 2009, representing an            we assessed whether travel and representation expenses
increase of 17.2 percent. We also found that management         claimed by Postal Service officers were properly supported
did not effectively plan for overtime usage as it exceeded      and complied with policies and procedures. We found that
its planned overtime hours by 67.8 percent in FY 2010.          these expenses for the Board of Governors and the Postal
According to management, this increase in overtime usage        Service officers were properly supported, reasonable, and
was due to a reduction in personnel, mail rerouting, and        in compliance with the Postal Service and board policies.




                                                                                                                                        October 1, 2010 — March 31, 2011 | 17
                                                                                                                                            FINANCIAL CRIMES




OFFICE OF INVESTIGATIONS
To protect the mail and to ensure the integrity of postal processes, finances, and personnel, the Postal
Service relies on the investigative efforts of the Office of Investigations’ (OI) special agents. These special
agents are stationed in offices nationwide. Their charge is to investigate allegations of internal crimes
and frauds committed by postal employees and contractors against the Postal Service and employee
misconduct. Following is work conducted by the OI during this reporting period that contributed to
safeguarding the Postal Service’s revenue and assets and helped deter postal crimes, ultimately helping to
maintain a stable and sound Postal Service.


FINANCIAL CRIMES                                                 A former lead sales and service associate pled guilty in
                                                                  December in federal court in New Mexico to one felony
A large portion of the $67 billion in revenue generated by        count of the theft of government property. As part of the
the Postal Service last year is handled at the 32,000 postal      plea agreement, the former employee agreed to pay
retail locations. Employees who allegedly embezzle funds,         restitution totaling more than $97,000 to the Postal
kite or otherwise misuse money orders, or steal and misuse        Service. Our investigation showed that the associate
postal-issued credit cards receive investigative attention        had embezzled postal funds by submitting false postal
from our special agents.                                          reports and falsely entering amounts in the computer
                                                                  terminal to indicate she had issued refunds for postage,
Embezzlements                                                     services not rendered, postage applied to Business
Special agents employ various investigative techniques to         Reply Mail, and unused metered postage. Sentencing is
uncover embezzlements by postal employees who steal               pending.
money from cash drawers, use sophisticated schemes to            An Illinois former associate was sentenced in federal
manipulate postal money orders or money order funds, or           court in January to a year of home detention, with
falsify financial retail records. Employees found responsible     electronic monitoring for the first 5 months, followed by
for missing postal funds are reported to management for           2 years’ probation, 200 hours of community service, and
appropriate administrative action. In cases that warrant          was ordered to pay more than $34,000 in restitution to
criminal prosecution, offenders face the loss of their jobs,      the Postal Service. Our investigation disclosed that the
jail time, and court-ordered restitution. The following are       associate had employed three schemes to falsely create
examples of embezzlement cases we investigated during             cash overages in her cash drawer, which she would
this reporting period.                                            embezzle at the end of the day. Part of the scheme was
 In December, a former Maryland postmaster was
                                                                  to void money orders that had been legitimately issued
  sentenced in federal court to 9 months incarceration,           to customers that were later cashed. Following our
  followed by 3 years of supervised release, the first 6          investigation, the associate resigned from her position
  months of which was ordered to be served in home                with the Postal Service and pled guilty in federal court to
  detention with electronic monitoring. The former                the misappropriation of postal funds.
  postmaster was further ordered to pay a $3,000 fine            In November, a Missouri postmaster was sentenced to
  and nearly $60,000 in restitution to the Postal Service.        3 years probation and ordered to pay restitution of more
  In 2009, the postmaster reported an armed robbery at            than $14,000 to the Postal Service. The postmaster had
  the station when he was the only person at the station          previously repaid $26,000 of the total embezzlement
  and the counter line was closed for lunch. Agents               amount of $40,000. The postmaster retired while
  became suspicious after finding out an audit of the office      under investigation and pled guilty to a felony charge in
  disclosed irregularities in the office accountabilities. A      federal court. The OIG investigation disclosed that the
  green metal box, similar to the one described as stolen,        postmaster had issued money orders for personal use,
  was recovered from the trunk of the postmaster’s                including rent, groceries, and cash. The postmaster paid
  car. Our investigation found that the postmaster had            for the money orders by offsetting a customer’s permit
  devised a plan to stage an armed robbery to cover his           account. An audit of the postmaster’s accountabilities
  embezzlement of postal funds. In August 2010, the               revealed significant shortages, and the postmaster
  postmaster resigned his position and pled guilty to the         admitted diverting bulk mail funds to cover a shortage in
  felony theft of government property.                            the vending accountability.




                                                                                                                                October 1, 2010 — March 31, 2011 | 19
FINANCIAL CRIMES




                                                                                                              Voyager Credit Card
                                                                                                              Through a partnership with U.S. Bank and Voyager Fleet,
                                                                                                              the Postal Service issues one credit card per vehicle
                                                                                                              for refueling, routine maintenance, and vehicle washing
                                                                                                              and polishing. Postal employees and contractors are
                                                                                                              investigated for alleged disclosure of personal identification
                                                                                                              numbers (PIN) to non-postal entities, using the Voyager card
                                                                                                              for personal use, exceeding the daily purchase limit without
                                                                                                              proper authorization, or transferring purchasing authority to
                                                                                                              a non-postal entity. Special agents investigated 35 cases
                                                                                                              of alleged Voyager credit card fraud in this reporting period,
                                                                                                              resulting in seven arrests and 16 administrative actions.
                                                                                                              The following are examples of two such cases.
                                                                                                               In March, a highway contract route truck driver formerly
                                                                                                                employed by a New Jersey trucking company pled guilty
                                                                                                                in federal court to theft of government property. The
                                                                                                                contract driver admitted to stealing more than $300,000
                                                                                                                from the Postal Service through the unauthorized
                                                                                                                use of Voyager fuel cards given to the company in
    Special agents investigated 35 cases of Voyager credit card fraud this reporting period, resulting in 7
                                                                                                                connection with a contract to haul U.S. Mail. As part of
    arrests and 16 administrative actions.
                                                                                                                the investigation, the truck driver admitted that from
                                                                                                                November 2005 to October 2008, he used the cards to
                                            A New York associate was sentenced in December to                 make numerous unauthorized purchases of fuel for his
                                              3 years supervised release and ordered to pay more                personal use, including for a towing business and to sell
                                              than $74,000 in restitution to the Postal Service. The            to others at a discounted price. He used a number of
                                              associate had previously pled guilty in federal court             cards – issued to trucks he drove and to trucks operated
                                              after an OIG investigation disclosed that the associate           by other drivers – and visited multiple gas stations,
                                              was using a number of deceptive techniques to falsely             often near his home. As part of the scheme, the driver
                                              cause an overage in his cash drawer. The associate                installed a large rubber bladder in his personal truck
                                              was intentionally failing to properly report post office          that held approximately 100 gallons of fuel. As part of
                                              box rentals, cashing checks intended for customer trust           the plea agreement, the driver agreed to pay more than
                                              accounts, falsely reporting that he had issued refunds            $335,000 in restitution to the Postal Service. Sentencing
                                              to customers, and issuing money orders for personal               is pending.
                                              use, primarily to pay for living expenses. OIG agents
                                                                                                               A New York highway contract owner/driver pled guilty in
                                              filed a complaint in federal court and an arrest warrant
                                              was issued. The associate voluntarily surrendered to              January to a felony charge of theft of public money. As
                                              authorities. The associate resigned from his position with        part of the negotiated settlement with the U.S. Attorney’s
                                              the Postal Service.                                               Office, the owner’s two sons signed pre-trial diversion
                                                                                                                agreements. All of the defendants have agreed to pay
                                            In March, a Louisiana associate was sentenced to 5                restitution. In addition, in February, a gas station owner
                                              years probation and ordered to pay more than $114,000             pled guilty after he was charged with the theft of public
                                              in restitution to the Postal Service. In December, the            money in conjunction with this scheme to defraud the
                                              associate had pled guilty in federal court to a felony            Postal Service. The OIG investigation revealed that the
                                              count of misappropriation of postal funds. As part of the         Postal Service lost more than $80,000 and that the gas
                                              plea agreement, the associate agreed to pay restitution.          station owner was manually entering the gas charges
                                              Prior to sentencing, she repaid approximately $109,000            the owner and his sons were fraudulently charging
                                              of the amount due. The OIG investigation revealed the             on the Voyager card. Surveillance in the case showed
                                              associate had been cashing business checks through her            that a transport truck was used to purchase unleaded
                                              cash drawer. The checks were submitted for payment                fuel that was then transported 80 miles to a large gas
                                              of bulk mailings, which the associate accepted, but did           tank located at a mountain resort owned by the owner.
                                              not properly account for payment and instead embezzled            They resold the gas to seasonal snowmobilers in a
                                              the money. During an interview, the associate admitted            mountainous area of New York. In exchange for his
                                              she used money to gamble during her lunch hour. At the            participation in the scheme, the gas station owner was
                                              conclusion of the interview, the associate resigned from          allowed to up-charge the fuel as though diesel fuel had
                                              her position with the Postal Service.



20 | Semiannual Report to Congress
                                                                                                                                     WORKERS’ COMPENSATION FRAUD




  been purchased. To a lesser extent, the owner’s sons              lives. The cost savings to the Postal Service are
  had charged gas used for personal use on the Voyager              estimated at $450,000.
  card. Based on the OIG investigation, in April 2010,
  federal arrest warrants were issued and agents arrested         WORKERS’ COMPENSATION FRAUD
  all four defendants. Sentencing for the owner is pending.
                                                                  The monetary and medical benefits paid by the Postal
Tort Claims                                                       Service to workers’ compensation claimants (employees
                                                                  who sustained job-related injuries) in FY 2010 totaled more
The Postal Service established the Tort Claims Program            than $1 billion and its estimated total liability for future
to monitor and resolve claims filed against the Postal            workers’ compensation costs is more than $12.5 billion.
Service by customers seeking compensation for injuries or         Administered by the U.S. Department of Labor (DOL),
losses incurred while using postal facilities. According to       the Office of Workers’ Compensation Programs (OWCP)
an agreement with the Postal Service’s Law Department,            provides direct compensation to providers, claimants,
special agents investigate tort claim cases involving             and beneficiaries. The Postal Service later reimburses
suspected fraud and cases for which the U.S. Attorney’s           the OWCP in a process known as “charge-back billings.”
Office has requested an investigation. The following are          Investigative efforts during this reporting period resulted in
examples of two such cases.                                       more than $86 million in cost savings or avoidances, 17
 The U.S. Attorney’s Office requested the OIG’s                 arrests, and 73 administrative personnel actions, including
  investigative assistance regarding a civil suit brought         removals and suspensions and termination of benefits.
  against the Postal Service by a former California
  letter carrier. The carrier filed a civil tort claim in 2007    Claimant Fraud
  against the Postal Service alleging, among other things,        The workers’ compensation program exists for employees
  discrimination on the basis of age and physical disability,     who are legitimately injured while on duty. The program
  which caused extreme emotional distress. The employee           provides benefits to injured employees and their families
  also left her window clerk position and applied for             while the employee is unable to work. Postal employees
  disability retirement. In 2004, the former carrier had          who attempt to defraud OWCP with false claims are
  reported occupational injuries related to her back, neck,       criminally prosecuted to permanently prevent payment of
  and shoulders. For the next 3 years, the Postal Service
  attempted to accommodate her physical restrictions by
  offering her non-carrier duty job assignments, as well
  as extensive training to become a window clerk. Our
  investigation determined the former employee was able
  to twist, turn, bend, stoop, walk, push and pull heavy
  objects, and was otherwise leading a normal life. The
  OIG provided surveillance video and a report to the U.S.
  Attorney’s Office. In November, the case was settled
  at an amount substantially less than the original law
  suit. The U.S. Attorney’s Office stated the investigative
  assistance by the OIG had resulted in a savings of at
  least $650,000 in the settlement amount.
 A Wisconsin rural letter carrier was involved in a vehicle
  accident in 2007 while delivering mail in her privately
  owned vehicle. The carrier was deemed to have been at
  fault and the couple in the other vehicle filed a claim for
  damages. Negotiations in the matter were unsuccessful
  and the couple filed a civil tort claim in federal court. The
  U.S. Attorney’s Office requested investigative assistance
  by the OIG in the matter. The Postal Service agreed to
  pay for the vehicle damages and medical attention, but
  the plaintiffs had additionally claimed a loss of wages
  because they were unable to work. The OIG investigation
                                                                   A Florida rural carrier associate, who was receiving workers’ compensation benefits since 2004 due
  revealed the couple owned a pizza restaurant and
                                                                   to a job-related injury to her neck and back, was found to be repeatedly exceeding her medical
  appeared to be working and otherwise leading normal
                                                                   restrictions. Scuba diving was one of the activities that resulted in a jury convicting her of workers’
                                                                   compensation fraud.




                                                                                                                                             October 1, 2010 — March 31, 2011 | 21
WORKERS’ COMPENSATION FRAUD




                                         additional compensation and to recover funds fraudulently              prison sentence, 3 years’ probation, and obligation
                                         obtained. Cases that may require administrative action                 to pay more than $116,000 in restitution. The driver
                                         are referred to the Postal Service and the DOL. Special                pled guilty to one count of false statement or fraud to
                                         agents work closely with Health and Resource Management                obtain federal employees’ compensation. The driver
                                         specialists from the Postal Service on all phases of                   had alleged total disability from a work-related back
                                         these investigations. Following are examples of workers’               injury and received in excess of $116,000 in workers’
                                         compensation fraud cases investigated during this period.              compensation payments. Investigation determined the
                                                                                                                driver was self-employed providing snow removal and
                                          After a 2-day jury trial in January, a Florida rural
                                                                                                                lawn care services to a number of customers, and failed
                                            carrier associate was found guilty on one count of
                                                                                                                to report the income received from those activities to the
                                            false statement or fraud to obtain federal employees’
                                                                                                                DOL. Our agents also found the driver was working for
                                            compensation. The carrier alleged partial disability
                                                                                                                another company in which he operated a tow motor and
                                            from a work-related neck and back injury in 2004,
                                                                                                                provided welding services. The DOL removed the driver
                                            and had received approximately $297,000 in workers’
                                                                                                                from the periodic roll, realizing a savings of more than
                                            compensation payments. Video surveillance conducted
                                                                                                                $600,000 for the Postal Service. The driver retired from
                                            by our agents showed the carrier repeatedly exceeding
                                                                                                                the Postal Service.
                                            her medical restrictions. We watched the carrier scuba
                                            diving; lifting and carrying heavy dive equipment and              A rural letter carrier pled guilty in November in federal
                                            other objects; climbing up and down steep rocky steps;              court to false statement or fraud to obtain federal
                                            shopping for extended periods of time; and sliding down             workers’ compensation benefits. The carrier alleged total
                                            a two-story water slide. The DOL terminated the carrier’s           disability as a result of a work related injury to her right
                                            compensation benefits, resulting in a cost avoidance of             elbow. Our investigation determined that the carrier was
                                            about $409,000 for the Postal Service. The rural carrier            the owner and operator of a martial arts studio and failed
                                            associate was sentenced to 3 years’ probation, ordered              to report the activity to the DOL. Surveillance conducted
                                            to make restitution of $9,538 to the Postal Service and             by our agents showed the carrier driving to the martial
                                            fined $1,000. Administrative action by the Postal Service           arts studio on a routine basis and conducting numerous
                                            is pending.                                                         administrative duties. The DOL terminated the carrier’s
                                                                                                                benefits, realizing a savings of more than $1 million for
                                          In January, a special agent’s investigation of an Ohio
                                                                                                                the Postal Service. The carrier retired from the Postal
                                            motor vehicle services driver led to a 5-month federal
                                                                                                                Service. In March 2011, the carrier was sentenced to
                                                                                                                pay restitution of $12,066.
                                                                                                               After a 2-week jury trial in February, a New York mail
                                                                                                                handler was found guilty on two felony counts of
                                                                                                                false statement or fraud to obtain federal employees’
                                                                                                                compensation and one felony count of false statements.
                                                                                                                The mail handler had alleged total disability as a result
                                                                                                                of a work-related injury to her right wrist, right shoulder
                                                                                                                and upper arm. Our investigation revealed the mail
                                                                                                                handler was performing activities that were inconsistent
                                                                                                                with the capabilities she communicated to her physician,
                                                                                                                the DOL, and the Postal Service. Video surveillance
                                                                                                                conducted by special agents showed the mail handler
                                                                                                                shopping on numerous occasions, carrying and lifting
                                                                                                                objects, reaching, pushing a fully loaded cart, and driving
                                                                                                                on a regular basis. Investigation further determined the
                                                                                                                mail handler received monthly food stamp payments and
                                                                                                                failed to disclose her receipt of compensation payments
                                                                                                                or her employment with the Postal Service on all U.S.
                                                                                                                Department of Agriculture food stamp application forms.
                                                                                                                As a result of our investigation, the DOL removed the
                                                                                                                mail handler from the periodic roll, realizing a cost saving
                                                                                                                of more than $1.5 million for the Postal Service. The mail
  An Ohio motor vehicle services driver, who was allegedly totally disabled from an on-the-job injury, was      handler retired from the Postal Service. Sentencing is
  able to provide snow removal and lawn care services – until OIG agents caught up with him. Convicted in       scheduled for May 2011.
  federal court, the driver was sentenced to 5 months in prison and ordered to pay $116,000 in restitution.




22 | Semiannual Report to Congress
                                                                                                                                          DELAY, DESTRUCTION, AND THEFT OF MAIL BY EMPLOYEES




Medical Provider Fraud
                                                                                                       WORKERS’ COMPENSATION FRAUD
The workers’ compensation program is also subject to
fraud and abuse by medical providers used by postal                                                    INVESTIGATIVE RESULTS
employees injured on the job. A few seek to take advantage                                             October 1, 2010 — March 31, 2011
of this program by submitting false bills, colluding with                                               277 fraud investigations resolved
claimants to extend benefits, or falsifying claim documents.                                            $86 million in compensation payments avoided
When evidence of abuse exists, OIG agents investigate                                                   17 arrests
these providers.                                                                                        21 indictments
 The Postal Service was awarded $42.5 million in                                                      18 convictions
    criminal fine proceeds in February 2011 attributable                                                73 personnel actions taken by management
    to the OIG’s participation in a qui tam1 case against a
    pharmaceutical company that promoted the sale of a                                                  Agents executed a federal search warrant at her
    specific prescription drug for conditions not approved                                              residence and seized 60 tubs of mail, including more
    by the Food and Drug Administration (FDA). The qui tam                                              than 3,000 pieces of First-Class Mail. The letter carrier
    complaint filed against the pharmaceutical company                                                  was arrested in December 2010. She was sentenced to
    was investigated jointly with the Department of Health                                              6 months of home confinement, 3 years of probation and
    and Human Services OIG, and the FDA Office of                                                       was ordered to pay $20,000 in restitution to Netflix, and
    Criminal Investigations. The investigation determined                                               a $15,000 fine to the Postal Service. The letter carrier
    that between July 2000 and December 2001, the                                                       retired from the Postal Service in May 2010.
    pharmaceutical company profited from the misbranding
                                                                                                    An Arkansas contract employee pled guilty in February
    and off-label promotion of the drug. By affirmatively
    promoting the drug for unapproved uses, the company                                                 to one count of theft of mail. The contract employee was
    caused the drug to be distributed in interstate commerce                                            indicted and arrested in August 2010 after confessing
    without adequate directions for its use. In November,                                               to stealing a $10,000 postal deposit. After initially telling
    the company pled guilty in a Pennsylvania federal                                                   agents that she never saw the remittance, the contract
    court to distributing a misbranded drug. The company                                                employee failed to report to work after being interviewed.
    agreed to pay $422.5 million in criminal and civil fines,                                           During an additional interview with agents, the contract
    which includes a criminal fine and forfeiture of $185                                               employee admitted to staging a burglary at the post
    million and $237.5 million to resolve civil liabilities. The                                        office and stealing the $10,000 to support her family.
    $42.5 million awarded to the Postal Service represents                                              After pleading guilty in February, she was sentenced
    25 percent of the court ordered criminal fine of $170                                               to 5 years probation and ordered to pay $10,000 in
    million. The asset forfeiture amount payable to the Postal                                          restitution. Her employment was terminated in February
    Service has yet to be determined.                                                                   2010.
                                                                                                    In February, a North Carolina highway contract carrier
DELAY, DESTRUCTION, AND THEFT OF                                                                        was sentenced to 5 months in prison and 3 years of
MAIL BY EMPLOYEES                                                                                       probation after pleading guilty to one count of theft
                                                                                                        of mail. During an interview with agents, the highway
Special agents investigate allegations of postal employees                                              contract carrier confessed to stealing Netflix and
delaying, destroying, or stealing mail. Suspected employees                                             Blockbuster DVDs, rifling First-Class Mail, and delaying
are referred to prosecutors or to management for                                                        First–Class Mail, Periodicals, and Standard Mail by
administrative action.                                                                                  storing the mail in the trunk of her vehicle. Agents
                                                                                                        conducted surveillance on the highway contract carrier
Theft of Mail by Employees                                                                              and determined she had not delivered at least three
                                                                                                        Netflix DVDs. Agents stopped the highway contract
Following are examples of cases in which postal employees                                               carrier after she departed the post office. During a
stole mail for personal gain.                                                                           consensual search of her personal vehicle, agents
 A San Francisco letter carrier pled guilty in January                                                recovered five Netflix movies, four parcels, and 2,175
    to one count of obstruction of mail. Agents observed                                                pieces of deliverable mail. The majority of the mail was
    the letter carrier during a surveillance operation as she                                           hidden in the trunk of the vehicle inside diaper bags
    stole First-Class Mail containing Netflix DVDs. During an                                           underneath diapers, inside the sleeve of a jacket, and
    interview with agents, the letter carrier said she began                                            inside of the area where the spare tire is stored. The
    stealing from the mail approximately 10 years ago,                                                  carrier admitted to agents the mail had been in her
    starting with magazines and later gift cards, parcels,                                              vehicle for approximately 3 weeks. She also stated
    Netflix DVDs and other items she found interesting.                                                 she had approximately 25-50 Netflix movies at her
A legal action under a statute such as the False Claims Act, allowing private parties to sue for a penalty on behalf of the government.
1




                                                                                                                                                                        October 1, 2010 — March 31, 2011 | 23
DELAY, DESTRUCTION, AND THEFT OF MAIL BY EMPLOYEES




                                            residence. The carrier stated she delayed the mail               throwing the mail away because he was unable to “get
                                            because she felt overwhelmed by her route. She was               it delivered.” The carrier was indicted by a federal grand
                                            indicted and arrested for theft of mail in July and pled         jury and arrested in October. He was sentenced to 2
                                            guilty in September 2010. The highway contract carrier’s         months probation and ordered to pay a fine of $100. The
                                            contract with the Postal Service was terminated in               carrier resigned from the Postal Service.
                                            January 2010.
                                          A Kentucky contract letter carrier pled guilty to one count    CONTRACT FRAUD
                                            of obstruction of correspondence in February 2011. The
                                                                                                           The Postal Service manages contracts, ranging from
                                            investigation determined that the carrier obstructed the
                                                                                                           multimillion dollar national contracts for services such
                                            delivery of more than 3,000 pieces of First-Class Mail,
                                                                                                           as transportation networks and IT infrastructures to local
                                            Periodicals, and Standard Mail that she kept inside her
                                                                                                           contracts for supplies and services at individual postal
                                            vehicle. Approximately 348 pieces of First-Class Mail
                                                                                                           facilities. The OIG aids the Postal Service by investigating
                                            were rifled, including one prescription drug parcel. The
                                                                                                           allegations of contract fraud, waste, and misconduct. When
                                            undelivered mail dated back to September 2009. After
                                                                                                           contract improprieties are documented, special agents
                                            conducting surveillance of the contract carrier and
                                                                                                           present the evidence for criminal and civil prosecution and
                                            approaching her vehicle, agents observed undelivered
                                                                                                           administrative remedies.
                                            Standard Mail and Periodicals along with ripped open
                                            First-Class letters in the vehicle. Mail was recovered         During this reporting period, we conducted 52 contract
                                            from the door pockets, sun visor, rear seat area, and          fraud investigations, resulting in 6 arrests and more than
                                            the rear cargo area of the vehicle. The contract carrier       $13 million in monetary benefits to the Postal Service.
                                            admitted to opening mail for gift cards and cash to
                                            support her drug addiction. She was indicted and                A Postal Service contract air cargo carrier pled guilty
                                            arrested in November and her contract was terminated             in U.S. District Court, in Washington, DC, in December
                                            by the Postal Service. Sentencing is pending.                    2010 to two counts of price fixing to restrain trade.
                                                                                                             The carrier was ordered to pay a $73 million criminal
                                         Delay or Destruction of Mail by Employees                           fine, of which 5 percent, $3,650,000, was paid directly
                                                                                                             to the Postal Service. In November 2010, pursuant to
                                         Citizens and businesses expect their deposited mail to              plea agreements, two separate air cargo carriers were
                                         be delivered in a timely manner and not be delayed or               sentenced for their role in the conspiracy and ordered
                                         destroyed. Postal employees and contractors who delay,              to pay a $17.4 million and a $40 million criminal fine
                                         desert, or dump mail are investigated by our special agents.        respectively, to the U.S. Government. In addition, in
                                          In December 2010, an Oklahoma temporary employee                 February 2011, an additional air cargo carrier pled guilty
                                                                                         carrier pled        and was ordered to pay a $48 million criminal fine to
                                                                                         guilty to one       the U.S. Government for its role in the conspiracy. The
                                                                                         count of delay/     recoveries and guilty pleas that occurred in this reporting
                                                                                         destruction of      period resulted from a joint, ongoing investigation
                                                                                         mail. A postal      coordinated by the U.S. Department of Justice’s Antitrust
                                                                                         supervisor          Division and numerous federal law enforcement
                                                                                         notified agents     agencies into conspiracy to commit price fixing in the
                                                                                         that more than      air transportation industry. The conspiracy was carried
                                                                                         500 pieces          out, in part, through meetings, conversations, and
                                                                                         of First-           communications whereby the parties agreed on certain
                                                                                         Class Mail,         components of cargo rates for shipments on certain
                                                                                         Periodicals,        routes to/from the United States.
                                                                                         and Standard       In November 2010, the Postal Service realized a
                                                                                         Mail were           recovery of more than $743,000, inclusive of OIG
                                                                                         found in            investigative costs, as a result of an investigation into an
                                                                                         a trash             Ohio company awarded a contract to provide call center
                                                                                         dumpster at         services to the Postal Service. The OIG’s investigation
                                                                                         an apartment        determined that the company had been improperly
                                                                                         complex in          billing the Postal Service for approximately 6 years under
                                                                                         Oklahoma City,      the contract, which was originally awarded in 2003.
  Postal employees or contractors who delay, throw away or destroy mail are subject to   OK. The carrier     According to the terms of the contract, when the Postal
  criminal prosecution or administrative action. An Oklahoma employee was convicted      admitted to         Service requested any modifications to the existing call
  of throwing away mail. He is no longer employed by the Postal Service.




24 | Semiannual Report to Congress
                                                                                                                                                          CONTRACT FRAUD




  service contract, the company had to provide the Postal
  Service a rough estimate. The contract also required
  that the company’s estimate be within +/-10 percent
  of the actual cost to complete the modifications. At the
  completion of the modifications, the Postal Service paid
  the company’s charges after comparing their estimates
  to their actual costs. However, the OIG found that the
  company overstated its estimates and failed to provide
  the Postal Service its actual costs. As a result, the Postal
  Service overpaid the company $575,000. The company
  agreed to pay the Postal Service an additional $168,000
  for the cost of the investigation.
 A Postal Service highway contract route contractor
  pled guilty in January in federal court to two counts of          The Postal Service contracts with both domestic and international air carriers to transport mail
  violations of false or fraudulent claims associated with a        as cargo. A price-fixing scheme by air cargo carriers resulted in the Postal Service paying
  contract to transport mail. The investigation determined          excessive cargo shipping rates. A joint investigative effort spearheaded by the Department of
  that in July 2004 and March 2006, the contractor made             Justice that started in 2008 and includes the Postal Service OIG has resulted in several airline
  claims to the Postal Service for funds to pay prevailing          companies and their executives pleading guilty for their role in fixing prices in the air cargo
  wage rates and fringe benefits to her employee, and               transportation industry. This check represents part of the $11.95 million in fines paid to the
  for a workers’ compensation insurance policy. However,            Postal Service.
  the funds were not used for these purposes, as the
  contractor failed to pay the proper wage and did not               OIG’s investigation determined that during certain prior
  have an active workers’ compensation insurance policy              holiday seasons, the highway contract route contractors
  since September 2005. The contract had been previously             submitted $32,703 in false supplemental claims to
  terminated by the Postal Service based on the OIG’s                the Postal Service for alleged inaccurate increases in
  investigative findings. Sentencing of the contractor is            operating expenses. The debarment followed the OIG’s
  pending.                                                           criminal investigation, which resulted in one contractor
 A Utah man and his son-in-law, along with their                   pleading guilty to a felony count of theft of government
  respective companies (which were highway contract                  money, while the other pled guilty to a misdemeanor
  route contractors) were debarred by the Postal Service             count of theft of government money. Both parties, as
  for a period of 3 years in an October 2010 decision. The           part of their plea, agreed to pay restitution of $32,703 to



  Major Fraud Investigations Division
  The OIG established the Major Fraud Investigations Division (MFID) in April 2009 to promote integrity and accountability
  related to allegations of major fraud that impacts the Postal Service. MFID is responsible for investigating all allegations
  of fraud within the Postal Service’s programs and operations with a contract award price (individual or aggregate) or
  billings of $500,000 or more with a special emphasis on allegations that become national or multi-jurisdictional in
  nature.

  The Postal Service expends $12 billion per year on goods and services and maintains an overall procurement portfolio
  of close to $42 billion. About $600 million in Postal Service funds are potentially lost to fraud each year, based on
  the Certified Fraud Examiners Association’s professionally recognized average of 5 percent of procurement dollars
  susceptible to fraudulent activity.

  During its first 2 years, MFID investigations produced nearly $61 million of monetary benefits to the Postal Service,
  51 prosecutive actions (indictments, informations, and complaints), and 27 suspensions and debarments. During this
  semiannual report period, MFID investigations resulted in more than $9 million in monetary benefits to the Postal
  Service, 17 prosecutive actions, three arrests, and 14 suspensions and debarments.

  Current MFID investigations cover a wide range of issues, including contract mischarging, health care provider fraud,
  and bribery. In one anti-trust investigation, MFID uncovered that dozens of air cargo carriers engaged in a price fixing
  conspiracy.




                                                                                                                                            October 1, 2010 — March 31, 2011 | 25
OFFICIAL MISCONDUCT




                                       the Postal Service that had not yet been paid but were        OFFICIAL MISCONDUCT
                                       identified by our investigation.
                                      In November 2010, an Ohio Postal Service highway             Postal Service employees commit misconduct when they:
                                       contract route contractor was sentenced in state               Misuse Postal Service computers.
                                       court to 3 years’ probation and ordered to pay more
                                       than $5,500 in restitution to the Postal Service. The          Destroy or steal postal property.
                                       contractor had previously pled guilty to one felony count      Lie or forge signatures on official documents.
                                       of theft for failing to obtain a workers’ compensation
                                       policy associated with a highway contract route contract       Steal funds.
                                       during the period 2005 through 2010. The contractor,           Abuse authority.
                                       who has two employees on his contract, was required
                                                                                                      Sabotage operations.
                                       by the state of Ohio to have workers’ compensation
                                       insurance. The contractor submitted information to the         Use narcotics or sell drugs while on duty.
                                       Postal Service declaring that his workers’ compensation        Abuse alcohol while on duty.
                                       insurance policy was current. As a result of that claim,
                                       the Postal Service reimbursed the contractor for the          During this reporting period special agents investigated
                                       cost of the policy. A subsequent OIG investigation found      46 cases of employees selling, possessing, or using illegal
                                       that the contractor did not maintain a current workers’       drugs on duty; made 28 arrests; and the Postal Service
                                       compensation policy and that contractor falsely reported      took 30 administrative personnel actions. Following are
                                       he had coverage.                                              examples of cases the OIG investigated involving employee
                                      An OIG investigation conducted in New York uncovered         misconduct.
                                       a phantom cleaning business, set up by a customer              In December, prosecution for a city carrier in New
                                       service manager, used to engage in a scheme to                   York state was deferred for 3 months pending good
                                       fraudulently bill the Postal Service for cleaning services       behavior and satisfactory compliance of the terms
                                       not rendered. The manager also stole third-party checks          of the deferment. The carrier had been indicted in
                                       to conceal additional thefts of Postal Service funds.            February 2010 for obstruction of correspondence. In
                                       In total, between the two schemes from August 2006               June 2010, a non-Postal Service co-conspirator pled
                                       through July 2009, the manager embezzled about                   guilty to possession with intent to distribute a controlled
                                       $184,000. In November 2010, the now former employee              substance. This investigation, conducted jointly with
                                       pled guilty in federal court to an indictment charging a         the Postal Inspection Service, identified more than 130
                                       violation of misappropriation of postal funds. Sentencing        parcels originating on the West Coast that had been
                                       is pending.                                                      scanned “Delivered” or “Notice Left” by the carrier
                                                                                                        since September 2009. The parcels were mailed to
                                                                                                        high-rise apartment buildings and were addressed to
                                                                                                        fictitious apartment numbers. The gross weight of these


                                      Contract Fraud Risk Alert Issued to Postal Service
                                      In July 2010, we forwarded a Risk Alert to the Postal Service detailing the issue of highway contract route (HCR)
                                      contractors not maintaining workers’ compensation insurance, in violation of contract terms and conditions and certain
                                      state laws. In addition to highlighting the issue, the Risk Alert provided specific actions that can be implemented by the
                                      Postal Service to protect its interests, including:
                                       Require HCR contractors to submit proof of workers’ compensation insurance at the time of contract award and
                                         certify continuous coverage annually thereafter.
                                       Fully document the cost elements included in the establishment of HCR rates in the price negotiation memorandum.
                                         Key elements that are essential to contract performance, such as the maintenance of workers’ compensation
                                         insurance, should be in the price negotiation memorandum.
                                       Remove any language from the worksheets or other contract documents or policies that contradicts the false
                                         statement certification on the face of the worksheets.
                                       Require HCR contractors to sign and certify all cost statements.
                                       Require HCR contractors to present payment invoices to the Postal Service prior to receiving contract payments.




26 | Semiannual Report to Congress
                                                                                                    EXECUTIVE INVESTIGATIONS AND INTERNAL AFFAIRS




  parcels exceeded 2,000 pounds. The carrier received               supervised probation, a $500 fine, and court costs. The
  $20 per delivered parcel. As the carrier’s parcel post            clerk was removed from the Postal Service.
  responsibilities do not include this class of mail, he          A city letter carrier in New York state was sentenced
  was unauthorized to take custody of and deliver these             in March to 2 years in prison plus 2 years post release
  parcels. The co-conspirator retrieved several of these            supervision for criminal sale of a controlled substance
  parcels, which contained 14 pounds of illegal narcotics.          and conspiracy. This investigation, conducted jointly with
  In October, the non-Postal Service co-conspirator was             the Postal Inspection Service and state and local police
  sentenced to 12 months and one day incarceration                  officials of New York, revealed that in July, while under
  followed by 3 years supervised released and $100                  surveillance, the carrier delivered a parcel that contained
  special assessment. The carrier was removed from the              approximately 2 kilograms of cocaine to his non-postal
  Postal Service.                                                   co-conspirator. During the course of a New York Police
 A city letter carrier in New York state pled guilty in           Department (NYPD) narcotics operation, investigators
  October to bribery of a public official. This investigation,      learned of a narcotics conversation between the carrier
  conducted jointly with the Postal Inspection Service,             and a non-postal co-conspirator. The carrier and the co-
  revealed that the carrier facilitated the delivery                conspirator were discussing the carrier’s upcoming work
  of narcotic-laden parcels on behalf of local drug                 schedule and a suspected shipment of narcotics. While
  traffickers. The carrier also alerted local traffickers           in uniform and operating a postal vehicle, the carrier met
  of law enforcement interest in suspect parcels. The               with the co-conspirator and delivered a large Express
  carrier and his two Postal Service co-conspirators                Mail parcel. The co-conspirator received the parcel from
  assisted the trafficking operations by providing “no such         the clerk, placed it inside of the cab, and left the scene in
  number” mailing addresses from their routes to which              the same cab. NYPD recovered the parcel from the cab
  the parcels were delivered. During one exchange, the              and executed a search warrant of the parcel. The parcel
  carrier received $2,400 cash for providing addresses              contained approximately 2 kilograms of cocaine with an
  and delivering these parcels. One of the co-conspirators          estimated street value of $250,000. The co-conspirator
  was paid $100 to $300 per parcel and given marijuana              promised the carrier $1,000 to deliver the parcel. The
  for providing addresses. The carrier and the two co-              carrier was removed from the Postal Service.
  conspirators were removed from the Postal Service.
  Sentencing of the city letter carrier is set for June 3.
  The two Postal Service alleged co-conspirators have not        EXECUTIVE INVESTIGATIONS AND
  been prosecuted.                                               INTERNAL AFFAIRS
 A Louisiana mail processing clerk pled guilty to
  possession of marijuana in February. Our investigation         OI conducts criminal and administrative investigations of
  revealed that the clerk would leave a marijuana joint          Postal Service executives, and OIG and Postal Inspection
  on the concrete either at a local bank or car wash on          Service personnel, as well as whistleblower reprisal
  a nearby street and would go to that area on his lunch         investigations.
  break, get the marijuana, and smoke it prior to returning
  to work to finish his shift. The clerk was sentenced to        Whistleblower Reprisal Activity
  6 months in jail; however, the jail term was suspended         The Whistleblower Protection Act does not apply to the
  and replaced with supervised probation for 1 year. The         Postal Service. However, the Postal Service has its own
  clerk was also ordered to pay a $200 fine and court            policy governing whistleblower retaliation. The policy
  costs, remain arrest- and conviction-free for the period       prohibits retaliation against an employee who has disclosed
  of probation and to meet other conditions. The Postal          information he or she reasonably believes to be:
  Service suspended the clerk for 14 days.
 An Arkansas sales and service distribution clerk pled         1) a violation of any rule, law or policy, or 2) a gross waste
  guilty to four counts of possession of a controlled            of funds, gross mismanagement, abuse of authority, or a
  substance with intent to distribute. As part of this           substantial and specific danger to public health or safety.
  investigation, conducted jointly with Arkansas state and       Allegations received:................................................... 108
  local officials, the clerk sold 45 Hydrocodone tablets to      OIG Investigations initiated:............................................ 23
  an undercover officer during one of three transactions         Investigations closed with no finding of retaliation
  between the clerk and the undercover officer. The clerk          or deferred to other adjudicative body:.......................... 35
  sold the prescription narcotics while in uniform and           Allegations closed with no action:................................... 90
  on one occasion used her cellular phone to arrange at          Open investigations:...................................................... 13
  least one of the illegal transactions while on duty and        OIG found reprisal:.......................................................... 0
  on postal property. The clerk was sentenced to 3 years




                                                                                                                                    OCTOBER 1, 2010 — MARCH 31, 2011 | 27
                                                                                                                                                      APPENDIX A




APPENDICES
The Inspector General (IG) Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending September 30 and March 31. These
reports are sent to Congress and made available to the public.

This report summarizes OIG activities and illustrates significant problems, abuses, and deficiencies, along with recommendations and corrective actions related
to the administration of U.S. Postal Service programs and operations during the reporting period.

The appendices on the following pages fulfill the requirements of the Act.

APPENDIX A
Reports Issued to Postal Service Management
For the period October 1, 2010 — March 31, 2011

OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues audit
reports (AR) or management advisory reports (MA) in accordance with the identified needs of the project.

Summary
                                                                                                                         Unsupported
Strategic Goals                     Number of Reports      Funds Put to Better Use        Questioned Costs           Questioned Costs               Revenue Impact
Improve Service                                     12               $896,116,249             $298,405,248                          —                     $1,898,137

Improve Employee Engagement                          1                         —                         —                          —                              —

Improve Financial Performance                       17           $60,732,720,003                         —                          —                              —

Regulatory Studies and Reporting                     5                         —                         —                          —                              —
Obligations
Preserving Accountability                           72                  $600,000               $267,854,618               $266,180,194                  $56,622,659

TOTAL                                              107           $61,629,436,252              $566,259,866               $266,180,194                   $58,520,796




   Definitions:
   Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth.

   Unsupported Questioned Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts shown as
   Questioned Costs.

   Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.

   Revenue Impact. Amounts from revenue generating functions such as retail sales, rent, leases, or fees that were underpaid or not realized. In
   addition, this category includes increased revenue from existing functions and generating revenue from new sources.




                                                                                                                                 October 1, 2010 — March 31, 2011 | 29
APPENDIX A




Reports with Quantifiable Potential Monetary Benefits
                                                                                          Funds Put                            Unsupported
                                                                                       to Better Use   Questioned Costs    Questioned Costs   Revenue Impact
IMPROVE SERVICE
Delivery
City Delivery Operations Workforce Planning; DR-AR-11-001; 11/22/2010                   $275,161,307        $275,161,307                —                 —
The Effects of the Flats Sequencing System on Delivery Operations –                              —             $522,450                 —                 —
Arizona District; DR-MA-11-001; 3/14/2011
Field Financial
Express Mail Guarantees; FF-AR-11-004; 12/15/2010                                                —                   —                  —          $1,898,137
Network Optimization
Benchmarking Mail Distribution to Carriers; EN-MA-11-001; 3/25/2011                     $518,517,299                 —                  —                 —
Network Processing
Processing Collection Box Flats in the Philadelphia Metropolitan Customer Service           $188,170                 —                  —                 —
District; NO-MA-11-002; 3/1/2011
Sales and Services
Retail Customer Service Operations Realignment in the Hawkeye District;                 $25,824,357                  —                  —                 —
MS-AR-11-002; 3/30/2011
Transportation
Postal Vehicle Service – Scheduling and Staffing – Connecticut Valley District;          $19,916,848                 —                  —                 —
NL-AR-11-002; 3/18/2011
Postal Vehicle Service Transportation Routes – Suburban Maryland Processing               $6,476,403                 —                  —                 —
and Distribution Center; NL-AR-11-001; 1/14/2011
Surface Mail Classes on Air Transportation Networks; NL-MA-11-001; 12/6/2010            $50,031,865         $22,721,491                 —                 —


IMPROVE FINANCIAL PERFORMANCE
Delivery
City Delivery Efficiency Review – Chicago District; DR-AR-11-004; 3/30/2011              $65,362,706                 —                  —                 —
City Delivery Efficiency Review – New York District; DR-AR-11-002; 1/18/2011             $93,143,986                 —                  —                 —
City Delivery Efficiency Review – Northern Virginia District; DR-AR-11-003;              $32,171,718                 —                  —                 —
1/20/2011
Engineering
Facility Optimization: Capital Metro Area; DA-AR-11-004; 2/25/2011                       $36,312,795                 —                  —                 —
Facility Optimization: Eastern Area; DA-AR-11-002; 2/11/2011                           $190,656,882                  —                  —                 —
Facility Optimization: Southwest Area; DA-AR-11-003; 3/1/2011                            $99,618,007                 —                  —                 —
Facility Optimization: Western Area; DA-AR-11-001; 2/7/2011                            $173,835,881                  —                  —                 —
Financial Reporting

Substantial Savings Available by Prefunding Pensions and Retirees’ Health Care       $59,832,372,092                 —                  —                 —
at Benchmarked Levels; FT-MA-11-001; 11/23/2010
Network Optimization

Excess Space in Mail Processing Facilities in the Suncoast District; EN-AR-11-001;       $19,396,129                 —                  —                 —
11/10/2010
Implementation of Lima, OH to Toledo, OH Area Mail Processing Consolidation;                $105,125                 —                  —                 —
EN-AR-11-004; 3/31/2011




30 | Semiannual Report to Congress
                                                                                                                                                       APPENDIX A




                                                                                         Funds Put                             Unsupported
                                                                                      to Better Use    Questioned Costs    Questioned Costs        Revenue Impact
Network Processing
Houston, TX Processing and Distribution Center Mail Consolidation;                      $189,744,682                 —                    —                         —
NO-AR-11-004; 12/14/2010


PRESERVING ACCOUNTABILITY
Field Financial
Bellmawr Main Office Window – Bellmawr, NJ; FF-AR-11-001; 10/22/2010                             —                   —                    —                   $11,528

Blawnox Branch Post Office – Pittsburgh, PA; FF-AR-11-002; 11/17/2010                            —                 $620                $620                   $39,880
Compliance with Travel Policies and Opportunities for Cost Savings; FF-AR-11-007;          $600,000            $610,114                   —                         —
2/9/2011
San Francisco District Risk-Based Post Office Audit; FF-AR-11-003; 12/13/2010                    —               $3,609              $3,309                    $5,261
White River Junction, VT Post Office; FF-AR-11-008; 3/3/2011                                     —              $40,660             $40,660                         —
Financial Reporting
Fiscal Year 2010 Postal Service Financial Statements Audit – St. Louis Information               —          $73,443,545          73,443,545                         —
Technology and Accounting Service Center; FT-AR-11-009; 3/31/2011
Postage in the Hands of the Public Liability Estimate; FT-AR-11-006; 1/6/2011                    —                   —                    —              $56,565,990
Supply Management
Incurred Costs of Serco, Incorporated for Fiscal Year 2007; CA-CAR-11-004;                       —              $197,124                  —                         —
3/14/2011
Information Technology Contract Payment Oversight; CA-AR-11-001; 11/23/2010                      —         $192,692,060        $192,692,060                         —
Lunda Construction Company Payment Request; CA-CAR-11-006; 3/30/2011                             —             $866,886                   —                         —
TOTAL                                                                                $61,629,436,252       $566,259,866         $266,180,194             $58,520,796




                                                                                                                                  October 1, 2010 — March 31, 2011 | 31
APPENDIX A




Report Listing
Complete listing of all OIG reports issued to Postal Service management.

For the period October 1, 2010 — March 31, 2011


IMPROVE SERVICE                                         Postal Vehicle Service Transportation Routes –         Huntington, WV Processing and Distribution Facility
                                                        Suburban Maryland Processing and Distribution          Consolidation; EN-AR-11-003; 3/31/2011
Delivery
                                                        Center; NL-AR-11-001; 1/14/2011
                                                                                                               Implementation of Lima, OH to Toledo, OH Area
City Delivery Operations Workforce Planning;
                                                        Surface Mail Classes on Air Transportation             Mail Processing Consolidation; EN-AR-11-004;
DR-AR-11-001; 11/22/2010
                                                        Networks; NL-MA-11-001; 12/6/2010                      3/31/2011
The Effects of the Flats Sequencing System on
                                                                                                               Network Distribution Center Activation Impacts;
Delivery Operations – Arizona District;
                                                        IMPROVE EMPLOYEE ENGAGEMENT                            EN-AR-11-002; 3/14/2011
DR-MA-11-001; 3/14/2011
Engineering                                             Human Resources and Security
                                                                                                               Network Processing
Full Service Intelligent Mail Program Customer          Allegations of Inaccurate Time and Attendance
                                                        Records; HR-AR-11-001; 3/31/2011                       Columbus, GA Customer Service Mail Processing
Satisfaction; DA-MA-11-001(R); 11/23/2010
                                                                                                               Center Originating Mail Consolidation;
Field Financial                                                                                                NO-AR-11-005; 2/14/2011
Express Mail Guarantees; FF-AR-11-004;                  IMPROVE FINANCIAL PERFORMANCE                          Follow-Up on the Assessment of Overall Plant
12/15/2010                                              Delivery                                               Efficiency 2010; NO-MA-11-001; 2/1/2011
Network Optimization                                    City Delivery Efficiency Review – Chicago District;    Houston, TX Processing and Distribution Center
                                                        DR-AR-11-004; 3/30/2011                                Mail Consolidation; NO-AR-11-004; 12/14/2010
Benchmarking Mail Distribution to Carriers;
EN-MA-11-001; 3/25/2011                                 City Delivery Efficiency Review – New York District;   Marysville, CA Processing and Distribution Facility
                                                        DR-AR-11-002; 1/18/2011                                Consolidation; NO-AR-11-002; 11/23/2010
Network Processing
                                                        City Delivery Efficiency Review – Northern Virginia    Wilkes-Barre, PA Processing and Distribution
Follow-Up Review of Operations and Service in the                                                              Facility Consolidation; NO-AR-11-001; 10/4/2010
                                                        District; DR-AR-11-003; 1/20/2011
Philadelphia Customer Service District;
NO-MA-11-003; 3/4/2011                                  Engineering
Internal Controls Over Powered Industrial Vehicles      Facility Optimization: Capital Metro Area;             REGULATORY STUDIES AND REPORTING
at the Salt Lake City Processing and Distribution       DA-AR-11-004; 2/25/2011                                OBLIGATIONS
Center and Salt Lake City Auxiliary Service Facility;                                                          Cost, Revenue, and Rates
NO-AR-11-003; 11/19/2010                                Facility Optimization: Eastern Area; DA-AR-11-002;
                                                        2/11/2011                                              Periodicals Mail Costs; CRR-AR-11-001;
Processing Collection Box Flats in the Philadelphia                                                            12/7/2010
Metropolitan Customer Service District;                 Facility Optimization: Southwest Area;
NO-MA-11-002; 3/1/2011                                  DA-AR-11-003; 3/1/2011                                 Information Technology

Sales and Services                                      Facility Optimization: Western Area;                   Fiscal Year 2010 Selected Information Technology
                                                        DA-AR-11-001; 2/7/2011                                 General Controls; IT-AR-11-002; 1/12/2011
Retail Customer Service Operations Realignment in
the Hawkeye District; MS-AR-11-002; 3/30/2011           Financial Reporting                                    Information Resource Access; IT-AR-11-003;
                                                                                                               2/15/2011
Transportation                                          Substantial Savings Available by Prefunding
                                                        Pensions and Retirees’ Health Care at                  Network Perimeter Firewalls; IT-AR-11-001;
Postal Vehicle Service – Scheduling and Staffing        Benchmarked Levels; FT-MA-11-001; 11/23/2010           12/6/2010
– Connecticut Valley District; NL-AR-11-002;
                                                        Network Optimization                                   Sales and Services
3/18/2011
                                                        Excess Space in Mail Processing Facilities in the      Workshare Discounts Exceeding Avoided Costs;
                                                        Suncoast District; EN-AR-11-001; 11/10/2010            MS-AR-11-001; 12/23/2010




32 | Semiannual Report to Congress
                                                                                                                                                     APPENDIX A




PRESERVING ACCOUNTABILITY                              Testing of Certain Fiscal Year 2010 Sarbanes-Oxley    Oversight Reviews – Atlanta Business Mail Entry
Field Financial                                        Information Technology Key Infrastructure Controls;   Unit, Atlanta, GA; FF-MA-11-013; 2/9/2011
                                                       FT-AR-11-007; 2/16/2011
Bellmawr Main Office Window – Bellmawr, NJ;                                                                  Oversight Reviews, Austin Business Mail Entry Unit,
FF-AR-11-001; 10/22/2010                               Workers’ Compensation Liability Estimate;             Austin, TX; FF-MA-11-011; 1/28/2011
                                                       FT-MA-11-002; 12/23/2010
Blawnox Branch Post Office, Pittsburgh, PA,                                                                  Oversight Reviews – Birmingham Business Mail
FF-AR-11-002; 11/17/2010                               Fiscal Year 2010 Financial Installation Audits        Entry Unit, Birmingham, AL; FF-MA-11-005;
                                                                                                             1/24/2011
Compliance with Travel Policies and Opportunities      Post Offices, Station, and Branches;
for Cost Savings; FF-AR-11-007; 2/9/2011               FF-AR-11-005; 12/23/2010                              Oversight Reviews – Laguna Postal Store Postal
                                                                                                             Retail Unit, Elk Grove, CA; FF-MA-11-004;
Fiscal Year 2010 Financial Installation Audit          Fiscal Year 2011 Financial Testing                    1/20/2011
– Business Mail Entry Units; FF-AR-11-006;             Compliance
1/20/2011                                                                                                    Oversight Reviews, Miami Plant Verified Drop
                                                       Business Mail Entry Unit Oversight Reviews –          Shipment, Miami, FL; FF-MA-11-007; 1/24/2011
Fiscal Year 2011 Audit of Statistical Tests –          Charlotte, NC; FF-MA-11-018; 2/1/2011
Dallas District; FF-MA-11-031; 3/9/2011                                                                      Oversight Reviews – Phoenix Business Mail Entry
                                                       Business Mail Entry Unit Oversight Reviews –          Unit, Phoenix, AZ; FF-MA-11-019; 2/3/2011
San Francisco District Risk-Based Post Office          Denver Business Mail Entry Unit, Denver, CO;
Audit; FF-AR-11-003; 12/13/2010                        FF-MA-11-009; 2/1/2011                                Oversight Reviews – Postal Retail Unit, Gooding,
                                                                                                             ID; FF-MA-11-002; 1/18/2011
White River Junction, VT Post Office;                  Business Reply Mail Oversight Reviews, Hudson
FF-AR-11-008; 3/3/2011                                 Post Office – Hudson, NH; FF-MA-11-016;               Oversight Reviews – San Francisco Processing
                                                       2/2/2011                                              and Distribution Center Business Reply Mail,
Financial Reporting                                                                                          San Francisco, CA; FF-MA-11-003; 1/21/2011
                                                       Business Mail Entry Unit Oversight Reviews, North
Audit Opinion on the Postal Service’s Special-         Metro Processing and Distribution SmartPay            Oversight Reviews – Santa Ana Processing and
Purpose Financial Statements;                          Purchase Card Programs – Duluth, GA;                  Distribution Center Business Mail Entry Unit,
FT-AR-11-001; 11/15/2010                               FF-MA-11-024; 2/25/2011                               Santa Ana, CA ; FF-MA-11-014; 1/31/2011
Fiscal Year 2010 Financial Statements Audit –          Business Mail Entry Unit Oversight Reviews –          Oversight Reviews – Stockton Processing and
Eagan Information Technology and Accounting            Omaha Business Mail Entry Unit, Omaha, NE;            Distribution Center Plant Verified Drop Shipment
Service Center; FT-AR-11-005; 12/30/2010               FF-MA-11-022; 2/18/2011                               Site, Stockton, CA; FF-MA-11-006; 1/24/2011
Fiscal Year 2010 Postal Service Financial              Business Mail Entry Unit Oversight Reviews –          Oversight Reviews – Wellington Postal Retail Unit,
Statements Audit St. Louis Information Technology      Pittsburgh, PA; FF-MA-11-012; 1/27/2011               Wellington, OH; FF-MA-11-010; 1/27/2011
and Accounting Service Center; FT-AR-11-009;
3/31/2011                                              Business Mail Entry Unit Oversight Reviews –          Plant Verified Drop Shipment Oversight Reviews
                                                       Raleigh, NC; FF-MA-11-017; 2/1/2011                   – Mid-Island Processing and Distribution Center,
Fiscal Year 2010 Postal Service Financial                                                                    Melville, NY; FF-MA-11-020; 2/4/2011
Statements Audit – Washington, D.C.                    Business Mail Entry Unit Oversight Reviews,
Headquarters; FT-AR-11-002; 12/6/2010                  Reading Business Mail Entry Unit, Reading – PA;       Plant Verified Drop Shipment Oversight Reviews –
                                                       FF-MA-11-021; 2/7/2011                                Oxnard Processing and Distribution Center, Oxnard,
Fiscal Year 2010 Quality of Postal Service Financial                                                         CA; FF-MA-11-044; 3/29/2011
Testing and Compliance Results; FF-MA-11-001;          Business Mail Entry Unit Oversight Reviews –
1/3/2011                                               Richmond, VA; FF-MA-11-015; 2/1/2011                  Plant Verified Drop Shipment Oversight Reviews
                                                                                                             – South Florida Logistics and Distribution Center
Postage in the Hands of the Public Liability           Business Reply Mail Oversight Reviews, Smyrna         Plant Verified Drop Shipment, Opa Locka, FL;
Estimate; FT-AR-11-006; 1/6/2011                       Post Office – Smyrna, TN; FF-MA-11-008;               FF-MA-11-043; 3/21/2011
                                                       1/25/2011
Postal Service Board of Governors’ Travel and                                                                Plant Verified Drop Shipment Oversight Reviews
Miscellaneous Expenses for Fiscal Year 2010;           Detached Mail Unit Oversight Reviews – American       – Springfield Processing and Distribution Center
FT-AR-11-004; 12/6/2010                                Express Detached Mail Unit, Weston, FL;               Plant Verified Drop Shipment, Springfield, MA;
                                                       FF-MA-11-042; 3/21/2011                               FF-MA-11-037; 3/18/2011
Postal Service Officers’ Travel and Representation
Expenses for Fiscal Year 2010; FT-AR-11-003;           Detached Mail Unit Oversight Reviews – PSI            Plant Verified Drop Shipment Oversight Reviews
12/6/2010                                              Detached Mail Unit, Compton, CA; FF-MA-11-039;        – Tallahassee Plant Verified Drop Shipment,
                                                       3/18/2011                                             Tallahassee, FL; FF-MA-11-038; 3/21/2011




                                                                                                                                October 1, 2010 — March 31, 2011 | 33
APPENDIX A




Plant Verified Drop Shipment Oversight Reviews –    SmartPay Purchase Card Program Oversight          Information Technology
Williamsport Processing and Distribution Center,    Reviews – Queens Processing and Distribution
Williamsport, PA; FF-MA-11-040; 3/21/2011           Center, Flushing, NY; FF-MA-11-041; 3/21/2011     Computer Incident Data Reliability; IT-AR-11-004;
                                                                                                      3/16/2011
SmartPay Purchase Card Program Oversight            SmartPay Purchase Card Program, Oversight
Reviews – Altoona Plant, Duncansville, PA;          Reviews – San Antonio Vehicle Maintenance         Securing Information on Portable Devices;
FF-MA-11-026; 3/3/2011                              Facility, San Antonio, TX; FF-MA-11-046;          IT-AR-11-005; 3/14/2011
                                                    3/31/2011                                         Supply Management
SmartPay Purchase Card Program Oversight
Reviews – Burlington Main Office, Burlington, WA;   SmartPay Purchase Card Program Oversight          Audit of Kalitta Air, LLC Fuel Adjustment Process
FF-MA-11-029; 3/7/2011                              Reviews – Thousand Oaks Station, San Antonio,     Affecting Fuel Component of Fixed Price per
                                                    TX; FF-MA-11-034; 3/10/2011                       Kilogram Indefinite Quantity Contract;
SmartPay Purchase Card Program Oversight
Reviews – Columbia Vehicle Maintenance Facility –   SmartPay Purchase Card Program Oversight          CA-CAR-11-005; 3/28/2011
I, Columbia, SC; FF-MA-11-036; 3/15/2011            Reviews – Wheeler Station SmartPay Purchase       Financial Capability Audit – Key Handling Systems,
                                                    Card Program, St. Louis, MO; FF-MA-11-027;        Incorporated; CA-CAR-11-003; 3/8/2011
SmartPay Purchase Card Program Oversight            3/4/2011
Reviews – Columbia Vehicle Maintenance Facility -                                                     Incurred Costs of Serco, Incorporated for Fiscal
II, Columbia, SC; FF-MA-11-035; 3/11/2011           Voyager eFleet Card Program Oversight Reviews –   Year 2007; CA-CAR-11-004; 3/14/2011
                                                    Bogalusa Post Office, Bogalusa, LA;
SmartPay Purchase Card Program Oversight            FF-MA-11-045; 3/30/2011                           Information Technology Contract Payment
Reviews – Holden Post Office, Holden, MA;                                                             Oversight; CA-AR-11-001; 11/23/2010
FF-MA-11-032; 3/8/2011                              Voyager eFleet Card Program Oversight Reviews
                                                    – Evergreen Voyager eFleet Card Program,          Lunda Construction Company Payment Request;
SmartPay Purchase Card Program Oversight            Evergreen, CO; FF-MA-11-047; 3/31/2011            CA-CAR-11-006; 3/30/2011
Reviews – Nevada-Sierra SmartPay Purchase
Card Program, Las Vegas, NV; FF-MA-11-033;          Fiscal Year 2011 Review of Statistical Tests      Modified Financial Condition Risk Assessment,
3/10/2011                                                                                             Hewlett-Packard Company; CA-CAR-11-002;
                                                    Greater South Carolina District; FF-MA-11-030;    2/24/2011
SmartPay Purchase Card Program Oversight            3/4/2011
Reviews – Northland District, Minneapolis, MN;                                                        NCR Government Systems, LLC Proposal to the
FF-MA-11-028; 3/7/2011                              South Florida District; FF-MA-11-023; 2/25/2011   U.S. Postal Service; CA-CAR-11-001; 3/4/2011
                                                    Human Resources and Security
                                                    Overtime Usage; HR-AR-11-003; 3/31/2011




34 | Semiannual Report to Congress
                                                                                                                                                          APPENDIX B




APPENDIX B
Findings of Questioned Costs
For the period October 1, 2010 — March 31, 2011


As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.

                                                                                                                                                  Unsupported Costs
                                                                                                                                                         Included in
Description                                                                                      Number of Reports      Questioned Costs           Questioned Costs
Reports for which no management decision was made at the beginning of the reporting period                       3                  $812,244                           —
Reports requiring management decision that were issued during the reporting period                              11              $566,259,866               $266,180,194
TOTAL                                                                                                           14              $567,072,110               $266,180,194


Reports for which a management decision was made during the reporting period (i & ii)                            9              $565,195,856               $266,180,194
   (i) Dollar Value of disallowed cost                                                                                           $97,342,489                 $73,488,134
   (ii) Dollar value of cost not disallowed                                                                                     $467,853,367               $192,692,060
Reports for which no management decision was made by the end of the reporting period                             5                $1,876,254                           —
Negotiations are ongoing
Reports for which no management decision was made within 6 months of issuance                                    1                      $73                            —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                      2                  $812,171                           —
(See Note 2 for a list of individual reports)
Contract reports with a significant audit finding                                                              —                         —                             —
(See Note 3 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance:
                                                                                                                                       Unsupported Costs Included
Subject                                                        Report/Case Number            Report Date    Questioned Costs                  in Questioned Costs
Tom Roberts Realty U.S. Postal Service Contract                          CA-CAR-10-010         7/28/2010                 $73                                           —
TOTAL                                                                                                                    $73                                           —



Note 2 — Reports for which no management decision was made within 1 year of issuance:

                                                                                                                                       Unsupported Costs Included
Subject                                                        Report/Case Number            Report Date    Questioned Costs                  in Questioned Costs
Audit of Portions of a Termination for Convenience                      CA-CAR-09-011          3/16/2009             $475,322                                          —
Settlement Proposal Submitted by Northrop Grumman
Electronic Systems
Termination Settlement Proposal Submitted by C.R.                       CA-CAR-09-019          7/24/2009             $336,849                                          —
Daniels, Incorporated
TOTAL                                                                                                                $812,171                                          —


Note 3 — Contract reports with a significant audit finding:
None for this report period




                                                                                                                                     October 1, 2010 — March 31, 2011 | 35
APPENDIX C




APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period October 1, 2010 — March 31, 2011

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.



Description                                                                                  Number of Reports     Dollar Value
Reports for which no management decision was made at the beginning of the reporting period                   1      $ 33,984,345
Reports issued during the reporting period                                                                  19   $61,629,436,252
TOTAL                                                                                                       20   $61,663,420,597


Reports for which a management decision was made during the report period (i & ii)                          20   $61,663,420,597
   (i) Value of recommendations agreed to by management                                                    —     $ 60,314,158,646
   (ii) Value of recommendations that were not agreed to by management                                     —      $1,349,261,951
Reports for which no management decision was made by the end of the reporting period                       —                  —
Reports for which no management decision was made within 6 months of issuance                              —                  —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                —                  —
(See Note 2 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance:
None for this report period


Note 2 — Reports for which no management decision was made within 1 year of issuance:
None for this report period




36 | Semiannual Report to Congress
                                                                                                                                                                                        APPENDIX D




APPENDIX D
Other Impacts
For the period October 1, 2010 — March 31, 2011

Overview

Many of our audit reports identify areas for improvement that result in non-monetary benefits to the Postal Service. These benefits include improvements to
service, protection of assets and improvements in the reliability of data.



                                                                                                                                     Type of Measure                               Value or Amount
IMPROVED SERVICE
Recommendations that address the Postal Service’s efforts to improve the quality and accessibility of its products                   Number of Recommendations                                       22
and services
Number of customer service audits conducted                                                                                          Number of Audits                                                19


SAFEGUARDING ASSETS
Assets or Accountable Items at Risk
Inadequate internal controls put the value of assets or accountable items (such as cash and stamps) at risk of loss                  Dollar Value                                          $37,811,884
Physical Safety and Security
Dollar value of physical assets (plant, computer equipment, vehicles, and so forth) at risk of loss due to inadequate                Dollar Value                                                    —
physical protection
Recommendations that address the safety and security of Postal Service employees and/or the work environment                         Number of Recommendations                                       —
Number of employee/facility safety and security audits conducted                                                                     Number of Audits                                                21
Information Technology Security
Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at risk of loss         Dollar Value                                                    —
Dollar value of data at risk                                                                                                         Dollar Value                                        $392,528,983
Number of data security/IT security audits conducted                                                                                 Number of Audits                                                 9
Revenue at Risk
Dollar value of revenue that the Postal Service is at risk of losing. (Mailers seeking alternative solutions for current services)   Dollar Value                                         $ 81,605,917
Disbursements at Risk
Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed                     Dollar Value                                        $148,941,542
Goodwill / Branding
An “adverse impact” on goodwill is an actual event/problem that harms the Postal Service’s reputation or a                           Number of Issues Identified                                     12
potential problem that could negatively impact the Postal Service “brand name”
Misallocation of Costs
A misallocation of costs can occur when Postal Service costs are misclassified as volume variable, product specific, or              Dollar Value                                                    —
institutional costs
Capital Investment Savings Shortfall
The difference between the savings predicted by the Decision Analysis Report for capital investment projects and the                 Dollar Value                                        $172,574,067
actual savings realized
Potential Additional Revenue
Revenue the Postal Service could potentially generate for goods delivered or services rendered based on suggested                    Dollar Value                                                    —
improvements




                                                                                                                                                                   October 1, 2010 — March 31, 2011 | 37
APPENDIX D




                                                                                                               Type of Measure                  Value or Amount

RELIABILITY OF DATA
Records at Risk
Data at risk of corruption or loss due to inadequate internal controls and or protection                       Number of Data Records at Risk          1,738,242
Dollar value of data used to support management decisions that is not fully supported or completely accurate   Dollar Value                                  —




38 | Semiannual Report to Congress
                                                                                                                                                                     APPENDIX E




APPENDIX E
Reports with Significant Recommendations Pending Corrective Actions
For the period through March 31, 2011

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of the
reporting period.



                                                    Report Title, Recommendation Summary
                                                           	 R = Recommendation number
Report Number                 Issue Date                   	 TID = Target Implementation Date
SA-AR-07-002                  3/30/2007             Postal Service Security Controls and Processes for the Capital Metro Area

                                                    R-1 — Establish and provide consolidated standard operating procedures and guidance to the Area Security Coordinator,
                                                          District Security Control Officers, and facility Security Control Officers to assist them in performing their duties and
                                                          responsibilities consistently and in a timely manner. TID: April 2011

                                                    R-5 — Develop appropriate performance measures for physical security to assess the achievement of security goals and
                                                          incorporate them into performance plans for area-, district-, and field-level security personnel. TID: April 2011
SA-AR-07-003                  5/9/2007              Postal Service Security Controls and Processes for the Pacific Area

                                                    R-2 — Develop appropriate performance measures for physical security to assess the achievement of security goals and
                                                          incorporate them into performance plans for area-, district-, and field-level security personnel. TID: April 2011
HM-AR-07-002                  5/16/2007             Postal Service’s Workplace Safety and Workplace-Related Injury Reduction Goals and Progress

                                                    R-1 — Closely monitor conversion to the SAP Environmental Health and Safety module and, as soon as possible, ensure the
                                                          upgraded system captures costs by facility, district/performance cluster, and area office as well as the costs for the
                                                          following key categories:
                                                              Non-injury accidents.
                                                              Injury accidents.
                                                              Type of injury.
                                                              Type of illness.
                                                              Per employee.
                                                          TID: September 2011
IS-AR-07-016                  8/20/2007             Audit of Database Administration Practices

                                                    R-2 — Establish policies and procedures for the protection and use of sensitive and business-controlled sensitive data in the
                                                          test, development and production environments. TID: October 2011
IS-AR-07-017                  8/29/2007             Separation of Duties at the Eagan, MN; San Mateo, CA; and St. Louis, MO Information Technology
                                                    and Accounting Service Centers

                                                    R-1 — Assess the risk of the duties of all Information Technology and Accounting Service Center positions (career and non-
                                                          career) for the purpose of assigning these positions as sensitive. TID: September 2011

                                                    R-4 — Notify the Postal Inspection Service when a new Information Technology and Accounting Service Center position is
                                                          created, a new employee is hired, or an employee is promoted to a new position, to make certain the proper clearance
                                                          level is attributed to the employee. TID: March 2011
CRR-AR-08-002                 2/12/2008             Security Review of the Electronic Verification System

                                                    R-2 — Revise Publication 91 in consultation with the manager, Corporate Information Security, to require mailers to utilize a
                                                          secure file transfer method when transmitting manifests for electronic verification to the Postal Service. TID: April 2011




                                                                                                                                              October 1, 2010 — March 31, 2011 | 39
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
Report Number                        Issue Date          	 TID = Target Implementation Date
FF-AR-08-131                         3/19/2008    Fiscal Year 2007 Financial Installation Audits – Business Mail Entry Units

                                                  R-2 — Provide proper management oversight and instructions to schedule periodic verifications when Periodicals mailings are
                                                        received during nonbusiness hours. TID: May 2011
DA-AR-08-006                         6/4/2008     Flats Sequencing System: Production First Article Testing Readiness and Quality

                                                  R-5 — In coordination with the supplier, ensure that the initial Maintenance Diagnostic and Support System and the Program
                                                        Control System functionalities are available for First Article Testing and develop a schedule for future design releases.
                                                        TID: May 2011
FF-MA-08-001                         7/21/2008    Fiscal Year 2008 – Use of No-Fee Money Orders

                                                  R-2 — Evaluate the feasibility of restricting the use of no-fee money orders for local purchases in order to reduce the Postal
                                                        Service’s exposure to financial loss. TID: March 2011
SA-AR-08-009                         7/23/2008    Postal Service Continuity of Operations for the Great Lakes Area

                                                  R-1 — Update contact information of key continuity of operations personnel at least semiannually, or more often as changes
                                                        occur. TID: December 2010

                                                  R-2 — Complete continuity of operations training, including Postal Alert and Notification System training. TID: December 2010

                                                  R-3 — Identify and prioritize essential functions. TID: December 2010

                                                  R-4 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and
                                                        maintained in the Postal Alert and Notification System, as required. TID: December 2010

                                                  R-5 — Establish an area emergency management coordinating committee to provide oversight and assistance to district and
                                                        facility Emergency Management Teams in establishing, implementing, and reviewing emergency management plans.
                                                        TID: December 2010

                                                  R-6 — Establish specific guidance for identifying and selecting alternate facilities, to include, at a minimum, the number
                                                        of alternate facilities that should be identified, and criteria regarding location, mail volume, and mail capacity. TID:
                                                        December 2010

                                                  R-7 — Require personnel responsible for continuity of operations at primary and alternate facilities to conduct tests and
                                                        exercises to ensure alternate facilities can effectively process the primary facilities’ mail. TID: December 2010
SA-AR-08-010                         7/24/2008    Postal Service Continuity of Operations for the Pacific Area

                                                  R-1 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and
                                                        maintained in the Postal Alert Notification System, as required. TID: December 2010
SA-AR-08-013                         8/22/2008    Security Clearances for Postal Service Employees

                                                  R-1 — Establish and implement a policy to periodically assess the risks associated with the duties of all Postal Service
                                                        positions to determine which positions require a security clearance. TID: September 2011

                                                  R-2 — Revise the Administrative Support Manual, as appropriate, to reflect changes to the list of positions requiring a security
                                                        clearance. TID: September 2011
IS-AR-08-016                         8/29/2008    Identity Theft Potential in the Change of Address Process
                                                  R-1 — Update the Internet and Telephone Change of Address applications to eliminate acceptance of anonymous prepaid
                                                        credit cards. TID: December 2011




40 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX E




                                Report Title, Recommendation Summary
                                       	 R = Recommendation number
Report Number     Issue Date           	 TID = Target Implementation Date
IS-AR-09-001      10/8/2008     Electronic Travel Voucher System Controls
                                R-1 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to arrange for lodging at the prevailing
                                      government lodging rate, whenever practical. TID: June 2011
                                R-2 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to obtain prior approval and justify
                                      exceeding the government lodging rate within the notes on the electronic voucher. TID: June 2011
                                R-3 — Customize the Electronic Travel Voucher System to require the traveler to input a value in the room tax field (even if the
                                      room tax is zero) or provide the traveler with a check box to indicate taxes not applicable in cases where the lodging stay is
                                      tax exempt. TID: June 2011
                                R-4 — Customize the Electronic Travel Voucher System to remove the option to combine room rate and room taxes into a single
                                      entry. TID: June 2011
FF-AR-09-055      12/26/2008    Fiscal Year 2008 Financial Installation Audits – Post Offices, Stations, and Branches

                                R-5 — Issue guidance to the field to destroy all copies of Postal Service Form 1096, Customer Receipt, and determine when
                                      this has been completed. TID: February 2012
FT-MA-09-001      1/13/2009     Postal Service Management Instruction – Expenses for Internal and External Events

                                R-2 — Consult with senior level management to further update the Management Instruction, Expenses for Internal and
                                      External Events to require that all expenses associated with internal and external events be included in a unique
                                      general ledger account(s). TID: September 2011
IS-AR-09-004      2/20/2009     Access Controls in the Enterprise Data Warehouse

                                R-3 — Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required by
                                     Postal Service Handbook AS-805-A, Application Information Security Assurance (ISA) Process. TID: June 2011
DR-MA-09-001(R)   3/26/2009     Management of City Letter Carriers’ Street Performance

                                R-1 — Revise existing Postal Service policies and Standard Operating Procedures to reduce the number of required Delivery
                                      Operations Information System reports from eight to four to aid supervisors in managing carrier street performance.
                                      TID: October 2011

                                R-2 — Modify the Delivery Operations Information System Route/Carrier Daily Performance Analysis Report to show “exceptions”
                                      - i.e., only actual route times varying from projected route times. TID: October 2011
MS-AR-09-006      3/31/2009     Intelligent Mail/Seamless Acceptance Project Management

                                R-4 — Incorporate effort-based workhour requirement estimates into work plans for future project releases. TID: September
                                      2009

                                R-6 — Develop a procurement plan consistent with the Postal Service’s purchasing guidelines to manage procurements related to
                                      the project. TID: September 2009
MS-AR-09-008      5/28/2009     Mail Processing Equipment’s Ability to Read Postage on First-Class™ Letters

                                R-3 — Determine the feasibility of modifying the Advanced Facer Canceller System to include postage due and fraudulent
                                      postage detection software (including detection of reused stamps). TID: May 2011

                                R-4 — Determine the feasibility of mandating that all postage payment methods be encoded with standardized symbol coding,
                                      special ink, barcode or other tracking device to allow the Advanced Facer Canceller System to read postage amounts.
                                      TID: June 2011

                                R-5 — Reevaluate the phosphorescence coding methodology to include raising the coding denomination from the current 10 cent
                                      stamp to the current price of a First-Class card postage. TID: June 2011

                                R-6 — Determine the causes of shortpaid and overpaid postage validation imprinter labels on First-Class letters and develop
                                      awareness training for Retail employees. TID: None




                                                                                                                            October 1, 2010 — March 31, 2011 | 41
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
 Report Number                       Issue Date          	 TID = Target Implementation Date
 CA-AR-09-005                        6/1/2009     Supply Management’s Oversight of Delegations of Authority

                                                  R-2 — Remind delegatees of their responsibility to ensure compliance with their delegation of authority letters and require
                                                        delegatees to certify they have instituted a system of controls and oversight to ensure:
                                                            Best value determinations are performed and documented.
                                                          Annual reports are developed and provided to Supply Management detailing financial activities, including
                                                            the number of contracts or agreements entered into and associated expenditures.
                                                            Annual ethics training is completed and documented for staff involved in administering contracts or agreements.

                                                         TID: December 2011

                                                  R-3 — Require the Travel, Retail, and Temporary Services Category Management Center to develop procedures for collecting
                                                        reports required under the delegations of authority and for reviewing delegatees’ control and oversight systems to
                                                        ensure the delegation of authority letter minimum control requirements are met. If minimum control requirements are
                                                        not met, discontinuation should be considered, with the results and justification documented in an oversight file.
                                                        TID: December 2011
 EN-AR-09-005                        9/28/2009    Performance Goals for Market-Dominant Products

                                                  R-1 — Document the methodology used to develop future performance goals for market-dominant products.
                                                        TID: December 2012
 SA-AR-09-008                        9/29/2009    Postal Service Aviation Security Capping Report

                                                  R-1 — Strengthen internal controls requiring management reviews to ensure corrective actions are taken to improve the
                                                        performance of noncompliant offices. TID: September 2011

                                                  R-2 — Develop and implement performance measures or other appropriate evaluation factors to improve operations personnel
                                                        performance in following established policies and procedures for detecting and preventing anonymous and potentially
                                                        dangerous mail from entering the mailstream. TID: September 2011
 NL-AR-09-010                        9/30/2009    Fuel Management Consumption Strategies for Surface Network Operations

                                                  R-1 — Revise the fuel consumption strategy for surface network operations covering Postal Service and Highway Contract
                                                        Route transportation to ensure that it is comprehensive and implements the industry best practices identified in our
                                                        audit. TID: June 2011

                                                  R-2 — Assess and implement all opportunities for owned, leased, and contracted vehicles to use technology to reduce wind
                                                        resistance and identify the most viable advanced aerodynamics options consistent with industry best practices and
                                                        adjust contracts as appropriate to account for the reduced fuel need. TID: June 2011

                                                  R-3 — Establish and implement tire inflation maintenance requirements for its owned heavy-duty vehicle fleet, as well as its
                                                        leased, and contracted vehicles consistent with industry best practices and adjust contracts as appropriate to account
                                                        for the reduced fuel need. TID: June 2011

                                                  R-5 — Evaluate Highway Contract Routes and, where feasible, implement speed limit requirements consistent with industry
                                                        best practices and adjust contracts as appropriate to account for the reduced fuel need. TID: June 2011




42 | Semiannual Report to Congress
                                                                                                                                           APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
DR-AR-10-001    10/15/2009   Use of the Carrier Optimal Routing System

                             R-1 — Resolve the system and application problems with Web Carrier Optimal Routing (WebCOR) and implement the web-
                                   based program nationwide. TID: September 2011

                             R-2 — Ensure district managers :
                                     Select and train at least four individuals as Carrier Optimal Routing system Subject Matter Experts as mandated by
                                       Postal Service Headquarters.
                                     Complete the Data Preparation Process to include using current PS Forms 3999, Inspection of the Letter Carrier
                                         Route.
                                     Complete all route adjustments using the Carrier Optimal Routing system.

                                    TID: December 2010

                             R-3 — Mandate districts to track and monitor vehicle mileage changes in the Carrier Optimal Routing system. TID: July 2011
DR-AR-10-002    12/18/2009   City Delivery Efficiency Review – San Francisco Napoleon Street Station

                             R-1 — Reduce workhours by 54,975 at the Napoleon Street Station with an associated economic impact of over $21.3 million
                                   over 10 years. TID: December 2012
IS-AR-10-002    12/22/2009   General Control Review of Human Resources Shared Service Center

                             R-1 — Designate as sensitive those positions at the Human Resources Shared Service Center that require access to personally
                                   identifiable information. TID: September 2011

                             R-2 — Initiate appropriate security clearance investigations for all employees in sensitive positions at the Human Resources
                                   Shared Service Center. TID: September 2011

                             R-5 — Revise Handbook AS-805, Information Security, to clarify the approval process for wireless access points on the Postal
                                   Service network. TID: September 2011
NL-AR-10-002    12/28/2009   Postal Vehicle Service Transportation Routes – Cardiss Collins Processing and Distribution Center

                             R-1 — Ensure that Cardiss Collins Processing and Distribution Center managers follow prescribed fleet management
                                   procedures for making Postal Vehicle Service schedules effective, including conducting schedule and vehicle utilization
                                   reviews. TID: July 2010

                             R-2 — Verify elimination of the 43,264 workhours already agreed to by local and area management from Postal Vehicle Service
                                   trip schedules. TID: October 2010
DA-MA-10-001    1/28/2010    Sustainability: Promoting Energy and Recycling Compliance Fiscal Year 2009

                             R-1 — Issue written guidance to installation managers to encourage the use of more remote building management systems.
                                   TID: October 2011
MS-AR-10-001    2/9/2010     Plant-Verified Drop Shipment Controls

                             R-4 — Provide an electronic reporting solution whereby PS Form 8125, Plant-Verified Drop Shipment (PVDS) Verification
                                   and Clearance, information at the destination facility can be compared with the information at the origin location.
                                   Discrepancies or incomplete forms should be investigated. TID: December 2012
EN-AR-10-003    2/12/2010    Manasota Processing and Distribution Center Consolidation

                             R-1 — Ensure the implementation activities of processing and distribution center consolidations begin immediately after area
                                   mail processing proposal approval and require headquarters’ approval when implementation is delayed more than 3
                                   months. TID: May 2011




                                                                                                                     October 1, 2010 — March 31, 2011 | 43
APPENDIX E




                                                   Report Title, Recommendation Summary
                                                          	 R = Recommendation number
Report Number                        Issue Date           	 TID = Target Implementation Date
NL-AR-10-003                     3/1/2010         Highway Contract Route Transportation – Greater Chicago

                                                  R-3 — Eliminate 42 trips within the identified highway contract routes, already agreed to by local and area management.
                                                        TID: November 2010

                                                  R-4 — Reassess the remaining 20 trips, and cancel or modify the trips as indicated by the reassessment, or document the
                                                        reasons for retaining the trips. TID: November 2010
DR-AR-10-003                     3/16/2010        Rural Delivery Christmas Operations

                                                  R-1 — Renegotiate with the National Rural Letter Carriers Association (NRLCA) to eliminate the supplemental Christmas
                                                        Overtime Pay Provision, Article 9.2(k), set forth in the NRLCA Agreement expiring in November 2010 and any
                                                        subsequent NRLCA agreements. TID: November 2010
SA-MA-10-001                     4/29/2010        Postal Service Security Clearance Requirements for Air Transportation Contractors

                                                  R-1 — Conduct a formal risk assessment to determine if security clearance requirements for air transportation contract
                                                        personnel adequately mitigate risks associated with the contractor’s positions and access to Postal Service facilities
                                                        and the mail. TID: September 2011
IS-AR-10-008                     5/4/2010         Certification and Accreditation Process

                                                  R-1 — Provide Corporate Information Security the authority necessary to enforce and execute the responsibilities for managing
                                                        the Certification and Accreditation process. TID: March 2011

                                                  R-2 — Update Handbook AS-805, Information Security, to require mandatory annual training on the Certification and
                                                       Accreditation process for all portfolio managers. TID: July 2011

                                                  R-3 — Ensure all portfolio managers receive mandatory training regarding their role, responsibility, and accountability for
                                                        implementing and reinitiating the Certification and Accreditation process. This training should also be made available to
                                                        all executive sponsors. TID: July 2011

                                                  R-4 — Hold portfolio managers accountable to complete the Certification and Accreditation process within the Technology
                                                        Solutions Life Cycle prior to implementing critical applications into the production environment. TID: July 2011

                                                  R-5 — Complete the Certification and Accreditation process for all critical applications currently in production, as required by
                                                        Handbook AS-805, Information Security. TID: March 2011

                                                  R-6 — Ensure the portfolio managers work with the executive sponsors to initiate the recertification process for critical
                                                        applications assigned to their functional areas as required by Handbook AS-805, Information Security. TID: March 2011

                                                  R-7 — Develop a formal, centralized mechanism to track the status of all unmitigated residual risks identified in the applications’
                                                        risk mitigation plan. TID: July 2011

                                                  R-8 — Input unmitigated residual risks identified in the applications’ risk mitigation plan into the formal, centralized tracking
                                                        mechanism and track the risks through resolution. TID: July 2011

                                                  R-9 — Work with executive sponsors to resolve unmitigated residual risks identified in the risk mitigation plans and recertification
                                                        letters associated with the critical applications. TID: July 2011

                                                  R-10 — Establish policy to designate a central repository for storing the Certification and Accreditation documentation.
                                                         TID: July 2011

                                                  R-11— Update Handbook AS-805, Information Security, to designate a single entity responsible for uploading the Certification
                                                        and Accreditation information in the central repository for all critical applications. TID: March 2011

                                                  R-12 — Input the Certification and Accreditation documentation for all critical applications into the central repository.
                                                         TID: March 2011




44 | Semiannual Report to Congress
                                                                                                                                                APPENDIX E




                              Report Title, Recommendation Summary
                                     	 R = Recommendation number
Report Number   Issue Date           	 TID = Target Implementation Date
SA-AR-10-001    5/12/2010    Move Update Program and Investigations

                             R-1 — Enhance the Move Update program to comprehensively verify compliance at mail acceptance and ensure collection of
                                   proper postage. TID: None

                             R-2 — Ensure standards for determining Move Update compliance are consistent and clearly communicated to mailers.
                                   TID: None

                             R-3 — Establish mandatory comprehensive training for responsible personnel to ensure revenue deficiencies are appropriately
                                   assessed. TID: None

                             R-4 — Review the overstated revenue deficiency to determine whether the amount should be reduced. TID: None

                             R-5 — Limit the use of postal inspectors to Move Update investigations with expectations of civil or criminal prosecution.
                                   TID: None
CA-AR-10-004    5/27/2010    Contract Payment Terms
                             R-1 — Revise the Postal Service’s Supplying Principles and Practices, Section 5 12.2, Payment Time Frame, and other
                                   sections as necessary, with language stating that when contracting officers negotiate payment terms other than net 30
                                   days they include the business rationale and associated documentation for the payment terms in the contract file.
                                   TID: June 2011
HR-AR-10-002    5/27/2010    U.S. Postal Service’s Use of Employees in Rehabilitation Status

                             R-1 — Establish a plan to in-source all call center work, including a staffing and training plan. TID: None

                             R-2 — Expedite negotiations and finalize an agreement with the American Postal Workers Union that addresses staffing for
                                   in-sourced call center work. TID: None
NO-MA-10-001    6/11/2010    Assessment of Overall Plant Efficiency 2010

                             R-1 — Reduce 16.2 million workhours by FY 2012 with an associated economic impact of $743,961,610. TID: December
                                   2012
DA-AR-10-005     6/16/2010   Delivery Vehicle Replacement Strategy

                             R-1 — Replace maintenance intensive vehicles beginning in fiscal year 2011. TID: April 2011
CI-MA-10-001     6/18/2010   Civil Service Retirement System Overpayment by the Postal Service

                             R-1 — Pursue all necessary actions, including those suggested by the Office of Inspector General, to either secure the return
                                   of the $75 billion overpayment or to otherwise realize the benefit of this overpayment to the Postal Service. TID: None
DA-AR-10-006     7/2/2010    Facility Energy: Metering Technologies

                             R-1 — Install time-of-use metering at eligible processing and distribution centers by December 31, 2010. TID: June 2011

MS-AR-10-004     7/28/2010   Efficiency of Retail Customer Service Operations

                             R-1 — Implement best practices for Retail Customer Service operations at all facilities. TID: October 2011

                             R-2 — Explore opportunities to consolidate business mail acceptance operations at post offices, stations, and branches. TID:
                                   October 2011

                             R-3 — Periodically evaluate operating efficiency by assessing performance against productivity targets and adjusting resources in
                                   response to workload changes. TID: December 2011

                             R-4 — Re-deploy employees, as appropriate, to facilities where there is sufficient workload to support the workhours. TID:
                                   October 2011
IS-AR-10-012     8/4/2010    L’Enfant Badge Access Controls

                             R-1 — Perform periodic reviews of all badge access to the L’Enfant Plaza Headquarters building and sensitive work areas and
                                   remove access for individuals who no longer require it. TID: June 2011




                                                                                                                         October 1, 2010 — March 31, 2011 | 45
APPENDIX E




                                                   Report Title, Recommendation Summary
                                                          	 R = Recommendation number
 Report Number                       Issue Date           	 TID = Target Implementation Date
 FF-AR-10-210                        8/6/2010     Revenue for Official Mail from the House of Representatives Mailroom

                                                  R-1 — Coordinate with the U.S. House of Representatives mailroom and the Southern Maryland Business Mail Entry Unit to
                                                        develop and implement processes to verify postage claimed for individually franked mailpieces, such as establishing
                                                        alternate mailing system agreements. TID: March 2011
 FT-MA-10-001                        8/16/2010    Federal Employees Retirement System Overfunding

                                                  R-1 — Pursue legislative action to alter the Postal Service’s Civil Service Retirement and Disability Fund Contributions for 1 or
                                                        more years until the Federal Employees Retirement System surplus is extinguished. TID: September 2011

                                                  R-2 — Coordinate with the Office of Personnel Management to identify causes of actual payout differences between the
                                                        Postal Service and the rest of the federal government and use that information to reduce the risk of future surpluses.
                                                        TID: September 2011

                                                  R-3 — Pursue legislative action to define future distribution of significant surpluses. TID: September 2011

                                                  R-4 — Coordinate with the Office of Personnel Management to create a sub-account within the Civil Service Retirement and
                                                        Disability Fund exclusive to the Postal Service. TID: September 2011
 EN-AR-10-005                        8/17/2010    Stations and Branches Optimization and Consolidation

                                                  R-1 — Develop detailed policies and procedures for the station and branch closing process. TID: October 2011

                                                  R-2 — Improve the reliability and usefulness of retail facilities data by validating, correcting, and updating information in the
                                                        database. TID: October 2011

                                                  R-3 — Develop measurable criteria to mitigate inconsistencies in evaluating factors used for determining feasibility to
                                                        discontinue operations. TID: October 2011

                                                  R-4 — Process and approve or disapprove discontinuance proposals in a timely manner. TID: October 2011
 DA-AR-10-009                        8/25/2010    Facility Optimization: Chicago District

                                                  R-1 — Ensure installation heads have the proper guidance for identifying and reporting excess space. TID: March 2011

                                                  R-2 — Include additional metrics, such as dates and space conditions, to track, monitor, and report excess space within the
                                                        Chicago District and initiate disposal action for excess space identified. TID: March 2011
 DA-AR-10-010                        8/25/2010    Facility Optimization: New York District

                                                  R-1 — Ensure installation heads have the proper guidance for identifying and reporting excess space. TID: March 2011

                                                  R-2 — Include additional metrics, such as dates identified and space conditions, to track, monitor, and report excess space
                                                        within the New York District and initiate disposal actions for excess space identified. TID: March 2011
 DA-AR-10-008                        8/25/2010    Facility Optimization: Northern New Jersey District

                                                  R-1 — Ensure the installation heads have the proper resources for identifying and reporting excess space. TID: March 2011

                                                  R-2 — Include additional metrics, such as dates identified and space conditions, to track, monitor, and report excess space
                                                        within the Northern New Jersey District and initiate disposal actions for excess space identified. TID: March 2011
 DA-MA-10-004                        8/31/2010    Postal Service Patent Management

                                                  R-1 — Establish a strategic plan with timelines to capitalize on the Postal Service’s patent inventory strength. TID: March 2011
 MS-MA-10-001                        9/02/2010    Electronic Postmark Program License Fees

                                                  R-1 — Develop a process to monitor and validate licensees’ Electronic Postmark usage. TID: None

                                                  R-3 — Initiate actions to collect the past due Electronic Postmark license fees. TID: None




46 | Semiannual Report to Congress
                                                                                                                                              APPENDIX E




                                Report Title, Recommendation Summary
                                       	 R = Recommendation number
Report Number     Issue Date           	 TID = Target Implementation Date
IS-MA-10-001      9/2/2010     Securing Sensitive Data on Postal Inspection Service Laptops

                               R-1 — Create and maintain an inventory of all existing Inspection Service laptops. TID: October 2011

                               R-2 — Install full disk encryption on all new Inspection Service laptop computers before deployment. TID: August 2011

                               R-3 — Develop an expedited deployment schedule to reduce the risk of sensitive data loss from the unencrypted laptops.
                                     TID: October 2011

                               R-4 — Remove and destroy hard drives, or completely degauss, all sensitive data stored on the older Postal Inspection Service
                                     laptops before disposing of the equipment. TID: August 2011

                               R-5 — Enter all new laptops in the centralized inventory system upon deployment to Inspection Service users.
                                     TID: August 2011
FF-AR-10-224(R)   9/20/2010    Postal Service Area and District Office Field Structure

                               R-1 — Develop a comprehensive strategic plan to guide future area and district field structure decisions. The plan should
                                     address environmental factors, mail volumes, technological advancements, operational considerations and other issues
                                     impacting Postal Service strategic goals. TID: September 2011

                               R-2 — Implement one or more of the three options, or combinations of portions of these options, for consolidating the area
                                     and district field structure:
                                         Consolidate district offices that are within 50 miles of one another.
                                         Consolidate area and district offices that have less than the mean mail volume and workhours.
                                         Relocate area offices to headquarters.

                                       TID: None

                               R-3 — Develop a policy and process for performing a comprehensive evaluation of the area and district office structure at
                                     least every 5 years. TID: March 2012

                               R-4 — Develop a policy and procedures to maintain adequate supporting documentation for all area and district consolidations or
                                     expansions as part of a comprehensive strategic plan. TID: March 2012
EN-AR-10-006      9/17/2010    Southeast Area Processing and Distribution Center Consolidations

                               R-1 — Complete the full consolidation feasibility study on the Daytona Beach Processing and Distribution Facility into the Mid-
                                     Florida Processing and Distribution Center and take action to eliminate excess space in the Mid-Florida Processing and
                                     Distribution Center TID: December 2011

                               R-2 — Determine alternate uses of excess space at the Birmingham Processing and Distribution Center and annex.
                                     TID: June 2011
CA-AR-10-005      9/20/2010    U.S. Postal Service Purchasing Policies

                               R-1 — Establish a competition advocate within the Postal Service to independently review and approve justifications for
                                     noncompetitive purchases and support the use of competition in the Postal Service. The competition advocate should
                                     also prepare and submit an annual report to the chief financial officer and vice president, Supply Management,
                                     describing barriers to competition and goals and plans for increasing competition. TID: November 2011

                               R-3 — Review the need for and propriety of all existing contracts with former executives. TID: April 2011

                               R-5 — Take steps to ensure full and accurate tracking and public reporting of noncompetitive contracting actions. Data
                                     reported should include, but not be limited to, total dollars committed both competitively and noncompetitively; and
                                     the contractor, dollar value, and noncompetitive justifications for noncompetitive contracts. The tracking mechanism
                                     should be able to identify when a noncompetitive contract has crossed the review and approval threshold based on
                                     modification after initial award. TID: November 2011

                               R-6 — Revoke delegations of authority for contracts that acquire goods and services for the Postal Service and bring these
                                     contracts into compliance with all Postal Service purchasing policies. TID: April 2011

                               R-9 — Institute an oversight mechanism to ensure and track compliance with updated noncompetitive contracting policies.
                                     TID: March 2012




                                                                                                                        October 1, 2010 — March 31, 2011 | 47
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
Report Number                    Issue Date              	 TID = Target Implementation Date
IS-AR-10-014                         9/23/2010   Controls Over Payment Card Transaction Data

                                                 R-1 — Finalize and implement a Payment Card Industry remediation plan that includes all associated costs, resources,
                                                       and milestones needed to achieve and maintain Payment Card Industry-Data Security Standards compliance. TID:
                                                       September 2013

                                                 R-3 — Ensure the Payment Card Industry compliance requirements are included in all pre- and post-award contract
                                                       documentation that includes, but is not limited to, statements of work, amendments, and modifications. TID: May 2011

                                                 R-4 — Validate and monitor all service providers’ Payment Card Industry compliance status throughout the lifetime of the
                                                       contract. TID: May 2011
CRR-AR-10-006                        9/23/2010   Controls Over System for International Revenue and Volume, Outbound and International
                                                 Origin-Destination Information System

                                                 R-4 — Assess the viability of extending enhanced revenue protection programs to outbound international mail, similar to the
                                                       new procedures for domestic mail. TID: April 2011
DR-AR-10-008                         9/24/2010   Vehicle Parts Program

                                                 R-1 — Establish a process to analyze similar vehicle parts by form, fit, and function from the two consignment suppliers to aid
                                                       in negotiations with suppliers, as necessary, to ensure the Postal Service receives the lowest available cost on vehicle
                                                       parts. TID: May 2011
NL-AR-10-010                         9/29/2010   Air Networks – Federal Express Transportation Agreement – National Analysis

                                                 R-1 — Routinely provide headquarters and area management with data, including Transportation Cost System/Cost and
                                                       Revenue Analysis data, used to monitor and track the volume and additional costs for flying surface mail classes on
                                                       Federal Express. TID: None

                                                 R-2 — Work collaboratively with the areas to identify and address capacity issues, real or perceived, with commercial carriers
                                                       and ensure carriers comply with stated capacities. TID: None

                                                 R-3 — Adjust mail volume arrival profiles or Federal Express tender times where possible to ensure Terminal Handling
                                                       Services contractors have time to build planned by-pass containers. TID: None

                                                 R-4 — Reinforce existing policies and procedures, and provide additional guidance and training as necessary, for processing
                                                       and assigning mail to FedEx for building bypass containers, and for insuring mail arrives at Terminal Handling Services
                                                       locations to meet FedEx contract mail tender time requirements. TID: None

                                                 R-5 — Standardize Postal Service oversight at Terminal Handling Services operations to ensure adequate on-site Postal
                                                       Service representation to monitor Federal Express operations and ensure local compliance with established processes
                                                       and procedures. TID: March 2011
SA-MA-10-002                         9/29/2010   Allegations of Inappropriate Methodologies in a San Francisco Investigation

                                                 R-1— Establish and implement mandatory training for postal inspectors responsible for investigating Combined Value Added
                                                      Refund mailers to ensure they understand the business mail process to accurately calculate Postal Service losses.
                                                      TID: June 2011

                                                 R-2 — Establish and implement guidance and lessons learned for postal inspectors to use when conducting investigations of
                                                       Combined Value Added Refund mailers and calculating Postal Service losses. TID: June 2011




48 | Semiannual Report to Congress
                                                                                                                                               APPENDIX E




                              Report Title, Recommendation Summary
                                     	 R = Recommendation number
Report Number   Issue Date           	 TID = Target Implementation Date
NL-AR-10-009    9/29/2010    Management of Mail Transport Equipment - National Analysis

                             R-1 — Further develop, update and reinforce national Mail Transport Equipment policies and procedures contained in the
                                   Postal Operations Manual (POM) and the Postal Handbook PO-502, Container Methods, which address Mail Transport
                                   Equipment inventory and accountability controls, including validating customer Mail Transport Equipment needs as well
                                   as tracking and reconciling Mail Transport Equipment loaned to mailers and other external customers. TID: June 2011

                             R-2 — Continue pursuing implementation of a planned automated Mail Transport Equipment management system and ensure
                                   its functionality for inventory and accountability processes and for enhancing the Postal Service’s visibility into Mail
                                   Transport Equipment internally and at mailers. TID: June 2011

                             R-3 — Reestablish an on-hand Mail Transport Equipment volume count process, both internally and externally, until an
                                   automated Mail Transport Equipment management system is fully developed, deployed, and operational.
                                   TID: June 2011

                             R-4 — Ensure that Area Distribution Networks’ Offices have appropriate resources assigned responsibly to monitor and
                                   manage Mail Transport Equipment, and maintain compliance with Postal Operations Manual requirements.
                                   TID: June 2011

                             R-5 — Document the current process for identifying annual, routine Mail Transport Equipment purchase requirements and
                                   ensure the process includes Mail Transport Equipment Service Center network information and facility and mailer
                                   inventory data, to ensure that only the necessary amount of Mail Transport Equipment is purchased. TID: June 2011
NL-AR-10-008    9/29/2010    Postal Vehicle Services - Scheduling and Staffing - Atlanta District

                             R-2 — Fully utilize the flexibility under the existing American Postal Workers Union Collective Bargaining Agreement and
                                   Memorandum of Understanding to increase the use of split days off for Postal Vehicle Service drivers and maximize the
                                   use of part-time regular PVS drivers where possible. TID: June 2011

                             R-3 — Increase the allowable percentage of all types of part-time employees to allow maximum use of part-time regular
                                   employees in facilities with Postal Vehicle Service operations. TID: June 2011

                             R-4 — Provide permanent flexibility to schedule split days off for employees in facilities with Postal Vehicle Service operations.
                                   TID: June 2011
CA-AR-10-006     9/30/2010   Certification Process for Electronic Payments

                             R-1 — Develop an oversight mechanism to monitor and ensure contracting officers’ and/or designated officials’ receipt and
                                   certification of invoices. TID: September 2011

                             R-2 — Reiterate to contracting officers and/or their designees their roles and responsibilities, and the importance of following
                                   Postal Service criteria, policies, and procedures for certification of invoices prior to payment to ensure that invoices are
                                   correct and goods and services were received. TID: March 2011

                             R-3 — Develop and implement written procedures for receiving invoices for annual highway contract route services and
                                   verifying that services were rendered prior to payment. TID: June 2011

                             R-4 — Identify and notify the contracting officers to oversee and administer all Highway Contract Route payments in the Postal
                                   Service Accounts Payable Excellence system. TID: May 2011

                             R-5 — Review the $7.6 million in payments made more than 30 days after contract end dates and collect overpayments.
                                   TID: May 2011

                             R-6 — Provide detailed, consistent training for all designated officials on their roles and responsibilities and the usage of the
                                   Utility Management System. TID: May 2011

                             R-7 — Regularly reconcile payments made for utility services to identify and collect overpayments. TID: May 2011

                             R-8 — Ensure that Utility Management System designated official contact information is accurate and that the system requires
                                   positive certification by the designated official before invoice payment. TID: May 2011




                                                                                                                         October 1, 2010 — March 31, 2011 | 49
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
Report Number                        Issue Date          	 TID = Target Implementation Date
FT-MA-10-002                         9/30/2010    Summary of Substantial Overfunding and Postal Service Pension and Retiree Health Care Funds.

                                                  R-1 — Develop a comprehensive legislative strategy to recover overfunded amounts. TID: September 2011

                                                  R-2 — Aggressively pursue and carefully review all available data related to Civil Service Retirement System, Federal
                                                        Employee Retirement System, and retiree health benefit calculations, including those associated with determining any
                                                        overfunding situations, to ensure that calculations are reasonable and accurate. TID: September 2011
EN-AR-11-001                         11/10/2010   Excess Space in Mail Processing Facilities in the Suncoast District

                                                  R-3 — Review and implement the most effective space optimization options for the Manasota, Mid-Florida, and St. Petersburg
                                                        mail processing facilities in the Suncoast District. TID: June 2011
DR-AR-11-001                         11/22/2010   City Delivery Operations Workforce Planning

                                                  R-1 — Collaborate with area management to continue development and enhancement of an overall city delivery operations
                                                        strategy that optimizes the most cost-effective combination of full-time, part-time, and transitional city carrier
                                                        resources to reduce overtime workhours and costs for final publication to area officials. TID: December 2011
DA-MA-11-001                         11/23/2010   Full Service Intelligent Mail Program Customer Satisfaction

                                                  R-3 — Provide continuing training to Business Mail Entry clerks and PostalOne! Help Desk employees on important Intelligent
                                                        Mail issues. TID: None
CA-AR-11-001                         11/23/2010   Information Technology Contract Payment Oversight

                                                  R-1 — Ensure that proper personnel have a contracting officer’s representatives (CORs) letter of designation that allows them
                                                        to certify invoices for payment. TID: May 2011

                                                  R-2 — Require contracting officers’ representatives to reconcile invoices to receiving documents prior to certification for
                                                        payment. TID: May 2011
IT-AR-11-001                         12/6/2010    Network Perimeter Firewall

                                                  R-5 — Establish comprehensive firewall security standards TID: September 2011

                                                  R-6 — Perform a risk assessment and determine whether to process network traffic if logging is disabled TID: June 2011

                                                  R-8 — Identify and review firewall access control rules semiannually and remove duplicate and unused firewall access control
                                                        rules. TID: March 2011
NL-MA-11-001                         12/6/2010    Surface Mail Classes on Air Transportation Networks

                                                  R-1 — Verify that actions already taken related to minimizing surface mail classes on the FedEx Day-Turn network are applied
                                                        to other air networks to ensure transportation managers use surface transportation, instead of the FedEx Night-Turn,
                                                        commercial air carrier, United Parcel Service, and Christmas air transportation networks to move surface mail types
                                                        where possible. TID: None

                                                  R-2 — Routinely provide headquarters and area management with data, including Transportation Cost System/Cost and
                                                        Revenue Analysis data, to monitor and track the volume and avoid additional costs for flying surface mail classes on
                                                        the FedEx Night-Turn, commercial air carrier, United Parcel Service, and Christmas air transportation networks. TID:
                                                        September 2011

                                                  R-3 — Reinforce existing policies and procedures for the processing and assigning of mail to air and surface transportation.
                                                        TID: None
CRR-AR-11-001                        12/7/2010    Periodicals Mail Costs

                                                  R-2 — Issue guidance to processing facilities that emphasizes managing the expected delivery dates and eliminates using the
                                                        “Hot 2C” program to provide expedited processing or manual processing for select publications. TID: April 2011

                                                  R-3 — Re-emphasize use of the Electronic Mail Improvement Reporting System to processing facility personnel and define the
                                                        types of issues that should be reported. TID: May 2011




50 | Semiannual Report to Congress
                                                                                                                                                 APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
NO-AR-11-004    12/14/2010   Houston, TX Processing and Distribution Center Mail Consolidation

                             R-1 — Pursue expansion of the North Houston Processing and Distribution Center and consolidate the Houston Processing
                                   and Distribution Center’s mail processing operations into the expanded facility, by fiscal year 2013. TID: None
FF-AR-11-004    12/15/2010   Express Mail Guarantees

                             R-1 — Evaluate the reasons for late deliveries for American territories and, if it’s not possible to significantly improve on-time
                                   delivery, determine if they should adjust or eliminate guarantees. TID: March 2011

                             R-2 — Review military Express Mail and logistics to evaluate reasons for the delays in delivering mail to military personnel and
                                   make necessary changes to improve service performance. TID: June 2011

                             R-3 — Implement actions to include military ZIP Codes in the Service Delivery Calculator. TID: March 2011

                             R-4 — Identify reasons for late Express Mail deliveries to ZIP Codes in the 50 states with the highest volumes of late deliveries
                                   and either implement actions to reduce late delivery or determine if they should adjust or eliminate delivery guarantee
                                   time. TID: March 2011

                             R-5 — Establish a timeframe for and develop a process to analyze Express Mail refunds by origin and destination to evaluate
                                   risk and identify necessary changes in service in order to make better business decisions for guarantees.
                                   TID: March 2011

                             R-6 — Reiterate to area vice presidents and appropriate district personnel their responsibility to monitor and close inactive
                                   Express Mail Corporate Accounts when appropriate. TID: March 2011

                             R-7 — Communicate current Express Mail Corporate Account inactive account information to area vice presidents for action to
                                   be taken by appropriate district personnel. TID: March 2011
MS-AR-11-001    12/23/2010   Workshare Discounts Exceeding Avoided Costs

                             R-1 — Prepare and maintain data, analyses or other documentation to properly support the amount of discounts that exceed
                                   avoided costs when claiming exceptions specified in the Postal Accountability and Enhancement Act of 2006.
                                   Alternatively, limit proposed discounts to 100 percent of avoided costs at the next market dominant price adjustment.
                                   TID: None
IT-AR-11-002    1/12/2011    Fiscal Year 2010 Selected Information Technology General Controls

                             R-1 — Develop a procedure to notify administrators supporting Windows servers when new group policy updates are available.
                                   TID: August 2011

                             R-2 — Correct discrepancies identified by the periodic reviews of all Windows servers, as appropriate. TID: September 2011

                             R-3 — Develop a methodology to centrally manage all local accounts. TID: September 2011
NL-AR-11-001    1/13/2011    Postal Vehicle Service Transportation Routes – Suburban Maryland Processing and Distribution Center

                             R-1 — Ensure that Suburban Maryland Processing and Distribution Center managers follow prescribed fleet management
                                   procedures for making Postal Vehicle Service schedules effective, including conducting schedule and vehicle utilization
                                   reviews. TID: None

                             R-2 — Verify elimination of the 14,177 workhours identified in our audit, and already agreed to by management, from the
                                   Postal Vehicle Service trip schedules. TID: January 2011

                             R-3 — Verify the elimination of two trips initiated by management identified during our audit fieldwork. TID: February 2011

                             R-4 — Eliminate 11 trips from highway contracts identified in our audit and already agreed to by local and area management.
                                   TID: February 2011
DR-AR-11-002    1/18/2011    City Delivery Efficiency Review – New York District

                             R-1 — Reduce the New York District’s workhours by 279,853 to achieve an associated economic impact of more than $9.3
                                   million annually, or in excess of $93 million over 10 years. TID: December 2011




                                                                                                                          October 1, 2010 — March 31, 2011 | 51
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
 Report Number                       Issue Date          	 TID = Target Implementation Date
 DR-AR-11-003                        1/20/2011    City Delivery Efficiency Review – Northern Virginia District

                                                  R-1 — Reduce the Northern Virginia District’s workhours by 103,160 to achieve an associated economic impact of about $32
                                                        million over 10 years. TID: February 2011
 DA-AR-11-001                        2/7/2011     Facility Optimization: Western Area

                                                  R-1— Clarify procedures for reporting excess space. TID: March 2011

                                                  R-2 — Initiate disposal actions for excess space identified. TID: March 2011

                                                  R-3 — Pursue opportunities with federal agencies as an option to optimize excess property. TID: June 2011
 DA-AR-11-002                        2/11/2011    Facility Optimization: Eastern Area

                                                  R-1 — Clarify procedures for reporting excess space. TID: March 2011

                                                  R-2 — Initiate disposal actions for excess space identified. TID: March 2011

                                                  R-3 — Pursue opportunities with federal agencies as an option to optimize excess property. TID: June 2011
 IT-AR-11-003                        2/15/2011    Information Resource Access

                                                  R-3 — Review the exception to Handbook AS-805, Information Security, for developer read access to the production
                                                        environment to determine if the exception appropriately supports applicable policy and legal requirements.
                                                        TID: May 2011
 DA-AR-11-004                        2/25/2011    Facility Optimization: Capital Metro Area

                                                  R-1 — Clarify procedures for reporting excess space. TID: March 2011

                                                  R-2 — Initiate disposal actions for excess space identified. TID: March 2011

                                                  R-3 — Pursue rental opportunities with federal agencies as an option to optimize excess property. TID: June 2011
 DA-AR-11-003                        3/1/2011     Facility Optimization: Southwest Area

                                                  R-1 — Clarify procedures for reporting excess space. TID: March 2011

                                                  R-2 — Work in coordination to initiate disposal actions for identified excess space. TID: March 2011

                                                  R-3 — Pursue opportunities with federal agencies as an option to optimize excess property. TID: June 2011
 NO-MA-11-002                        3/1/2011     Management Advisory – Processing of Collection Box Flats in the Philadelphia Metropolitan Customer Service District

                                                  R-1 — Process collection box flats in accordance with Postal Service Standard Operating Procedures TID: April 2011
 EN-AR-11-002                        3/14/2011    Network Distribution Center Activation Impacts

                                                  R-1 — Ensure trailer capacity is being optimized to eliminate excess capacity in the transportation network. TID: None

                                                  R-2 — Review trips in the Network Distribution Center network for additional consolidation opportunities. TID: December 2011




52 | Semiannual Report to Congress
                                                                                                                                              APPENDIX E




                             Report Title, Recommendation Summary
                                    	 R = Recommendation number
Report Number   Issue Date          	 TID = Target Implementation Date
IT-AR-11-005    3/14/2011    Securing Information on Portable Devices

                             R-1 — Ensure all laptops are encrypted or granted an approved waiver in accordance with Handbook AS-805, Information
                                   Security. TID: None

                             R-2 — Identify, retrieve, and properly dispose of all outdated unencrypted laptops. TID: September 2011

                             R-4 — Coordinate and update Information Technology guidance and Handbook AS-701, Materials Management, to define
                                   staff roles and responsibilities for updating laptop changes in the Asset Inventory Management System and 4Z-PS969
                                   system. TID: December 2011

                             R-5 — Review all laptops to ensure the current status is reflected in the Asset Inventory Management System and the
                                   4Z-PS969 System, as appropriate. TID: June 2011

                             R-8 — Periodically review all BlackBerry devices to ensure they communicate with the BlackBerry Enterprise Server or are
                                   disconnected. TID: April 2011

                             R-10 — Develop and distribute procedures to establish user accountability for protecting sensitive data stored on other
                                   portable devices such as thumb drives, external hard drives, and Digital Video Discs. TID: March 2011
DR-MA-11-001    3/14/2011    The Effects of the Flats Sequencing System on Delivery Operations – Arizona District

                             R-1 — Continue to collaborate with business mailers to ensure flat mailpieces meet automation requirements and reduce the
                                   amount of unworked flat mail sent to delivery units. TID: None
IT-AR-11-004    3/16/2011    Computer Incident Data Reliability

                             R-1 — Standardize data input procedures and communicate to administrators the requirement to consistently populate
                                   incident data fields. TID: March 2011

                             R-3 — Integrate the Data Loss Prevention and Security Information Manager applications with the security incident
                                   management system to ensure a single incident data repository. TID: September 2011

                             R-4 — Either modify the existing incident management system or pursue development of a new system that enforces date and
                                   time value sequence and data validation. TID: September 2011
NL-AR-11-002    3/18/2011    Postal Vehicle Service – Scheduling and Staffing – Connecticut Valley District

                             R-1 — Ensure that Southern Connecticut Processing and Distribution Center and Springfield Processing and Distribution
                                   Center managers follow prescribed fleet management procedures for making Postal Vehicle Service schedules
                                   effective, including conducting schedule and vehicle utilization reviews. TID: None

                             R-2 — Verify elimination from the Postal Vehicle Service trip schedules of 7,245 workhours from the Southern Connecticut
                                   Processing and Distribution Center and 2,856 workhours from the Springfield Processing and Distribution Center
                                   identified during our audit and already agreed to by management. TID: March 2011

                             R-3 — Reassess the remaining 4,562 workhours identified in our audit and eliminate the workhours as indicated by the
                                   reassessment, or document the reasons for retaining the workhours. TID: May 2011

                             R-4 — Fully utilize the flexibility under the existing American Postal Workers Union Collective Bargaining Agreement and
                                   Memorandum of Understanding to increase the use of split days off for Postal Vehicle Service (PVS) drivers and
                                   maximize the use of part-time regular PVS drivers where possible. TID: None

                             R-5 — Increase the allowable percentage of all types of part-time employees to allow maximum use of part-time regular
                                   employees in facilities with Postal Vehicle Service operations. TID: None

                             R-6 — Provide permanent flexibility to schedule split days off for employees in facilities with Postal Vehicle Service operations.
                                   TID: None
EN-MA-11-001    3/25/2011    Benchmarking Mail Distribution to Carriers

                             R-1 — Pursue a delivery unit assistant initiative to have transitional employees or part-time flexible employees perform
                                   in-office activities including casing and preparing mail for carriers. TID: None




                                                                                                                        October 1, 2010 — March 31, 2011 | 53
APPENDIX E




                                                  Report Title, Recommendation Summary
                                                         	 R = Recommendation number
Report Number                        Issue Date          	 TID = Target Implementation Date
DR-AR-11-004                         3/30/2011    City Delivery Efficiency Review - Chicago District

                                                  R-1 — Reduce the district’s workhours by 188,884 to achieve an associated economic impact of more than $6.5 million
                                                        annually, or in excess of $65 million over 10 years. TID: None
HR-AR-11-001                         3/31/2011    Allegations of Inaccurate Time and Attendance Records

                                                  R-1 — Establish and implement controls in the Time and Attendance Collection Systems to document supervisors’ justification
                                                        of changes to employees’ time. TID: January 2012

                                                  R-2 — Issue supplemental guidance emphasizing the importance of completing Postal Service Form 1017-A, Time
                                                        Disallowance Record, and PS Form 3971, Request for or Notification of Absence. TID: May 2011

                                                  R-3— Establish a review and approval process to ensure time disallowances are appropriate and documented as required.
                                                       TID: May 2011

                                                  R-4 — Establish periodic monitoring of clock ring deletions to ensure employee workhours are recorded accurately.
                                                        TID: May 2011

                                                  R-5 — Provide periodic refresher training to managers, postmasters, supervisors, and acting supervisors on the Time and
                                                        Attendance Collection System. TID: May 2011

                                                  R-6 — Issue supplemental guidance to supervisors and managers regarding the appropriate use of operation codes
                                                        associated with recording safety talks and informational meetings in the Time and Attendance Collection System.
                                                        TID: May 2011
EN-AR-11-004                         3/31/2011    Lima, OH to Toledo, OH Area Mail Processing Consolidation

                                                  R-1 — Promptly assess the current mail volume and swiftly adjust workhours, sort plans, transportation, and any other
                                                        operational requirements to ensure the Toledo Processing and Distribution Center meets customer and service
                                                        commitments TID: March 2011

                                                  R-2 — Expedite filling vacant positions and assess any additional staffing requirements at all levels. TID: July 2011

                                                  R-3 — Assess and take appropriate corrective action related to mail processing space and transport equipment requirements,
                                                        dispatch discipline, contract drivers performing mail sortation, late truck departures, and incomplete Postal Service
                                                        Form 5429. TID: June 2011

                                                  R-4 — Establish and deploy formal Area Mail Processing implementation teams to the gaining facilities for plant consolidations
                                                        that result in a facility closure to ensure consolidations are implemented as approved and to identify and facilitate
                                                        corrective actions timely. TID: June 2011
HR-AR-11-003                         3/31/2011    Overtime Usage

                                                  R-1 — Develop and implement a plan to attain alignment between current workload and workforce levels, by location, to
                                                        ensure effective and efficient use of Postal Service resources. TID: None

                                                  R-2 — Ensure significant changes impacting operations and resources are accounted for in the budget plan. TID: None




54 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX F




APPENDIX F
Significant Management Decisions in Audit Resolution
For the period October 1, 2010 — March 31, 2011

As required by the IG Act, the following page discusses information concerning any significant management decision with which the Inspector General disagrees
and is currently in audit resolution.


Office of Inspector General
															
None for this report period




                                                                                                                              October 1, 2010 — March 31, 2011 | 55
APPENDIX G




APPENDIX G

Status of Peer Review Recommendations
Federal audit organizations undergo an external quality control assessment by their peers every 3 years. The Dodd-Frank Wall Street Reform and Consumer
Protection Act of 2010 requires an appendix reporting on 1) any Office of Inspector General peer reviews conducted during the semiannual period; and
2) any outstanding recommendations from any previous or current peer review that remain outstanding or have not been fully implemented.


Office of Audit

Internal Peer Reviews
On March 31, 2010, the Department of Defense OIG (DOD OIG) issued a quality control review report of our audit organization. We received a peer review rating of pass.
All outstanding recommendations have been implemented as of March 31, 2011.


A copy of this quality control review report, in its entirety, can be viewed on the USPS OIG website at www.uspsoig.gov.


External Peer Reviews
None conducted during this period.


Office of Investigations

Internal Peer Reviews
None conducted during this period.


External Peer Reviews
From September 13 to October 4, 2010, our agency conducted a peer review of the Social Security Administration OIG’s (SSA OIG’s) Office of Investigations. We
reviewed their Investigative Operations at their headquarters and at three of their field offices. On December 7, 2010, we issued a letter to the SSA OIG on the review
results. There were no specific findings or recommendations.




56 | Semiannual Report to Congress
                                                                                                                                                                               APPENDIX H




APPENDIX H
Investigative Statistics*
For the period October 1, 2010 — March 31, 2011

                                                                                      Convictions/         Admin.                                              Amt. to USPS       To Mgmt.
                                    Investigations                  Indictments/           Pretrial        Action               Cost   Fines, Restitution,   (from previous      for Admin.
                                       Completed       Arrests      Informations       Diversions**         Taken          Avoidance      and Recoveries          column)***         Action
Theft, Delay, or Destruction                   617         200                206              202             393               —             $575,652            $292,897             462
of Mail by Employees or
Contractors
Injury Compensation                            277           17                  21              18             73      $86,048,570         $291,159,182        $54,149,082               73
Fraud 1
Official Misconduct                            381           43                  59             44             277               —            $3,815,087            $95,421             313
Financial Fraud                                334           60                  60            102             219        $1,355,000         $2,054,544          $1,980,676             239
Contract Fraud 2                                52            6                  20              15             47        $1,588,998       $410,064,157         $11,441,705               26
TOTAL                                        1,661         326                366              381           1,009      $88,992,568        $707,668,622        $67,959,781             1,113


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.

1
    Amount under Fines, Restitution, and Recoveries includes nearly $264.5 million from one pharmaceutical investigation.
2
    Amount under Amt. to USPS (from previous column) includes $42.5 million from one pharmaceutical investigation.




                                                                                                                                                         October 1, 2010 — March 31, 2011 | 57
APPENDIX I




APPENDIX I
Summary of U.S. Postal Inspection Service Actions Under 39 USC 3005 and 3007
For the period October 1, 2010 — March 31, 2011


                                             Complaints       Consent               Cease &
Type of Scheme                                    Filed    Agreements   FROs   Desist Orders
Advance fee                                            2            2     —               2
Charity                                               —            —      —              —
Contests/sweepstakes                                  27           23      1             26    Financial Reporting on Investigative
Coupon fraud                                           1            1     —               1    Activities for the Postal Inspection
False billings                                         8            7     —               7    Service
Internet Auction                                      —            —      —              —     Type
Lotteries (foreign and domestic)                      10           10      3              10   Personnel                     $136,771,722
Merchandise:                                                                                   Nonpersonnel                   $31,599,522
   Failure to furnish                                 11           10      3              11   TOTAL                        $168,371,244
   Failure to pay                                      3            2     —               2    Capital obligations             $4,344,449
Misrepresentation                                     —            —      —              —
Miscellaneous                                         45           36      1             37
Telemarketing                                         —            —      —              —
Work at home                                           2            2     —               2
TOTAL                                                109          93       8             98
Other Administrative Actions
Administrative Action Requests                                                           121
Temporary Restraining Orders issued                                                       —
Cases Using Direct Purchase Authority                                                     —
Civil Penalties (Section 3012) Imposed                                                    —
Test Purchases                                                                            —
Withholding Mail Orders Issued                                                            12
Voluntary Discontinuances                                                                 —




Administrative Subpoenas Requested by the Postal Inspection Service
There was one request during the reporting period.




58 | Semiannual Report to Congress
                                                                                                                                                                         APPENDIX J




APPENDIX J
Closed Congressional and Board of Governors’ Inquiries
For the period October 1, 2010­— March 31, 2011

This appendix lists the congressional and Board of Governors inquiries the OIG closed during this reporting period. OIG units reviewed or investigated these
inquiries to resolve allegations and disputes, and to help identify systemic issues. Inquiries are listed in the chronological order of receipt.




Inspector General Investigations (53)
Requestor                 Allegation/Concern                                                   Major Findings                                                            Closure Date
Senator, Virginia         Manager created a hostile work environment by threatening,           Investigators coordinated with management, which conducted                      11/10/10
                          intimidating, and berating employees.                                a formal Workplace Environment Improvement investigation and
                                                                                               counseled the manager. We reviewed their work to ensure the
                                                                                               allegations were adequately addressed.
White House               Manager committed mail theft, forgery, and fraud.                    Investigation substantiated the allegations. We referred our findings            10/4/10
                                                                                               to postal management and federal and state attorneys' offices for
                                                                                               administrative action and prosecution.
Senator, California       Non-receipt of an international Registered Mail package.             The investigation found no evidence of mail tampering, delay, or theft           10/4/10
                                                                                               by postal employees. Attempts to locate the package, working with
                                                                                               the International Mail and Mail Recovery Centers, were unsuccessful.

Senator, Pennsylvania     Management delayed mail and hid it to avoid detection.               Investigation determined managers were not following mail                       10/12/10
                                                                                               processing policy and our investigators worked with management
                                                                                               to clarify the policy. However, the investigation found no evidence
                                                                                               management intentionally delayed mail.
Representative,           Non-receipt of several gift cards.                                   The investigation found no evidence of mail tampering or theft by                1/10/11
New York                                                                                       postal employees. The investigation determined the mailpieces were
                                                                                               likely damaged by postal sorting machines, causing the loss.
Senator, Maryland         Former employee wrongfully accused of theft of funds from a postal   The investigation did not substantiate the allegation of theft by                10/5/10
                          safe; alleges another employee must have been responsible.           another employee; but we discovered accounting error created
                                                                                               an appearance of a shortage. We forwarded our findings to
                                                                                               management for administrative action and correction.
Representative, Florida   A postal employee provided false statements during legal             The investigation did not substantiate the allegations.                         11/18/10
                          proceedings; the return of a manager to the complainant's duty
                          station would create a hostile work environment.
Representative,           Non-receipt of mail, including a Social Security card.               The investigation found no evidence postal employees stole or                    1/10/11
New Jersey                                                                                     tampered with the complainant's mail.
Senator, Maryland         Theft of a gift card.                                                Investigation substantiated the allegations. We referred our findings            10/4/10
                                                                                               to the U.S. Attorneys' Office for prosecution.
Senator, Ohio             Theft of a book mailed to a customer in California.                  Investigation did not substantiate the allegations. A search for the             1/10/11
                                                                                               contents at the Mail Recovery Center was unsuccessful.
Representative,           A postal employee tampered with or intentionally delayed several     The investigation found evidence of theft, but the investigation                 1/13/11
New York                  customer checks sent to the complainant's company.                   did not conclusively determine the theft occurred internally.
                                                                                               We forwarded our findings to management for action deemed
                                                                                               appropriate.
Representative,           Theft from complainant's mailbox and a Kentucky post office.         The U.S. Postal Inspection Service previously conducted an                       10/4/10
Kentucky                                                                                       investigation and did not substantiate the allegations; we found no
                                                                                               basis for further review.




                                                                                                                                                    October 1, 2010 — March 31, 2011 | 59
APPENDIX J




Requestor                 Allegation/Concern                                                     Major Findings                                                             Closure Date
Senator, Missouri         Non-receipt of several checks.                                         The investigation found no evidence that postal employees stole                 10/4/10
                                                                                                 or tampered with the complainant's mail. We determined his utility
                                                                                                 company's mail contractor inadvertently rejected payment checks
                                                                                                 over a four-year period.
Representative, Florida   Theft of several gift cards.                                           Investigation confirmed the complainant's mail may have been                    12/6/10
                                                                                                 delayed, stolen, or tampered with. However, the investigation found
                                                                                                 no evidence that a postal employee was responsible.
Senator, West Virginia    Theft of collector coins from a package.                               The investigation did not substantiate the allegation. The                      10/4/10
                                                                                                 investigation determined the package was likely damaged by postal
                                                                                                 sorting machines, causing the coins to be separated from the letter.
                                                                                                 Our agents were unable to locate the coins.
Representative,           Non-delivery of letters because they were mailed with Forever          The investigation did not substantiate the allegation. The                      10/5/10
Pennsylvania              Stamps.                                                                investigation found no evidence of an internal, systemic problem of
                                                                                                 mail theft or tampering related to Forever Stamps.
Representative,           Non-delivery of several bags of bulk mail sent from a New Jersey       The investigation confirmed the mail was not delivered. We could not            10/4/10
New Jersey                post office.                                                           identify instances of misconduct or the root cause of the problem.
Representative,           Former employee wrongfully accused of theft of funds from a postal     The investigation did not substantiate the allegation of theft by               10/5/10
Maryland                  safe; alleges another employee must have been responsible.             another employee; but we discovered an accounting error created
                                                                                                 an appearance of a shortage. We forwarded our findings to
                                                                                                 management for administrative action and correction.
Senator, Florida          Intentional mail delay at a Virginia post office.                      Investigation found packages were scanned as "delivered" before                12/20/10
                                                                                                 delivery was attempted. However, this process is permitted under
                                                                                                 policy applicable to this specific courthouse location.
Senator, Oregon           Postal employees stole and altered two checks mailed to a post         Review found the checks were altered by individuals external to the             10/4/10
                          office box in Georgia.                                                 Postal Service. We referred our findings to the Postal Inspection
                                                                                                 Service and local law enforcement agencies.
Representative, Ohio      A postal employee made harassing calls to a congressional district     Due to the nature and timing of the allegations, we were unable to             12/17/10
                          office regarding the use of franked mail and potentially delayed or    conduct a full investigation. Review found no evidence of a systemic
                          discarded political mail.                                              problem of delayed or discarded mail in the area.
Representative, Texas     Non-receipt of mail, including prescription medicine from the          Investigation revealed employee error most likely caused the mail              10/15/10
                          Department of Veterans Affairs.                                        delivery issues. We reviewed management actions to resolve the
                                                                                                 complaint.
Senator, New York         Postal Inspectors made false statements in investigative               Investigation did not substantiate the allegations.                             1/24/11
                          memoranda.
Senator, Hawaii           Non-delivery of mail to a government office, resulting from postal     Investigation located the agent for the state official, who confirmed          11/16/10
                          employee misconduct.                                                   she signed for and retrieved the mail. The government office could
                                                                                                 not account for the mail after it left the jurisdiction of the Postal
                                                                                                 Service.
Representative,           Non-receipt, tampering, and delay of mail.                             The investigation found no evidence postal employees stole or                  11/16/10
California                                                                                       tampered with the complainant's mail. Management had already
                                                                                                 responded with improvements to secure mail delivery.
Representative,           A postmaster allowed rural letter carriers to carry mail on contract   Review found management addressed the allegation through an                     10/4/10
New Hampshire             routes, a violation of 18 U.S.C. § 440.                                administrative process. We noted that management and union
                                                                                                 officials agreed that the alleged practice would violate the law and
                                                                                                 federal ethics regulations.
Senator, New York         Non-receipt of a package.                                              We undertook no work after learning the issues had been resolved.               10/4/10
Senator, Virginia         Management intentionally delayed undeliverable mail at a Virginia      Investigation did not substantiate the allegations. Investigation               12/6/10
                          post office.                                                           determined the delays were likely due to a consolidation of other
                                                                                                 postal facilities in the district, as well as failed implementation of a
                                                                                                 new PARS processing procedure for undeliverable mail.




60 | Semiannual Report to Congress
                                                                                                                                                                                     APPENDIX J




Requestor                  Allegation/Concern                                                          Major Findings                                                                Closure Date
Representative,            Postal employees, acting under political influence, intentionally           The investigation did not substantiate the allegations. Investigation                1/13/11
West Virginia              mishandled a letter sent via certified mail to a Maryland state official.   determined a postal employee successfully delivered the letter to the
                                                                                                       official's office, but failed to follow postal policy regarding delivery of
                                                                                                       certified mail receipts. We forwarded our findings to management for
                                                                                                       action deemed appropriate.
Senator, Nevada            Mail tampering; theft of a diamond from a ring mailed to a Kansas           The investigation found a postal employee opened the package                           1/6/11
                           jeweler.                                                                    and stole the diamond from the ring. We forwarded our findings to
                                                                                                       management for administrative action, and to the U.S. Attorneys'
                                                                                                       Office for prosecution.
Representative,            Theft of cash from a Priority Mail envelope.                                Investigation found no evidence postal employees tampered with or                    1/10/11
New York                                                                                               stole the cash.
Representative,            Non-delivery of letters mailed to an addressee in New York.                 Investigation determined several of the letters were temporarily                    11/10/10
New York                                                                                               misplaced, apparently after the addressee declined to sign for them.
Senator, New Mexico        Non-receipt of mail; postal employees intentionally discarded mail to       The investigation did not substantiate the allegations. Investigation                  1/6/11
                           harass complainant.                                                         found there was a widespread external mail theft problem in the
                                                                                                       complainant's delivery area. The Postal Inspection Service and a
                                                                                                       local law enforcement agency were actively investigating.
Senator,                   A postmaster allowed rural letter carriers to carry mail on contract        Review found management addressed the allegation through an                         10/14/10
New Hampshire              routes, a violation of 18 U.S.C. § 440.                                     administrative process. We noted that management and union
                                                                                                       officials agreed that the alleged practice would violate the law and
                                                                                                       federal ethics regulations.
Senator, Florida           International Registered Mail package was significantly delayed and         The investigation found no evidence of postal employee misconduct.                   1/24/11
                           arrived missing its contents.                                               Investigators were unable to determine what caused the package
                                                                                                       to be misrouted through India, but tracking information indicated
                                                                                                       the package was in good condition throughout US Postal Service
                                                                                                       processing.
Senator, California        Mail tampering and delay.                                                   The complainant refused to allow investigators access to his                        12/20/10
                                                                                                       evidence of tampering. We were unable to develop investigative
                                                                                                       leads substantiating the allegations.
Ranking Member,            Request for investigation of possible ethics violations at U.S. Postal      Allegations not substantiated.                                                       3/31/11
Senate Committee           Service.
Senator, New York          Management willfully delayed mail; whistleblower reprisal.                  Investigation found no evidence of mail delay. The investigation also                 3/8/11
                                                                                                       determined the complaint did not meet the four necessary elements
                                                                                                       of whistleblower reprisal, specifically failure to show a protected
                                                                                                       communication to the OIG.
Senator, Virginia          Non-delivery of a package sent to a post office box.                        Investigation found no evidence postal employees stole or discarded                  2/24/11
                                                                                                       the package, nor could they account for the package which had
                                                                                                       been logged as arrived. Management worked with the addressee to
                                                                                                       ensure packages sent to the his post office are delivered securely.
Senator, Maryland          Damaged letters indicating attempted mail tampering and theft.              Investigation did not substantiate the allegations. The investigation                 3/3/11
                                                                                                       determined the letters were likely damaged by postal sorting
                                                                                                       machines.

Senator, South Carolina    Non-delivery of a greeting card containing cash.                            Investigation found a postal employee most likely stole the gift card.                3/3/11
                                                                                                       We forwarded our findings to management for administrative action,
                                                                                                       and to a local law enforcement agency for judicial action.
Representative, Texas      Management directed employees to discard Undeliverable Bulk                 Investigation found a manager directed employees to discard                          2/24/11
                           Business Mail without sorting out First-Class Mail and Periodicals.         Undeliverable Bulk Business Mail without sorting First-Class Mail and
                                                                                                       Periodicals. We referred our findings to management.
Representative, Virginia   A postal employee was in a non-duty, non-pay status for an unduly           The investigation, conducted between July and December,                              1/24/11
                           long period during an OIG investigation.                                    substantiated the charges against the postal employee. We referred
                                                                                                       our findings to the United States Attorney.
Senator, Iowa              Postal employees vandalized coworker's property in retaliation for          Investigation found no evidence that the vandalism occurred at the                   2/24/11
                           terminating his union membership.                                           hands of postal employees, and we referred the matter to local law
                                                                                                       enforcement.




                                                                                                                                                                October 1, 2010 — March 31, 2011 | 61
APPENDIX J




Requestor                 Allegation/Concern                                                    Major Findings                                                           Closure Date
Senator, New Mexico       Non-receipt of various bills, banking information, and checks.        Investigation substantiated the allegations and found a former postal          2/8/11
                                                                                                employee was most likely responsible for the delivery problems. The
                                                                                                employee left the Postal Service after questioning. We forwarded
                                                                                                our findings to the U.S. Attorney, who denied prosecution.
Senator, New York         Request for status of appeal of complainant's termination of          Review found the deciding official previously provided the requested         12/21/10
                          employment with the OIG.                                              information.
Senator, Florida          A manager sexually harassed the complainant.                          Investigation did not substantiate the allegation, but found the              3/10/11
                                                                                                complainant and manager maintained a sexual relationship while
                                                                                                both were employees of the Postal Service. We forwarded our
                                                                                                findings to management for action deemed necessary.
Senator, Missouri         Mail tampering and theft.                                             Investigation did not substantiate the allegations. The investigation         3/28/11
                                                                                                determined the complainant's package was likely overfilled and split
                                                                                                open during parcel sortation. Efforts to locate the contents at the
                                                                                                Mail Recovery Center were unsuccessful.
Senator, Florida          Theft of a cell phone from a package.                                 The investigation found no evidence indicating employee theft.                3/22/11
Representative,           Non-delivery of a firearm mailed to California.                       Investigation initially found no evidence of postal employee                   3/1/11
Georgia                                                                                         involvement, but later found a postal contractor was likely
                                                                                                responsible for the theft. We noted that mail was routinely not
                                                                                                secured and remained accessible on Sundays and advised Postal
                                                                                                Inspection Service, which has jurisdiction over installation security.
Ranking Member,           Request for briefing on the OIG's investigative program on Federal    Briefed committee staff as requested.                                         1/24/11
Senate Subcommittee       Employee's Compensation Act fraud.
Representative,           Manager improperly rejected a bid for a contract to clean postal      Investigation did not substantiate the allegation. The investigation          3/31/11
Michigan                  facilities.                                                           found the manager acted in accordance with postal contracting
                                                                                                policy.
Representative,           Wrongful discharge because of a disability.                           Review found the matter was outside the jurisdiction of the OIG.              3/17/11
California



General Counsel (9)
Requestor                 Allegation/Concern                                                    Major Findings                                                           Closure Date
Representative, Florida   Complainant wished to withdraw complaint sent to the OIG Hotline.     Review found the complainant's request was fully addressed.                   10/7/10
Representative,           Consolidation plans for two West Virginia facilities would expose     The complainant provided no credible basis for his assertions. We            10/14/10
West Virginia             operations to terrorist attacks.                                      noted the role of the Postal Inspection Service in maintaining the
                                                                                                security of facilities and the mail.
Senator, Florida          Request for investigative findings under the Freedom of Information   Processed request and provided records in accordance with the                11/22/10
                          Act.                                                                  FOIA.
Ranking Member,           Request for bi-annual reports on all closed investigations,           Provided requested available information.                                     1/14/11
House Committee;          evaluations, and audits not disclosed to the public, to support
Ranking Member,           congressional oversight activities.
Senate Subcommittee
Representative, Iowa      Request for an OIG report of investigation.                           Provided a redacted copy of report previously released under the              2/17/11
                                                                                                FOIA.
Senator, New York         Mismanagement and misconduct at a New York facility; employee         The Postal Service Government Relations Office previously                      2/2/11
                          fraudulently obtained full-disability retirement benefits.            addressed the allegations of mismanagement and misconduct; the
                                                                                                allegation relating to retirement benefits falls under the OPM OIG
                                                                                                jurisdiction. We declined further work.
Chairman,                 Request for detailed information on the postal FOIA performance       Provided the requested information for the OIG separately.                    2/15/11
House Committee           during the previous 5 years.




62 | Semiannual Report to Congress
                                                                                                                                                                          APPENDIX J




Requestor                Allegation/Concern                                                     Major Findings                                                            Closure Date
Chairman, House          Request for a briefing on the conformance of OIG blogging and other    Provided the requested information in a briefing to committee staff.             2/18/11
Committee                use of social media with federal laws and rules.
Senator, Texas           Theft of cash from a letter; Postal Service failed to adequately       The Postal Service Government Relations Office earlier addressed                 3/21/11
                         process an appeal of complainant's indemnity claim.                    the complainant's indemnity claim. The OIG Office of Investigations
                                                                                                reviewed the mail theft allegation and declined to undertake formal
                                                                                                work. We retained the allegation in our database for possible future
                                                                                                systemic review.



Inspector General Audits/Risk Analysis Research Center Reports (7)
Requestor                Allegation/Concern                                                     Major Findings                                                            Closure Date
Senator, California      Concerns about consolidation of Marysville and West Sacramento         Review determined a business case supported the consolidation,                  11/23/10
                         facilities.                                                            finding sufficient capacity to process mail at one facility, customer
                                                                                                service would improve, no career postal employees would lose their
                                                                                                jobs, processing efficiency would improve, service improved and mail
                                                                                                delays were reduced, environmental impacts were minimized through
                                                                                                transportation reductions, and contingency plans for emergencies
                                                                                                were in place.
Representative,          Concerns about consolidation of the Columbus and Macon facilities.     Review determined a business case supported the consolidation,                   2/14/11
Georgia                                                                                         finding adequate capacity to process mail at one facility, customer
                                                                                                service was maintained, limited numbers of employees were
                                                                                                impacted, and efficiency improved.
Representative,          Request for a review of the National Reassessment Program and the      The Office of Audit initiated work in October 2010. Work on the                  3/17/11
California               administration of the Pay for Performance system.                      National Reassessment Program was suspended pending a class-
                                                                                                action lawsuit involving postal employees affected by the program.
                                                                                                Audit work on the Pay for Performance program is ongoing.
Representative,          Management intentionally delayed mail and wasted resources to          Review did not substantiate the allegations. The review did not find             2/23/11
West Virginia            bolster the case for moving mail from that location.                   evidence of delayed mail. We found sufficient city and rural carrier
                                                                                                staffing to support mail delivery, and overtime usage in line with
                                                                                                district and national averages.
Chairman,                Request the OIG evaluate the financial impact of the McNamara-         Provided requested information in a briefing to committee staff.                 2/25/11
House Committee          O'Hara Services Contract Act on the Postal Service.
Representative, Kansas   Request for OIG to provide, for the record of the hearing before       We advised that, regardless of the PRC opinion, appropriations                     3/4/11
                         the House Appropriations Subcommittee on Financial Services            language limits the Postal Service from implementing 5-day delivery
                         and General Government, information on the significance of an          service without congressional action.
                         anticipated Postal Regulatory Commission (PRC) advisory opinion on
                         the Postal Service ability to implement 5-day delivery service.
Chairman,                Request for OIG to provide, for the record of the hearing before the   We advised, inter alia, that the difference is that the OIG                        3/4/11
House Subcommittee       House Appropriations Subcommittee on Financial Services and            methodology splits the pension costs evenly based on years of
                         General Government, information on the differences between the         service while the PRC splits costs based on the CSRS pension
                         OIG and PRC estimates on the Postal Service overpayment of Civil       formula, under which later years of service earn a higher benefit and
                         Service Retirement System liabilities.                                 generate higher pension costs.




                                                                                                                                                     October 1, 2010 — March 31, 2011 | 63
APPENDIX J




Referrals (15)
Requestor                  Allegation/Concern                                                        Referred To                                        Closure Date
Representative, Texas      Misrepresentation; a writer falsely claimed to be a union official in a   U.S. Postal Inspection Service                          10/1/10
                           letter to a congressional office.
Senator, Maryland          Monetary value of annual Postal Service contract awards to small          Government Relations Office, U.S. Postal Service        10/5/10
                           and disadvantaged businesses.
Representative,            Mail theft and delay by a person external to the Postal Service.          Postal Inspection Service                              10/13/10
Pennsylvania
Representative,            Mail fraud scheme.                                                        Postal Inspection Service                              11/12/10
Pennsylvania
Representative, Florida    Request for assistance in obtaining pay and benefits withheld while       Government Relations Office                             12/1/10
                           in a non-pay status.
Representative,            Mail fraud scheme.                                                        Postal Inspection Service                               12/2/10
Michigan
Representative, Florida    Mail fraud scheme.                                                        Postal Inspection Service                               12/2/10
Representative, Ohio       Person believed to be external to the Postal Service tampered with        Postal Inspection Service                              12/22/10
                           and stole mail.
White House                Person believed to be external to the Postal Service tampered with        Postal Inspection Service                              12/29/10
                           and stole mail.
Senator, Hawaii            Further investigation of mail not delivered to a governmental official.   Postal Inspection Service                               1/10/11
                           A previous OIG investigation found no postal misconduct.
Representative, Virginia   Request for assistance in filing an Equal Employment Opportunity          Government Relations Office                             1/13/11
                           complaint with the Postal Service.
Representative, Florida    Postal Inspector incurred damages because the Postal Inspection           Government Relations Office                              3/3/11
                           Service and postal contractor Cartus failed to process his relocation
                           benefits in accordance with postal policy.
Representative,            Request for assistance obtaining retirement pay.                          Government Relations Office                              3/3/11
Alabama
Representative,            Non-receipt of a reward for participation in a Postal Inspection          Postal Inspection Service                               3/10/11
Missouri                   Service investigation.
Senator, Maryland          External theft and rifling of mail.                                       Postal Inspection Service                               3/21/11




64 | Semiannual Report to Congress
                                                                                           FREEDOM OF INFORMATION ACT/ WORKPLACE ENVIRONMENT




SUPPLEMENTAL INFORMATION                                                          SUPPLEMENTAL INFORMATION
Freedom of Information Act                                                        Workplace Environment
The OIG’s Freedom of Information Act (FOIA) Office operates independently         The OI Workplace Environment unit reviews workplace environment and
of, but frequently coordinates with, its counterparts at the Postal Service and   operational issues that may affect workplace climate in postal facilities
the Postal Inspection Service. The FOIA Office receives requests for records      through the country. The OIG Hotline is the usual source for the complaints,
from the public, the media, and postal employees. The FOIA, according to          but occasionally members of Congress, the Governors, and postal
the Department of Justice, “generally provides that any person has a right,       management will raise concerns or forward complaints appropriate for
enforceable in court, to obtain access to federal agency records, except to       review by the unit. Complaint topics range from sexual harassment and
the extent that such records (or portions of them) are protected from public      discrimination to workplace safety. Workplace Environment reviews are
disclosure by one of nine exemptions.”                                            designed to identify systemic, rather than individual, issues and foster
                                                                                  postal management efforts toward providing employees a stress- and
For the period October 1, 2010 — March 31, 2011                                   adversity-free work environment.

                                                                                  The unit accepts complaints from any postal employee, including OIG and
                                                                                  Postal Inspection Service staff. Reviews may result in fact-finding reports
Requests                                                Number of Requests        to management or referral for specific suggested action, such as climate
Carryover from prior period                                                  6    assessments.
Received during period                                                     194
                                                                                   Activities
Total on hand during period                                                200
                                                                                   For the period October 1, 2010 — March 31, 2011
Actions                                                 Number of Requests
Processed during the period                                                194     Complaints received                                                                Total
   Requests denied in full                                                  17     Carryover from prior period                                                           17
   Requests denied in part                                                  70     Complaints received from OIG Hotline, Congress, Governors, management,              284
                                                                                   internal, and other
   Requests granted in full                                                  6
                                                                                   Total on hand during this period                                                    301
   No records                                                               22
   Requests referred                                                        64
   Requests withdrawn                                                        6     Workplace environment actions                                                      Total
   Fee-related reasons                                                      —      Complaints reviewed and closed during the period                                    268
   Records not reasonably described                                         —      Referred to Postal Inspection Service                                                  2
   Not a proper FOIA request for some other reason                           5     Referred to Office of Audit                                                            1
   Not an agency record                                                      4     Referred to Office of Investigations                                                   5
   Duplicate request                                                        —      Referred to Workplace Environment                                                     51
                                                                                   Referred to Hotline                                                                    3
Balance                                                 Number of Requests
                                                                                   Summary of findings to Congress/BOG/Postal Service management                         60
Balance at the end of the period (pending)                                   6
                                                                                   Referred to FOIA                                                                      —
                                                                                   Referred to AIG for Investigations                                                    —
Processing Days                                              Number of Days
                                                                                   Referred to database for statistical analysis and possible systemic review           146
Median processing days to respond to a FOIA request                           4
                                                                                   Complaints pending at the end of the period                                            4




                                                                                                                                        October 1, 2010 — March 31, 2011 | 65
ACRONYM GUIDE




Acronym Guide
Here is a quick guide to acronyms used in this reporting period.

APPS: Automated Package Processing System                                 NALC: National Association of Letter Carriers

APWU: American Postal Workers Union                                       NCSC: National Customer Support Center

C&A: certification and accreditation                                      NDC: network distribution center

CSRS: Civil Service Retirement System                                     NPV: net present value

CSS: customer service supervisor                                          OA: Office of Audit

DBCS: Delivery Barcode Sorter                                             OI: Office of Investigations

DOL: U.S. Department of Labor                                             OWCP: Office of Workers’ Compensation Programs

DEA: Drug Enforcement Administration                                      P&DC: processing and distribution center

DWC: distribution window clerk                                            P&DF: processing and distribution facility

eCBM: Electronic Conditional Based Maintenance                            PAEA: Postal Accountability and Enhancement Act of 2006
                                                                                (also known as the Postal Act of 2006)
EDDI: Electronic Data Distribution Infrastructure
                                                                          PKI: Public Key Infrastructure
EDI: Electronic Data Interchange
                                                                          PRC: Postal Regulatory Commission
EIR: Enterprise Information Repository
                                                                          PVS: Postal Vehicle Services
FEGLI: Federal Employees’ Group Life Insurance
                                                                          RARC: Risk Analysis Research Center
FEHB: Federal Employees Health Benefits
                                                                          SBOC: Stations and Branches Optimization Consolidation
FSS: Flats Sequencing System
                                                                          SSA: sales and services associate
GMU: George Mason University
                                                                          TACS: Time and Attendance Collection System
HCR: highway contract route
                                                                          VMF: Vehicle Maintenance Facility
LLV: long-life vehicles

MTE: mail transport equipment




The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, U.S. Postal Service®, USPS®, First-Class Mail®, usps.com®, Click-N-
Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel Post®, Media Mail®, Customized MarketMail®, Intelligent Mail®, Parcel Select®, Express
Mail International®, Quick, Easy, Convenient®, United States Postal Service Office of Inspector General™, Post Office™, Postal Service™, Signature Confirmation™, Certified Mail®, Delivery
Confirmation™, Registered Mail™, ZIP Code™, Carrier Pickup™, Priority Mail International®, First-Class Mail International®, Premium Forwarding Service®, Forever Stamp® and Postmaster
General™.




66 | Semiannual Report to Congress
The U.S. Postal Service has two
law enforcement agencies with
distinct areas of investigative
responsibility to serve the needs
of stakeholders, postal employees,
and the American public.


Who do I call?
Office of Inspector General                    Postal Inspection Service
■■ 	 Theft, delay, or destruction of mail by   ■■ 	 Security of employees, facilities,
     employees and contractors                      and equipment
■■ 	 Workers’ compensation fraud               ■■ 	 Revenue and postage fraud

■■ 	 Embezzlements and financial crimes        ■■ 	 International mail security

■■ 	 Contract fraud                            ■■ 	 Violent crimes:

■■ 	 Kickbacks
                                                    - Threats and assaults of employees
                                                    - Burglaries and robberies
■■ 	 Computer crimes
                                               ■■ 	 Mail theft by nonemployees
■■ 	 Narcotics
                                               ■■ 	 Dangerous mail and bombs
■■ 	 Employee misconduct
                                               ■■ 	 Mail fraud
■■ 	 Internal affairs and executive
                                               ■■ 	 Identity theft
     investigations
                                               ■■ 	 Narcotics in the mail
■■ 	 Whistleblower reprisals
                                               ■■ 	 Child pornography and obscenity


Contact: 888-USPS OIG                          Contact: 877-876-2455
www.uspsoig.gov                                http://postalinspectors.uspis.gov/
U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
1-888-USPS-OIG (1-888-877-7644) Fax: 703-248-2291 www.uspsoig.gov




68 | Semiannual Report to Congress
